<html>
<title> - SECURING THE BORDER</title>
<body><pre>[Senate Hearing 112-232]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-232
 
                       SECURING THE BORDER--2011 

=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             MARCH 30, 2011
                     BUILDING ON THE PROGRESS MADE

                             APRIL 7, 2011
                      PROGRESS AT THE LOCAL LEVEL

                              MAY 4, 2011
                     PROGRESS AT THE FEDERAL LEVEL

                               ----------                              

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




























                                                        S. Hrg. 112-232

                       SECURING THE BORDER--2011

=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 30, 2011
                     BUILDING ON THE PROGRESS MADE

                             APRIL 7, 2011
                      PROGRESS AT THE LOCAL LEVEL

                              MAY 4, 2011
                     PROGRESS AT THE FEDERAL LEVEL

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

67-122 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




























        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada*
JON TESTER, Montana                  ROB PORTMAN, Ohio
MARK BEGICH, Alaska                  RAND PAUL, Kentucky

                  Michael L. Alexander, Staff Director
                    Holly A. Idelson, Senior Counsel
               Blas Nunez-Neto, Professional Staff Member
                  Nicole M. Martinez, Legislative Aide
               Nicholas A. Rossi, Minority Staff Director
   Brendan P. Shields, Minority Director of Homeland Security Policy
             Christopher J. Burford, Minority CBP Detailee
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk

                * Senator Ensign resigned on May 3, 2011




























                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman........................................ 1, 35, 61
    Senator McCain........................................... 3, 37, 86
    Senator Johnson............................................. 20, 76
    Senator Tester.............................................. 22, 73
    Senator McCaskill............................................    26
    Senator Coburn...............................................    54
    Senator Collins..............................................    64
    Senator Carper...............................................    91
Prepared statements:
    Senator Lieberman..................................... 95, 153, 241
    Senator McCain............................................. 98, 155
    Senator Collins..............................................   243

                               WITNESSES
                       Wednesday, March 30, 2011

Hon. Asa Hutchinson, Former Under Secretary for Border and 
  Transportation Security at the U.S. Department of Homeland 
  Security.......................................................     5
Hon. Doris Meissner, Former Commissioner of the U.S. Immigration 
  and Naturalization Service at the U.S. Department of Justice...     9
Richard M. Stana, Director, Homeland Security and Justice Issues, 
  U.S. Government Accountability Office..........................    11

                        Thursday, April 7, 2011

Hon. Veronica Escobar, El Paso County Judge, Texas...............    39
Hon. Raymond Loera, Sheriff of Imperial County, California.......    41
Hon. Raymond Cobos, Sheriff of Luna County, New Mexico...........    43
Hon. Paul Babeu, Sheriff of Pinal County, Arizona................    45

                         Wednesday, May 4, 2011

Hon. Janet A. Napolitano, Secretary, U.S. Department of Homeland 
  Security.......................................................    66

                     Alphabetical List of Witnesses

Babeu, Hon. Paul:
    Testimony....................................................    45
    Prepared statement with attachments..........................   177
Cobos, Hon. Raymond:
    Testimony....................................................    43
    Prepared statement...........................................   170
Escobar, Hon. Veronica:
    Testimony with an attachment.................................    39
    Prepared statement...........................................   157
Hutchinson, Hon. Asa:
    Testimony....................................................     5
    Prepared statement...........................................   100
Loera, Hon. Raymond:
    Testimony....................................................    41
    Prepared statement...........................................   166
Meissner, Hon. Doris:
    Testimony....................................................     9
    Prepared statement...........................................   105
Napolitano, Hon. Janet A.:
    Testimony....................................................    66
    Prepared statement...........................................   246
Stana, Richard M.:
    Testimony....................................................    11
    Prepared statement...........................................   115

                                APPENDIX

Chart submitted by Senator Lieberman on March 30, 2011...........    97
Letter from the Department of the Interior with an attachment, 
  dated April 1, 2011, submitted by Senator Coburn...............   210
Larry Dever, Sheriff of Cochise County, Arizona, prepared 
  statement......................................................   224
GAO report titled ``Overstay Enforcement: Additional Mechanisms 
  for Collecting, Assessing, and Sharing Data Could Strengthen 
  DHS's Efforts but Would Have Costs,'' April 2011...............   263
Colleen M. Kelley, National President, National Treasury 
  Employees Union, prepared statement............................   339
Responses to post-hearing questions for the Record from:
    Mr. Hutchison................................................   137
    Ms. Meissner.................................................   141
    Mr. Stana....................................................   146
    Mr. Loera....................................................   226
    Mr. Cobos....................................................   227
    Mr. Babeu....................................................   228
    Secretary Napolitano.........................................   353


           SECURING THE BORDER: BUILDING ON THE PROGRESS MADE

                              ----------                              


                       WEDNESDAY, MARCH 30, 2011

                                     U.S. Senate,  
                       Committee on Homeland Security and  
                                      Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:34 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Landrieu, McCaskill, Tester, 
McCain, and Johnson.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. I want 
to thank our witnesses particularly and everybody else who is 
here.
    This is part of a continuing series that we have been doing 
on this Committee overseeing our border security operations, 
and this one is important because of the range of the witnesses 
that we have before us and the work Mr. Stana and the 
Government Accountability Office (GAO) has done. We are going 
to follow this with two more hearings on the Southwest Border 
particularly in which we are going to have some State and local 
officials and then Secretary Janet Napolitano will be with us 
after that.
    The question of border security continues to be important 
to our country in various ways. This morning, right here in 
this room, we began a different series of hearings on taking a 
look at the institutions of our government that were created 
after September 11, 2001, to better protect our country than we 
were able to on September 11, 2001. We had Tom Kean and Lee 
Hamilton of the 9/11 Commission testify. And, of course, in 
that case we have done an enormous amount to increase border 
security in the sense of stopping terrorists and the 
instruments of terrorism from coming into our country, and with 
some success, I think.
    I was struck in the testimony that has been filed for this 
Committee hearing about the interest in the question of what is 
border security--in other words, to better define it. And one 
series of definitions comes from the Secure Fence Act of 2006 
in which they list the elements of operational control, and it 
is with regard to terrorism and its tools. Narcotics and other 
contraband are obviously quite relevant when you think about 
the fact that the Federal Bureau of Investigations (FBI) in 
testimony before this Committee a while ago said that the No. 1 
organized crime threat in America today is from the Mexican 
drug cartels.
    Obviously the Mexicans say that we are creating a problem 
for them going the other way and that weapons are coming in 
from the United States. And, of course, probably the most 
politically sensitive and controversial aspect of border 
security is quite different, which is the security of knowing 
that people are not coming into the country illegally and in 
that sense making a mockery of our law.
    We have spent a lot of money and a lot of time increasing 
the resources that we have devoted to border security. Some 
numbers that GAO provided:
    In fiscal year 2004, when the Department of Homeland 
Security (DHS) first existed, at that point we had 10,500 
agents to patrol the land borders. In fiscal year 2010, we had 
double that, 20,000 agents at the land borders.
    In 2004 we had 17,600 agents inspecting travelers at air, 
land, and sea ports of entry. That went way up by fiscal year 
2010, and the expenditures more than doubled, from $5.9 billion 
to $11.9 billion for personnel, infrastructure, and technology.
    The question that we constantly ask is: What do we get as a 
result of these investments and how do we measure the results? 
And this goes back to the first question that I raised.
    One of the standards that is used a lot is apprehensions, 
and it has an odd and inverse effect as you look at it. That 
has always struck me as problematic, but it may be relevant. As 
you can see in that chart that we are showing,\1\ as the number 
of agents go up, the apprehensions go down. So you would say, 
what does that tell us? Well, generally speaking, we have felt 
that tells us there are fewer apprehensions because there are 
fewer people trying to come over illegally, although, as others 
have pointed out, using apprehensions as the metric here is 
problematic because the data tracks events rather than people. 
So if one person is apprehended more than once a year, it is 
counted more than one time.
---------------------------------------------------------------------------
    \1\ The chart submitted by Senator Lieberman appears in the 
Appendix on page 97.
---------------------------------------------------------------------------
    At different times, in fact, in the past decade, the Border 
Patrol has cited both increases and decreases in apprehensions 
as a sign that they are being more effective. Either they are 
apprehending a higher percentage of those crossing the border 
or their operations have reduced flows.
    There was a recent RAND report that says, ``commonly 
reported Border Patrol measures, such as numbers of illegal 
immigrants apprehended or miles of border under effective 
control, bear only an indirect and uncertain relationship to 
the border control mission, making them unreliable management 
tools.'' So that leads me to want to engage you--and some of 
you have provided testimony to that effect--in helping us to 
see if we can find a better way to measure security at the 
border. In terms of illegal immigration, the common sense lay 
person's measurement would be how many people are trying to get 
over and how many people are actually coming in as undocumented 
aliens.
    This question of border security continues to be important 
to us in all the ways that I stated, in terms of the organized 
crime threat represented by the Mexican drug cartels; obviously 
in terms of the terrible violence in Mexico, some of which has 
threatened border communities within the United States; and 
then in terms of illegal immigration, both because when there 
is a law, we have a responsibility to enforce it to the best of 
our ability, but also in the context of the congressional 
environment. Estimates vary but there are never less than 10 
million people who are here as undocumented aliens, and I think 
there is a widely held conclusion that improving border 
security is a precondition to coming back and dealing with 
illegal immigration. Ms. Meissner has actually suggested in 
prepared testimony an inverse relationship that maybe it should 
go the other way--that is to say that fixing the problem of 
undocumented aliens may actually help us to better secure the 
border or reduce the flow of illegal immigrants, and we welcome 
that testimony as well.
    But, anyway, it is an important hearing. I thank the 
witnesses. You come with extraordinary experience and I look 
forward to your testimony.
    Senator McCain, welcome. He has been designated as the 
Ranking Member by Senator Collins. He obviously has a lot of 
both expertise and interest in the subject, and I have always 
wanted to work closely with him on something, and this gives me 
the opportunity. [Laughter.]
    Senator McCain. That is an inside joke.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Thank you, Mr. Chairman, and thank you for 
your continued interest in this issue, and I know that 
Connecticut is a long way from the U.S.-Mexico Southwest 
Border, particularly, but you have been good enough to come to 
Arizona and hold hearings there, and it is obviously an issue 
of great importance to the people that I represent.
    I want to thank our witnesses for coming today, and I would 
like to mention I recently returned from a visit to the 
Arizona-Mexico border last week. And while I was at the Douglas 
Port of Entry, I was shown a video taken 3 days earlier of a 
cartel-led execution in Agua Prieta. That is across the border 
mere yards from the Douglas Port of Entry. In the video, three 
trucks of men armed with fully automatic weapons sped down a 
busy street flashing police lights. After cordoning off a busy 
city block, they began shooting, firing over 400 rounds, 
killing an estimated five people and wounding 17. This level of 
violence is new to Agua Prieta.
    Ten years ago, we could not have anticipated the headlines 
that routinely appear in newspapers today throughout the 
country, detailing the dangers along our Southern Border. For 
example, on March 3, Reuters reported, ``Police link Arizona 
beheading to Mexican drug cartel''; and the January 5 headline 
in the L.A. Times, ``Mexico's Drug Violence Respects No 
Borders.'' It goes on and on.
    The extreme levels of violence in Mexico that have resulted 
in the killing of 36,000 Mexicans over the past 4 years--and, 
by the way, over that past 4 years, 21,000 Afghans have been 
killed in Afghanistan, and yet in Mexico there have been 36,000 
over the same period of time. It has not spilled over. We have 
had a Border Patrol agent killed, we have had a rancher killed, 
but it has not spilled over yet, but it is getting closer.
    As the witnesses today will testify, we are seeing 
progress, and I have witnessed this progress myself, 
particularly in the Yuma Sector, which has seen a dramatic 
reduction in the number of illegal border crossers. In the 
Tucson Sector, it appears illegal traffic has slowed due to the 
continuing economic recession, the increased numbers of Border 
Patrol agents, the deployment of National Guard troops, and 
increased use of consequence programs like Streamline. And I 
want to emphasize under Operation Streamline, a repeat crosser 
knows that the individual is going to face increased penalties, 
it is a strong disincentive for crossing. And also, once they 
are done, releasing them at a border crossing far away has also 
had a significant effect.
    But progress is not success. We are far from success in the 
Tucson Sector. Forty percent of the marijuana smuggled across 
our Southern Border comes through the Tucson Sector, and there 
are now today--I was just briefed--between 75 and 100 guides 
sitting on mountaintops in Arizona with sophisticated 
communications equipment, food, binoculars, and other equipment 
guiding the drug smugglers as they move up through Pinal County 
into Phoenix, Arizona, from where drugs are distributed all 
over America. Phoenix has become the drug distribution center 
for every place in America but southern Texas. And so if we 
still have 75 to 100 guides sitting on mountains in Arizona 
guiding the drug smugglers, I do not think we could declare 
success.
    GAO is going to tell us that only 129 of the 873 miles of 
the Southwest Border are considered to be under ``operational 
control.'' Additionally, the success our law enforcement 
agencies achieve at protecting our cities and towns is often 
made at the expense of citizens that live in more rural areas. 
In other words, as they are driven out into the rural areas, 
the enforcement efforts in Douglas, Nogales, and Yuma are 
sending the human and drug smugglers across Arizona's ranches 
and farmlands, particularly in eastern Arizona.
    This is why many people in southern Arizona feel like they 
are living in a no-man's-land, abandoned by the Federal 
Government and this Administration. It does not help that last 
year David Aguilar, Deputy Commissioner for Customs and Border 
Protection (CBP), was quoted in The Arizona Republic, saying 
that ``the border is not a fence or a line in the dirt, but a 
broad and complex corridor.'' It is, Mr. Aguilar explained, ``a 
third country that joins Mexico and the United States.'' 
Citizens should not be required to live in a ``third country.''
    By comparison, the improvements made in the Yuma Sector 
have been a great accomplishment. Despite some people's 
recollections, this progress was neither easy nor a foregone 
conclusion. I would like to remind you that 10 years ago the 
Yuma Sector was as out of control as the Tucson Sector. Now it 
is viewed as a success.
    In other words, Mr. Chairman, we know how to succeed. We 
have done it in San Diego, in Yuma, and in parts of Texas. It 
is not as if this is an impossible task.
    By the way, I want to thank Senator Johnson, from 
Wisconsin, for coming to visit our border, and I hope he found 
it to be an enlightening and enjoyable experience. I know he is 
a person of great personal wealth, and I hope you spent a lot 
of money while you were there. [Laughter.]
    Finally, the National Guard is now going to leave. I have 
been told by higher and lower ranking people that have to do 
with our border that they are indispensable. So I do not know 
how the Administration can say that we still have significant 
issues and yet remove the National Guard, who also, by the way, 
gain a great deal out of being on the border. So it leaves me 
wondering why members of this Administration who claim they 
want to make every effort to secure the border insist on taking 
another step backwards by removing the National Guard 
prematurely.
    Again, Mr. Chairman, I want to thank the witnesses. I have 
probably taken too long in my opening statement, but I know the 
Senator from Wisconsin had the same experience that I do. You 
meet with the ranchers down there. The people, some of them 
have been there four and five generations, and they are afraid 
to leave their homes. They literally cannot find a secure 
environment to drop their kids off for school. We cannot force 
our citizens to live under those kinds of conditions. And I 
acknowledge again, Mr. Chairman, there have been improvements 
made. But we still have quite a ways to go, particularly in 
rural parts of our States, but also this issue of the drug 
cartels is something which is going to be with us for quite a 
period of time.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator McCain. I think that 
strikes the appropriate note. We feel like we are making 
progress, as the chart suggests, but obviously we have some 
distance to go, and it is very important that we get there for 
a host of reasons that I cited in my opening statement.
    Let us go right to the witnesses now. I thank my colleague, 
Senator Johnson, whose wealth has been celebrated, and I am 
very happy for him. And, Senator Tester, I am not going to 
comment on your net worth here. This happened before you came 
in, Senator Tester, so it was Senator McCain's humor.
    Asa Hutchinson has many attributes that I admire, and the 
one that brings him here to us is his service as Under 
Secretary for Border and Transportation Security at the 
Department of Homeland Security in the previous Administration. 
Thanks for coming and we welcome your testimony now.

TESTIMONY OF HON. ASA HUTCHINSON,\1\ FORMER UNDER SECRETARY FOR 
 BORDER AND TRANSPORTATION SECURITY AT THE U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Hutchinson. Thank you, Mr. Chairman and Members of the 
Committee. It is a pleasure to appear before you again, and I 
want to thank you for your leadership on this important issue.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hutchinson appears in the 
Appendix on page 100.
---------------------------------------------------------------------------
    First, let me make it clear that I agree with the comments 
that have been made that significant progress has been made as 
a Nation in terms of securing and strengthening our border. 
Since I had the honor of serving as the Nation's first and 
actually only Under Secretary for Border and Transportation 
Security when the Department was first founded, I have a unique 
perspective, and I can see the progress that has been 
accomplished in terms of human resources, in terms of 
technology, intelligence fusion, and State and local 
cooperation. We could only dream about the resources that are 
available today in terms of the Border Patrol agents. In the 
early days of the Department, the number of Border Patrol 
agents was 11,000 and now it is 20,700. The number of border 
liaison officers who work with Mexican counterparts has 
increased 500 percent. And as has been noted, the Border Patrol 
apprehensions have decreased by 36 percent in the last 2 years, 
which I believe is an indication of growing effectiveness of 
our border efforts. Statistics are difficult, but I think that 
is the logical interpretation of that statistic whenever you 
see the apprehensions going down.
    This Committee, I would emphasize, has played a significant 
role in this progress. Without a doubt, more needs to be 
accomplished, and that is the subject of our remarks today. 
And, Senator McCain, I do want to acknowledge that you gave me 
my first education on the border with the promise that you 
solicited from me that I will appear at the border with you. I 
did and it was a great education, as others have received, and 
I look forward to the occasion to go back.
    We are talking about border security, and I will come back 
to that, but I want to mention one other success, which is the 
United States Visitor and Immigrant Status Indicator Technology 
(US-VISIT) program, which requires a biometric check for our 
international visitors from visa countries. It is a success 
story. It was implemented under very strict guidelines of 
Congress, and it has dramatically improved the security and 
integrity of our immigration system. But there remains a gaping 
hole in our border security efforts so long as we do not have 
the capacity to know when a visitor leaves the country. And I 
would emphasize very dramatically, if I could, that we must 
adopt an exit system with greater urgency. I urge Congress to 
enact firm deadlines for the Department of Homeland Security to 
implement an exit system.
    Now, in the broader picture, I would emphasize three 
priorities that are essential to control our borders:
    First, to accelerate the resources necessary to control our 
Southern Border. Much of this deals with technology.
    Second, we need to monitor and enforce the law on visa 
overstays.
    And, third, we need to reduce the power and pull of the 
marketplace for illegal employment.
    All of those three ingredients I believe will serve as a 
deterrent and will serve as all of the tools necessary to be 
successful in our border efforts.
    And despite the fact that we have achieved some success in 
border security, the fact is that our government has 
operational control of less than half the 2,000-mile Southwest 
Border. Now, you can define operational control in different 
ways. I do not think it is wise for the government to redefine 
operational control so that we can achieve greater success. I 
think we ought to have a definition of operational control that 
the American people understand and accept, and if we are short 
of that, they understand it and they understand the gaps. They 
have to understand the resources that are needed to reduce that 
gap. But I think we have to have that level of honesty.
    I would define operational control as the capability to 
detect illegal entry at the border, and the detection part is 
important. That is the knowledge of when there is an illegal 
intrusion in our border, and then the ability to respond and 
stop any border breach. Now, that does not mean you get 
everyone, but that means that you have the capability to detect 
it and the ability to respond and stop a border breach.
    Now, with that measurement, which I think has been accepted 
largely, we have control of less than one-half of the Southwest 
Border. And while we increase it at the rate of 126 miles per 
year, it is still woefully inadequate, and we have to 
accelerate the deployment of resources, but it should be done 
intelligently. We need not build a fence across every inch of 
the Southwest Border. It is an important tool to utilize, but 
the fact that you have thousands of fence breaches that have to 
be repaired shows that is not the end-all solution. We should 
use a combination of physical fences and barriers, human 
resources and technology.
    Now, if I might move on to the visa overstays that I 
addressed, it is estimated that 45 percent of the illegal 
immigrants in our country are here because of visa overstays. 
They come in legally. They stay illegally. And this is just as 
much a part of border security as the Border Patrol agents 
along the border. It is a threat to our rule of law and the 
integrity of our immigration system, not just the hundreds of 
thousands of illegal border crossings, but the hundreds of 
thousands who enter lawfully but remain illegally because of 
visa overstays.
    Our border can be breached even more easily by getting a 
lawful visa and remaining in the United States after the visa 
expires, than trying to sneak across the Sonora Desert. And 
that was evidenced by the September 11, 2001, terrorists who 
came in just that way. At the present we have no effective way 
to tackle this challenge. On paper the solution is simple, but 
it is much more complicated than that.
    We must have every visitor who departs the country check 
out using biometrics. This is no easy task. While I was Under 
Secretary, I worked to develop pilot programs at airports and 
land borders on the exit system. It continues to be difficult, 
and Secretary Napolitano has retreated from the exit strategy 
requiring biometrics. In fact, the Department has announced it 
is no longer pursuing the biometric exit system. It is very 
clear to me that this solution will never happen without the 
leadership, the mandate, and the oversight of Congress.
    In 2003, Congress was clear in its direction to the 
Department to build the entry system, and you gave strict 
deadlines, oversight. You held us accountable, and it was 
accomplished on time within those deadlines and within the 
budget Congress gave us. I think the same type of intensity has 
to be devoted to developing an exit system where the mandate of 
Congress is clear and your oversight is ubiquitous.
    The third element of border security is interior 
enforcement, and while we always need to give Immigration and 
Customs Enforcement (ICE) the necessary resources to enforce 
our immigration laws within our country, it is just as 
important to give the tools to the employers so that they know 
whether they are hiring somebody who has legal status in this 
country, or does not have legal status. Right now we have the 
E-Verify program that is a significant success story because 
even though it is voluntary, over 250,000 employers are 
participating in it. But the fact is it gives the employer 
information as to whether that is a valid Social Security 
number or whether there is some other indication that the 
person is in here illegally. But it is not a real-time system 
that provides a level of information needed to assure that the 
Social Security number is not being misused in some means and 
that program needs to be strengthened.
    When this type of capability is deployed, then the magnet 
will lose some of its drawing power for those that are trying 
to illegally enter the country to obtain employment because 
they will not be able to get the employment even if they are 
successful in going across the border.
    I look forward to the opportunity for questions and answers 
to further discuss these particular issues, but let me end with 
a comment as a former head of the Drug Enforcement 
Administration (DEA). It is very significant to me as you look 
at the increased security and capability at our ports of entry, 
and a significant sign of success is that while the 
apprehensions of illegal aliens between the ports of entry have 
dramatically decreased, the seizure of illegal drugs has 
increased, which tells me that the tightening and hardening of 
our ports of entry have been successful. It has forced the 
cartels to move to a much more difficult route to bring in our 
drugs, and, of course, that brings a new level of concern with 
our Border Patrol agents meeting very violent drug traffickers 
between our ports of entry. And so there is more work to be 
done, and I look forward to the leadership of this Committee.
    Thank you very much.
    Chairman Lieberman. Thanks very much for that testimony. 
Very thoughtful, really interesting, and it probably would 
shock most people in our country that the statistic you cited, 
that as much as 45 percent of the illegal immigrants in our 
country are actually visa overstays, people who came in legally 
and then stayed illegally. That is not the common perception. 
The common perception is that the undocumented immigrants are 
all coming in illegally, mostly, in the common view, across the 
Southwest Border. I have seen different numbers on that visa 
overstay, but never less than 35 percent. So that is quite a 
significant number, and I know that the politically 
controversial part of this is on the Southwest Border, but if 
we are really concerned about making a mockery of our system of 
law, then both elements of this have to be dealt with. And the 
probability is that we can deal with this element with a better 
exit system and make a real difference in it than we can at the 
border. But hopefully we can do both. Thank you very much.
    Doris Meissner was, during all of the Clinton 
Administration, the Commissioner of the Immigration and 
Naturalization Service at the Department of Justice and now is 
associated with a think tank that works on migration policy. So 
we are very grateful you are here and welcome your testimony 
now.

TESTIMONY OF HON. DORIS MEISSNER,\1\ FORMER COMMISSIONER OF THE 
    U.S. IMMIGRATION AND NATURALIZATION SERVICE AT THE U.S. 
                     DEPARTMENT OF JUSTICE

    Ms. Meissner. Thank you very much, Mr. Chairman, Members of 
the Committee, and thank you for the opportunity to be here 
today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Meissner appears in the Appendix 
on page 105.
---------------------------------------------------------------------------
    My core message today is to urge that the Administration 
and the U.S. Department of Homeland Security, working with 
Congress, define what constitutes effective border control and 
establish measures of effectiveness for managing and assessing 
our border control efforts. Clear definitions and indicators of 
what constitutes effective border control are essential as a 
basis for promoting a more informed public discussion and 
broader consensus about the effectiveness of border 
enforcement, especially at the southwest land border.
    The need for effective border enforcement and control may 
well be the most widely shared point of agreement in the 
national immigration debate. For more than 15 years, and 
particularly since September 11, 2001, both Democratic and 
Republican Administrations and Congresses have allocated 
unprecedented levels of resources to strengthen border 
enforcement. Yet we have very little basis for assessing the 
return on that investment, and it would seem that many 
Americans have yet to grasp how much enforcement at the border 
has indeed been strengthened.
    The build-up began in earnest in the mid-1990s. I remember 
well its origins and driving the border enforcement agenda. The 
Immigration and Naturalization Service fiscal year 1995 budget 
request was the start of more than 15 years of major infusions 
of people, equipment, and technology for border enforcement. As 
a result, the Southwest Border is today a dramatically 
different place.
    The two highest crossing corridors that historically had 
accounted for almost 60 percent of apprehensions--San Diego and 
El Paso--now represent only about 20 percent of apprehension 
activity. Apprehension levels that had reached historic highs 
of more than 1.6 million in 2000 dipped to below 450,000 last 
year. These are lows that have not been experienced since the 
1970s. They represent dramatic and positive changes.
    At the same time, the changes have brought with them 
important lessons and new challenges. By far, the most 
important, of course, has been the experience of September 11, 
2001, and the imperative for effective border control in the 
face of the threat of terrorism.
    Today, the Border Patrol employs 20,700 agents, more than 
double the numbers just 6 years ago, and a budget that exceeds 
$11 billion, an amount that has also grown at a comparably 
rapid rate.
    But what constitutes effective border control has not been 
meaningfully defined or debated. As a result, we have little 
basis for assessing the return on the investment of substantial 
multi-year border enforcement expenditures or for conducting an 
informed debate on the adequacy of today's border enforcement 
strategies and results.
    In addition, disagreements about border control that are 
often based on unexamined assertions about the adequacy or 
inadequacy of current efforts have contributed to a continuing 
stalemate in Congress over the broader immigration reform 
agenda.
    Opponents of comprehensive immigration reform legislation 
argue that control of the border must be established as a pre-
condition for broader reforms. Reform proponents maintain that 
effective border control can only be achieved with broad 
immigration reform. In both cases, ``border control'' is 
undefined.
    Moreover, lawmakers ``keep moving the goalpost,'' as 
Homeland Security Secretary Janet Napolitano has observed. 
Secretary Napolitano has also argued that DHS will never be 
able to ``seal the border'' in the sense of preventing all 
illegal migration.
    From a professional law enforcement standpoint, her point 
is well taken. Zero tolerance is unrealistic, and it is not a 
standard to which we hold law enforcement in other realms. 
Instead, overall effectiveness--established through a 
combination of metrics and other factors--is the appropriate 
goal and assessment for which to strive.
    In recent speeches on the Administration's Southwest Border 
strategy, Secretary Napolitano has been explaining the ways in 
which she argues that today's approach is working. This is an 
important step in sparking a responsible debate about border 
control. Still, without greater rigor and broader consensus 
about what constitutes effectiveness, public confidence and 
immigration reform initiatives will remain vulnerable to 
assertions of inadequate control.
    Historically, apprehension numbers have served as the 
Border Patrol's answer to the question of what is effective 
control. However, apprehensions are insufficient as the primary 
method for assessing enforcement effectiveness, and I have 
outlined fuller reasons for that in my full statement.
    CBP and DHS collect many other kinds of data. Especially 
valuable should be the extensive biometric data that now number 
more than 91 million records of fingerprints collected on 
persons apprehended since the mid-1990s or coming into contact 
with the immigration system in ways that Mr. Hutchinson has 
described, such as the US-VISIT program. These data could be 
analyzed to better understand crossing patterns, repeat 
entries, smuggling activity, and the success of various 
enforcement strategies.
    Examples of measures of effectiveness that are relevant to 
border control and could be systematically tracked and 
incorporated into regular assessments would include analyses of 
hot spots and responses to them, crime rates, ports of entry 
activity as smugglers attempt to compromise legal avenues for 
entry, border community confidence and support, and census and 
other demographic data.
    For example, Mexico's 2010 census shows that the numbers 
leaving Mexico have fallen by more than two-thirds since a peak 
in the mid-2000s. Mexican analysts attribute that drop both to 
the U.S. economic downturn and to stepped-up border 
enforcement.
    At the present time, available measures point in varying 
degrees to meaningful positive progress in securing the 
borders. However, the goal should be to systematically track 
such measures and allow for open assessment of the substantial 
investments that the country has made in border security. Only 
then can public debate about border control be honest and 
informed. In turn, determining how much and what border 
enforcement work to keep us safe is essential for building 
public confidence in the government's ability to enforce the 
Nation's immigration laws and to manage its immigration system.
    Thank you very much, and I am happy to answer your 
questions or comments.
    Chairman Lieberman. Thank you very much. Very important 
questions that you raise and we will come back to them.
    Mr. Stana, welcome back. Thanks for your work for GAO on 
this question, and we look forward to hearing your testimony.

 TESTIMONY OF RICHARD M. STANA,\1\ DIRECTOR, HOMELAND SECURITY 
   AND JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stana. Thank you, Mr. Chairman, Ranking Member, and 
Members of the Committee. I am pleased to be here today to 
discuss the work that we have done over the past two decades on 
border security, and my prepared statement summarizes some of 
the more recent work that we have done. We have also done work 
on some of the areas touched on by Mr. Hutchinson, on E-Verify 
and visa overstays. In fact, Chairman Lieberman, if you think 
the American public would be shocked to know that 45 percent of 
the illegal alien population is here through overstaying a 
visa, they might be even more shocked to know that with the 
tens of thousands of people that we have put to border security 
at the border, the number of people we have in the interior 
searching for visa overstays is in the low three digits.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Stana appears in the Appendix on 
page 115.
---------------------------------------------------------------------------
    Chairman Lieberman. Much less than a thousand.
    Mr. Stana. Much less than a thousand. A little over a 
hundred.
    I do not want to repeat some of the statistics that have 
already been discussed. The number of staff at the ports have 
been increased by 17 percent since former Under Secretary 
Hutchinson's tenure, and by five times the amount that former 
Commissioner Meissner had when she took over in 1973. In fact, 
today there are nearly as many Border Patrol agents in the 
Tucson Sector alone as there were guarding all of the Northern 
and Southern Borders when former Commissioner Meissner took 
office in 1993. So there has been a substantial increase in 
personnel.
    But the personnel is not the whole story. At the ports, we 
have hardened the infrastructure. We have put in a lot of 
technology. We have put in portal monitors. We have put in x-
rays. We have put in backscatter machines. We have other 
information available at the booth, passcard readers and so on, 
that inform the person in the booth whether the person who is 
presented to them is at least eligible to enter the country as 
far as the background information goes.
    Similarly, the number of Border Patrol agents does not tell 
the whole story. The equipment that they have is upgraded. The 
vehicles are much better. They are heavier duty. They have 
night scopes. They have technology. They have radars. They have 
sensors that they did not have before. So the job is made much 
easier for the Border Patrol agents than it was, maybe 10 or 15 
years ago.
    But despite all of this investment, this $12 million 
investment last year alone, it is still a fact that there are 
hundreds of thousands of people entering the country illegally 
every year, and there are tons and tons of illegal narcotics 
entering the country every year.
    I would like to just talk about a couple of areas from my 
prepared statement, and then we can go to questions and 
answers. First, let us talk about the situation at or near the 
border, both at the ports and between the ports.
    At the ports there is a rather impressive record: 227,000 
travelers were turned away when they attempted to enter 
illegally; about 8,400 people were apprehended for a variety of 
charges, some serious; $147 million in currency was seized; as 
were over 870,000 pounds of illegal drugs and almost 30,000 
fraudulent documents, and so on. But beyond these statistics, 
again, people are getting in, as are narcotics, and this is 
mainly due to a number of factors. First, the staffing levels 
are not up to authorized levels. Second, there is a tension 
between trying to make the ports easier for commerce and 
legitimate travelers to enter into the country while 
maintaining a focus and trying to fight back complacency of the 
workers at the booth. So that is at the ports.
    Also at the ports we have the outbound enforcement program, 
which I think Senator McCain may have mentioned, where CBP is 
searching for weapons and cash heading south from the sale of 
drugs and to promote the sale of drugs.
    On the cash side, the program is responsible since its 
beginning 2 years ago for seizing about $67 million in cash. It 
sounds impressive, but that is out of a total of about $18 to 
$39 billion that crosses the Southwest Border each year. Not so 
impressive.
    Add to that the fact that the stored value cards, which are 
extremely difficult to detect, are coming more and more into 
the smuggling picture, and that is going to present a real 
challenge to law enforcement.
    As far as the weapons side goes, no one really knows how 
many weapons are going south, but there is a substantial 
number. And when the Bureau of Alcohol, Tabacco, Firearms, and 
Explosives (ATF) was asked by Mexican authorities to identify 
the lineage of the weapons that they seized on their side of 
the border, they found that nearly 90 percent of them came from 
the United States.
    Between the ports, similarly impressive apprehension 
statistics in some respects. If you follow the chart there,\1\ 
you see that in 2001, about 10 years ago, it shows that about 
1.3 million people were apprehended. The past year it was about 
463,000. The Border Patrol considers this as a success through 
deterrence. That is one interpretation. The Federal Reserve 
Bank of Dallas had a different interpretation. They overlaid on 
that chart available jobs, and it tracked with apprehensions. 
In other words, as available jobs dry up with recessions, the 
apprehension rate is sensitive to that. Now, neither one of 
these is an exclusive interpretation, but it is important to 
understand the context of numbers like this and not attribute 
it only to the number of Border Patrol agents.
---------------------------------------------------------------------------
    \1\ The chart referenced by Mr. Stana appears in the Appendix on 
page 97.
---------------------------------------------------------------------------
    Again, many more drugs are getting into the country between 
the ports of entry it is mainly marijuana, at the ports maybe 
more on the cocaine side.
    Traffic checkpoints--and I know you have interest in one in 
Arizona. That one was fairly controversial. Actually, one-third 
of the seizures of drugs by the Border Patrol are made at those 
checkpoints. You would wonder, well, how do drugs get that far 
into the country through a port and over a highway? They do.
    Regarding the fencing, most of the fence is between 
Imperial Beach, California, and El Paso, Texas. It was 
constructed at a cost of nearly $3 billion. No one knows the 
effectiveness of that fence, but last year alone there were 
over 4,000 breaches, and these breaches cost about $7.2 million 
to fix, about $1,800 per breach.
    I want to talk about performance measures very quickly. 
People had mentioned the operational control measure, and 44 
percent of the Southwest Border and only 2 percent of the 
Northern Border are considered to be under operational control. 
It is not a perfect measure, but it is a refined measure. The 
Border Patrol has various steps it takes to make sure that it 
is not just a scientific guess. It is not perfect, but the 
Border Patrol has, at least for public consumption, decided not 
to use that, and they are going to a new set, which will be 
ready next year, in fiscal year 2012. In the meantime they are 
just counting things. They are counting apprehensions; they are 
counting joint operations; they are counting cash seizures. 
That is the numerator. There is no denominator so you do not 
know a batting average, if you will.
    There are many other ways to come up with performance 
metrics, and we can talk about that in the question and answer 
session. But I want to talk about two other issues very 
quickly.
    The first has to do with information and intelligence 
sharing, and here I think there is a much better story. It has 
improved, not only between Federal agencies but among Federal, 
State, local, tribal, and some of our partners on the Northern 
and Southern Borders. Again, it is not perfect. There have been 
problems with sharing data in some cases. People can get 
parochial with some data, and that should not be. In other 
cases, the Fusion Center information that is sent out to the 
State and locals may be of questionable value, but they never 
really assess the value of these products. And for their part, 
the State and locals are not provided guidance as to what the 
Federal agents might be interested in as they gather 
statistics. So as far as information gathering, there is good 
news and there is not so good news.
    Finally, technology. As you know, Secretary Napolitano 
canceled the SBInet program, and DHS is replacing it with 
something called the Alternative (Southwest) Border Technology 
program. It will probably use similar towers to those used with 
the SBInet program. The first towers are up for funding for 
fiscal year 2012. They are asking for about $240-some million 
to start that process. We have been tracking the rationale for 
the Alternative (Southwest) Border Technology program. We 
examined the analysis of alternatives they used. We found that 
there are some flaws in it that concern us. We have not yet 
been given access to the documents that would allow us to trace 
how those analyses made it through technology laydown and 
translated into a budget. We are continuing to look at that 
program, and we will have more information later in the year.
    Finally, with respect to US-VISIT, as Mr. Hutchinson 
pointed out, there is some good news and there is some not-so-
good news. The good news is the entry side. Every visitor that 
enters the United States through a port of entry is to be 
fingerprinted, and their documents are to be swiped, and their 
identity is to be confirmed.
    The not-so-good news is on the exit side. Not having an 
exit capability is not that much of a concern with seaports 
because we mostly see cruise ships and that is a closed system. 
With airports, it is difficult. Our airports are not really 
configured the way they are in foreign countries to gather exit 
information, so what they rely on are airline manifests, which 
is sort of reliable but not 100 percent. On the land exit side, 
it is just a big problem. It is just difficult to do, and 
perhaps our Canadian perimeter security negotiations that are 
just getting underway may allow for an arrangement where our 
exit becomes their entrance and we can exchange information.
    That is my oral statement. I would be happy to answer any 
questions you may have.
    Chairman Lieberman. Thanks very much, Mr. Stana. That was 
very helpful. We will do 7-minute rounds of questions.
    I think there is an agreement across the board here that we 
have increased our resources, particularly on the Southern 
Border where most of the concern has been, and we are doing 
better at the reduction of illegal immigration coming over, but 
there is not total uniformity of opinion on if the fact that 
there are fewer immigrants coming over illegally is the result 
of the increase in the resources we are putting there. I am 
thinking of the Federal Reserve data that was described. Common 
sense would say that it is having that effect, and both Mr. 
Hutchinson and Ms. Meissner have said essentially that it is 
not possible to achieve 100 percent stoppage of illegal 
immigration.
    I wonder what our goals should be here. I know we talked 
about how do you define border security. The Secure Fence Act 
of 2006 that I cited defined it as the ``prevention of all 
unlawful entries into the United States, including entries by 
terrorists, other unlawful aliens, instruments of terrorism, 
narcotics, and other contraband.'' It is interesting that not 
only Secretary Napolitano but her two predecessors, Secretaries 
Michael Chertoff and Thomas Ridge, at a recent colloquium, they 
said that they thought that was an unreachable goal.
    So let me just begin with you, Mr. Hutchinson, what is a 
reasonable goal here by way of defining what we want to achieve 
in border security?
    Mr. Hutchinson. To me the missing element is the 
measurement as to what percent we are able to apprehend that 
are coming across. If we are detecting and apprehending 
400,000----
    Chairman Lieberman. Right.
    Mr. Hutchinson. There used to be the statistic that for 
every one you catch, there are three that get through. I have 
no clue whether that is accurate or not. Those are just 
anecdotal statements. But I think there has to be a greater 
measurement of that because if the economy increased right now, 
I have no doubt because of the double number of Border Patrol 
agents, our apprehensions would dramatically increase.
    Chairman Lieberman. Would go up, right.
    Mr. Hutchinson. And so the question is not whether we are 
apprehending more, but of those that are trying to come across, 
what percent are we apprehending? And I think people that are 
very smart need to address that issue, and I think that is the 
unknown part of the equation.
    I think in terms of definitions, I really am disappointed, 
quite frankly, in the Border Patrol trying to redefine what is 
effective control or operational control. They have a 
definition. It is a measuring standard and just because it does 
not look good to say we only have half of our sectors that are 
under operational control is not a good reason to change the 
definition.
    Chairman Lieberman. No, I hear you. I want to make explicit 
what I think is implicit in how I opened this question, which 
is we have made progress both by observation and by the various 
metrics that are established, but still, even by the metric 
that is on the board based on apprehensions--I think nobody 
would disagree that there are hundreds of thousands of people 
coming across the border illegally every year, and that is 
broadly unacceptable.
    Ms. Meissner, what can you say to help us understand better 
what our goals should be and how we might best achieve them?
    Ms. Meissner. The goal is probably something that is also 
subjective and relative. The goal that we thought we ought to 
have in the 1990s, when we had a very permissive attitude about 
our labor markets and about our economic growth, and the role 
of migrants in that setting was a very different sense than we 
have had since September 11, 2001, and in a tighter economy. So 
this is not entirely science. However, there certainly needs to 
be more science in it than has been the case, and I would 
subscribe to what Mr. Hutchinson has said here about needing to 
know much more fully what percentage or what proportion of the 
crossings are actually people that we are able to apprehend.
    But I think it is also the case that we have demonstrated--
and Senator McCain made reference to this in his own 
experience--with the contrast between Yuma and the Tucson 
Sector right now. I made reference to the difference between El 
Paso now and 10 years ago, San Diego now and 10 years ago. When 
you go to those places--and I spent many an hour in those 
counties and in community meetings with local leaders, etc., 
hearing the complaints, talking to them, working inch by inch 
with the Border Patrol from the ocean to the Otay Mountains to 
really bring that part of the border under control. When you go 
there now, it is not that people are not concerned, it is that 
they recognize that there is an infrastructure in place in 
which they can have confidence. That is not to say that there 
are not going to be breaches from time to time. But it is a 
question of the sense of chaos versus the sense that somebody 
is in charge.
    And so that is both science and numbers and knowing the 
percentages, but it is also really working on the ground in a 
community policing way to deal with the issue of border control 
along the Southwest Border.
    Chairman Lieberman. I think you were the one who referenced 
the Mexico Census of 2010?
    Ms. Meissner. Yes.
    Chairman Lieberman. Did the U.S. Census of 2010 give us any 
guidance as to numbers of undocumented immigrants there are in 
the United States now?
    Ms. Meissner. Yes, but we do not have that yet. As you 
know, the census is----
    Chairman Lieberman. We do not have that detail yet?
    Ms. Meissner. It is being rolled out in pieces, and we just 
have this most recent information about the degree to which our 
population has grown based on immigration, which includes 
illegal immigration.
    Chairman Lieberman. Right. It is very important that 
illegal immigrants are counted in our census.
    Ms. Meissner. That is correct.
    Chairman Lieberman. Mr. Stana.
    Mr. Stana. Well, I would agree with everyone's observation 
that you have to have a numerator and a denominator, the people 
you catch versus how many are out there. It is difficult to do. 
The Department is contracting with a firm to try to gather more 
information about the flows, where the flows are going, the 
numbers of the flows, and so on. And that is supposed to be 
incorporated into the 2012 new statistics. So we will wait and 
see how well they can do that. It is a difficult task.
    But I think there are some things that could be done in the 
meantime to better measure success, and I agree with everyone 
on the panel about that. I do not think it can be denied that 
the border is in better shape today than it was previously. How 
much further can we go?
    Chairman Lieberman. Right.
    Mr. Stana. And I think taking advantage of some of the 
technology that they already have in place to count things 
would be advantageous. For example, each and every apprehension 
is supposed to be noted by Global Positioning System 
coordinates as to where that apprehension took place, and they 
have maps to show where the apprehensions took place. Out of 
that you could create a measure, like how many apprehensions 
did you get within 5 miles of the border. It is Management 101 
that you get what you count.
    Another thing you could do with the Integrated Automated 
Fingerprint Identification System data, the five-print data, is 
count the number of recidivists, and that may help you better 
understand what the flows are and if you are dealing with the 
same numbers of people again and again or if you are dealing 
with new people.
    And, again, with respect to border violence, it is true 
that there is some concern, although it has not spilled over 
quite yet in large numbers. But I think we need to get a better 
measure and a better handle on that because the uniform crime 
reports (UCR) from the FBI do not capture a lot of metrics that 
might be useful.
    On the other side of the border--and I do not know about 
this one incident you talked about across from Douglas, Senator 
McCain--but a lot of times the violence is trafficker-on-
trafficker violence that is not captured by the UCR. And maybe 
getting a metric on trafficker-on-trafficker violence would be 
helpful.
    I would like to see a batting average for the Border Patrol 
that could better interpret that graph, but as of yet, it does 
not exist. It does exist on the Office of Field Operation side, 
at the ports of entry where they have a Compex System, where 
they measure success scientifically. People who were given 
authorization to enter the country are selected through 
statistical sampling and instructed to proceed to the secondary 
area where they do a more detailed analysis to see whether the 
officer in the booth made the right decision. And those 
statistics are not very impressive, by the way, but it is a 
good measure.
    Chairman Lieberman. Thank you. My time is up. Senator 
McCain.
    Senator McCain. Thank you, Mr. Chairman. Mr. Stana, to 
follow up on that, most of the violence is obviously between 
the drug cartels. The problem is that violence spreads to 
weddings, children, innocent civilians, and an interesting 
statistic is that in the time that President Felipe Calderon 
has been president, some 21,000 Afghan civilians have been 
killed. In that same period of time, some 34,000 Mexican 
citizens have been killed. So the level of violence is 
something--one of the reasons, frankly, is because the drug 
cartels intimidate the media in Mexico as well. There is very 
little doubt that, except for the Mexican army, there is very 
little reliance that the government can have on any of the 
other law enforcement agencies. So if they are having gunfights 
on the street next to Douglas, Arizona, in Agua Prieta, to me 
it is just a matter of time. And I guess I would ask Mr. 
Hutchison and Ms. Meissner, did the cartels have guides on 
mountaintops in Arizona when you were in the business?
    [No response.]
    Senator McCain. No, they did not, and this shows the 
penetration of the drug cartels into my State. And they have 
weapons, and they have sophisticated communications equipment, 
and they have very sophisticated drug transportation 
capabilities, as I said in my opening remarks. That is 
throughout the country, not just Arizona but throughout the 
country. That puts a different aspect of the issue of illegal 
immigration.
    For example, 10 years ago, Mr. Hutchinson, even when you 
and I went to the border, probably the majority of people who 
came across came back individually or in small groups. Now they 
come across as a result of the drug cartels and human 
smugglers, in large groups, in a very highly organized way, and 
the only problem with that is the mistreatment of them, as you 
know, is horrendous. The drop houses, the rapes--I mean, it is 
just terrible.
    So I guess my first comment is on yours, Mr. Hutchison, 
that if you do not like the statistics, which shows that 
operational control is 44 percent of the Southern Border and 
then only 15 percent is airtight, then change the definition. 
And I guarantee you that changing the definition you will see 
better numbers. And I think that is disingenuous on the part of 
the Secretary of Homeland Security to change the definition of 
operational control. But I can also understand why if you are 
interested in giving the impression that things are better 
because the Border Patrol under this parameter reported that 
873 of the nearly 2,000 Southwest Border miles are under 
operational control, and they will improve an average of 126 
miles each year. That would take us another 9 years at that 
rate.
    I guess also this issue of recidivists that you talked 
about, we have found in the Yuma Sector and other parts of the 
border that not only increase but also when you send them back, 
take them all the way over to Texas or vice versa, that has had 
a very salutary effect, too. Have you found that out?
    Mr. Stana. Yes. In the Mexican Interior Repatriation 
Program we have found that has reduced the recidivism rate the 
further you bring them into the Mexican territory.
    Senator McCain. You mentioned SBInet. According to, I 
think, your organization, we wasted about $800 million and got 
17 miles of fence under----
    Mr. Stana. Well, actually, it is better and worse. It is 
about $1 billion and you got 53 miles.
    Senator McCain. A billion dollars we spent for 53 miles----
    Mr. Stana. Just on the towers and the cameras and the 
radars, yes.
    Senator McCain. And, as usual, no one was held responsible.
    Mr. Stana. Well, they will use that technology. It is 
finally getting to the point where it is getting stabilized, 
but now the SBInet program has ended, and we are starting anew. 
I think some of the risks that are out there are that they are 
looking for off-the-shelf technology again and our searches on 
the Internet and elsewhere just are not finding a whole lot of 
other alternatives that seem to perform much better. But we 
hope that they are successful with the new program.
    Senator McCain. One of the things that our Attorney General 
did, Mr. Hutchinson, was follow the money, and they were able 
to have a significant degree of success. It seems to me that is 
a good example of another way to counter these people. Are you 
familiar with that program?
    Mr. Hutchinson. I am, and actually I read that and Mr. 
Stana's testimony I think talked about what we can learn, many 
of the GAO reports from the Arizona Attorney General's 
investigation and following the money, and obviously you have 
to do that going after the cartels.
    I do think that the exit program where we are looking for 
outbound money is a very worthwhile emphasis that we should 
have because if they do not have the capability of getting back 
the cash, then they are not going to be able to accomplish 
their objective. You can sell drugs in the United States. The 
second part of it is getting back that cash. And we have never 
concentrated on that before in terms of our inspections, and I 
think that is something we really should target.
    Senator McCain. Ms. Meissner, one of the relatively new 
issues associated with this whole problem has been the 
southward flow of guns and ammunition. In fact, again, when I 
was just down there last week, they apprehended--I believe it 
was a vehicle with 6,000 rounds of AK-47 ammunition. I mean, 
these are not small. And I wonder if you have any thoughts 
about that particular issue. I frankly think the Mexicans have 
a very legitimate complaint.
    Ms. Meissner. That is not something I have experience with 
because it certainly was going on during the time that I was in 
the government, but it was not at all the issue that it is 
today. Regarding the question of southbound controls, as we 
have said here, government agencies are having a difficult 
enough time trying to figure out how one would do southbound 
controls just in terms of information in the US-VISIT system. 
But that further layer of southbound control you are suggesting 
is difficult.
    I do think that the deeper point you make about being 
sympathetic with the Mexican dilemma on this goes to the issue 
of border control in general. In fact, we are asking law 
enforcement to do the job of responding to fundamental laws of 
supply and demand in the economy and problems of human nature 
and drugs that they have no role in creating. And so they are 
dealing with symptoms of deeper trends and issues in our 
societies and that is one of the reasons that we cannot expect 
100 percent perfection in this. The underlying causes are not 
things that law enforcement is suited to address.
    Senator McCain. Mr. Chairman, we have an outstanding U.S. 
Attorney in Arizona. His name is Dennis Burke, and just 
recently we had a ballot initiative in Arizona which basically 
legalized the medical use of marijuana. And I asked him how 
that coincides with the fact that we are trying to stop the 
Mexican farmer from growing marijuana and sending it to the 
United States, but yet it might be okay for a person to grow 
some marijuana in their backyard. Frankly, he had no answer to 
that dilemma. That is a problem, isn't it, Mr. Stana?
    Mr. Stana. Yes, it is a problem. Part of the reason why it 
is just tough to get at the southbound cash if we are talking 
about that, for example, is in order to run those operations, 
they have to take the people and the resources out of inbound 
operations. And these are not 24/7 operations. They do not have 
a separate area for outbound secondary inspections. You may 
have seen that if you visited the ports in Arizona. The 
secondary area is just off to the side, and traffic is going 
by, and these agents are lying on the ground and cars are 
whizzing by just feet from their own feet. So we are really not 
structured to do that sort of thing.
    As for the question on how much cash and drugs we are going 
to get if we substantially increase that investment, that is 
unknown. Just like there are spotters on the mountains looking 
for drug avenues, there are spotters waiting for the inspection 
operations to go down. If there is an operation underway, they 
tell the traffickers to go have lunch for a while, come back at 
3 o'clock, it will be wide open, you can take the cash or 
weapons south.
    So, it is a tough problem. I think it would be 
extraordinarily expensive to seal the borders, as was suggested 
here, and total control is an awfully high bar to achieve. But 
there are some things we can do with far less money perhaps 
that would improve our success.
    Senator McCain. Thank you. Thank you, Mr. Chairman
    Chairman Lieberman. Thank you, Senator McCain.
    I will call on other Senators in order of arrival: Senators 
Johnson, Tester, Landrieu, and McCaskill. Senator Johnson.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Mr. Chairman, and I would like 
to thank the witnesses. This has been pretty informative.
    I did make a trip last week down to the port of entry in 
Nogales, again, to get myself up to speed on this issue. And, 
Mr. Stana, I would first of all agree with you. They are 
dramatically increasing the infrastructure down at Nogales, but 
even as the infrastructure stands now, they are understaffed. 
They are not at full capability. In our desire to beef up the 
Border Patrol--and I do not want this to be a competition, but 
have we concentrated too much on Border Patrol and not enough 
on customs agents at those ports of entry?
    Mr. Stana. Well, the bigger problem with the agents at the 
port of entry is keeping them. They have a much higher 
attrition rate than you would think. And, of course, now the 
economy is not in as good shape as it was just a couple of 
years ago, so attrition is stagnant. But they have an 
authorization of about 20,700. They are at about maybe 1,200 
short of that. They get close to it, the number falls back, 
close to it, it falls back again. They try to staff the bigger 
ports like Nogales to the best of their ability, but it is 
difficult to get agents to go to places that are not very 
attractive or that are very expensive. So they are up against 
some real challenges there.
    Senator Johnson. I would say, first of all, the level of 
the dedication of those individuals was high. It was very 
impressive. It seems like they cycle people through. A lot of 
military folks go through a training program. Is that pretty 
much a standard mode of operation in terms of staffing those?
    Mr. Stana. I have not seen too many military people in the 
primary booths. I have seen them sometimes assisting in 
secondary inspection areas. The military are often used as 
spotters, almost like the cartel people on the mountains. They 
also are in the mountains looking for people trying to get into 
the country and alert the Border Patrol to get there for an 
apprehension. I have not seen too many of them at the ports.
    Senator Johnson. I would like to turn my attention just in 
terms of this definition of a secure border because it is 
critical. I mean, if we are going to actually move to the next 
stage, I think a lot of people do talk about securing the 
border first. And without definition, you never get to that 
second stage, which I think we absolutely have to get to.
    So what is the stumbling block? Where does the argument 
occur? Why can't we come up with a definition?
    Ms. Meissner. Well, I am not sure that we have really 
forced ourselves to confront that issue. I think that this 
hearing and your leadership in identifying progress in border 
enforcement is very important. I am glad to hear you say that 
it is legitimate to be asking questions about how far border 
enforcement has come because the debate basically has been a 
debate where border control is bandied about as though we do 
not have it and we need it, or we are only going to get it if 
we do other legislation. We must go deeper than that.
    So if there is a recognition in the Congress and committees 
like this to ask questions about border enforcement 
effectiveness, I would hope that the Administration and the 
Department of Homeland Security are interested in answering 
those questions as part of the overall case that they make 
about their efforts. Maybe there is a way here to come together 
on thinking--having more of a shared view of what we are really 
striving for in border enforcement as the basis for having a 
more honest debate.
    Senator Johnson. Does anybody have a recommendation for a 
definition?
    Ms. Meissner. Well, I think we could come up with one.
    Senator Johnson. Mr. Hutchinson.
    Mr. Hutchinson. Well, Senator Johnson, I did recite a 
definition that probably is very similar to what the Border 
Patrol used before they rejected the definition. But it is to 
be able to detect border intrusions and to respond effectively 
to those. That is what is expected.
    I think the challenge is that there are really two 
questions: What is operational control? And then once you 
define that, how do you achieve 100 percent operational 
control, and how much is it going to cost? And I think that is 
the challenge, so that if we have only achieved half, less than 
half operational control, the American public is going to say 
what is it going to cost to do the whole thing, and that is 
their expectation. And that is where we have to be honest with 
them. It is going to be a gradual process to get there because 
of budgetary constraints.
    Senator Johnson. I mean, define ``detection.''
    Mr. Hutchinson. Well, detection--and that is where it would 
come in helpful to know when there is a border intrusion. That 
is where we have to use technology. It is the integrated 
towers. It is to be able to know whenever there is an intrusion 
and that is the detection part. And if we are not able to 
respond, then that gives us the statistics as to what is our 
batting average, and it tells us a great deal more information 
when we know we have the detection capability, and I think that 
is where we have to accelerate the technology side.
    You asked about more personnel in the booths and so on. 
That is always an issue. We need to continue to do that. But 
you can be more flexible in your personnel when you invest in 
the technology side.
    Mr. Stana. Yes, I would agree with that. Having what they 
call situational awareness is key because otherwise you do not 
know what you do not know, and it is hard to come up with the 
denominator that we have been talking about. What is the number 
of people crossing the border?
    The new technology, the tower technology, is useful. I do 
not know if you have been down on the border and saw the Mobile 
Surveillance System truck with the 25-foot boom that comes up 
and on top is a camera. They also have a laser pointer on them. 
Not only do they detect illegal crossers, but they point out to 
the Border Patrol where to go to apprehend them. That would be 
a very useful thing. Not only do you have situational 
awareness, you have something guiding you to the target. So I 
think there are other things along those lines that could be 
done.
    Senator Johnson. Now, we have achieved some pretty good 
successes, like you mentioned in Yuma. We are measuring that in 
some way, shape, or form, so why not use that exact same 
measurement? How is that occurring?
    Ms. Meissner. That is basically apprehensions. I mean, it 
is apprehensions and it is as we were talking earlier. It is a 
sense in the community, and it is a recognition that there is a 
concentration of resources that is actually changing the 
circumstances on the ground. People do not feel, experience, or 
see the kind of lawlessness and chaotic conditions that they 
did a year ago or 2 years ago. But fundamentally the metric is 
apprehensions, and what we do not know is what is going to 
happen in Yuma two harvests from now when the labor market 
perhaps comes back in a different way. There are all kinds of 
things that we could project that are likely to change in the 
future that will change the apprehensions, and it may not mean 
less success or more success. It is just that apprehensions are 
relative and they do not fully tell the story. They are a valid 
measure, but they cannot be the only measure, and they have 
basically been the only measure.
    Senator Johnson. Thank you very much.
    Chairman Lieberman. Thanks, Senator Johnson. It was 
interesting, and, of course, as I said at the beginning, the 
odd thing is that when the apprehensions go down, we conclude 
that there is less illegal immigration, right?
    Mr. Stana. Yes.
    Chairman Lieberman. I understand why we do that. We assume 
that the increasing number of border agents has meant fewer 
people are trying to come over; therefore, there are fewer 
apprehensions. But another way to look at this logically would 
be, well, that is not the way to measure it; that apprehensions 
would somehow be correlated in number to attempts to go over 
the border illegally.
    Ms. Meissner. Right.
    Chairman Lieberman. I know it is very difficult to pin a 
lot on a subjective standard. There is something to be said for 
the attitude of the neighboring community because they are 
there. Senator McCain has told us, if you keep seeing people 
crossing your land, well, that is pretty obvious that the 
system is not working. If there is an orderly effort to stop 
them and the numbers goes down, then you assume it is.
    Let me go on. Senator Tester, thank you.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Yes, thank you, Mr. Chairman. You bring up 
a lot of good points and there are more questions that crop 
into my head with every word that is spoken, but I will stick 
with what I have down here, and then hopefully I will have time 
for some other ones.
    First of all, thank you all for what you do and I 
appreciate you being in front of the Committee. Dr. Stana, I 
thank you first. I very much appreciate your work and the 
research, findings, and recommendations. Very helpful, I think.
    Since I have been on this Committee and since I am from 
Montana and we share a 550-mile border with Canada, I have been 
concerned about low-flying aircraft. The GAO report that was 
set out said that we have about 32 miles that are secure, and 
we can get into their definition of secure versus someone 
else's definition, but I do not want to do that at this point 
in time. But they said about 32 miles are secure.
    I live about 80 or 90 miles south of the Canadian Border 
myself and have a lot of friends up there, and low-flying 
aircraft is something that I think is of concern to me and I 
think it is a concern to the people across the country, or it 
should be.
    Radar seems to be a cost-effective tool to get our arms 
around it. We have had our struggles with getting that 
implemented, although I talked to Secretary Napolitano and she 
seems to be on the same page. Could you just give me your 
thoughts about low-level radars, is it a reality, can it 
happen, should it happen, or should it not happen?
    Mr. Stana. Well, it probably should happen. There is a cost 
to it, let me put it that way. I think the areas of Montana you 
are referring to are in the Spokane sector with the Border 
Patrol.
    Senator Tester. No. Actually it is true in eastern 
Washington, but it is also true in eastern Montana.
    Mr. Stana. OK.
    Senator Tester. Eastern being the eastern two-thirds.
    Mr. Stana. The reason I bring that up, we did some work on 
the Northern Border and I believe you were one of the 
requesters of that, Senator.
    Senator Tester. I was.
    Mr. Stana. And one of the things we found was exactly what 
you are saying, is that in that part of the country, the radar 
capability is key because the biggest threat is low-flying 
aircraft.
    Senator Tester. That is correct.
    Mr. Stana. In fact, if I remember correctly, there was a 
joint Department of Defense (DOD)/DHS exercise in 2008 where 
they brought in DOD radars and the DOD radars detected as many 
low-flying aircraft in the months that the exercise was in 
operation as normally DHS identifies in a year.
    Senator Tester. That is right.
    Mr. Stana. So it is much more sensitive, although many of 
those aircraft were moving east-west rather than north-south. 
But still, it had the capability of detection. That is a big 
problem and it needs to be addressed, and perhaps we need to 
look to the Pentagon for some of these answers. Some of their 
equipment would be more expensive at DHS because of economic 
order quantities and things like that--but they do have 
technology that is more sensitive and would be very useful in 
areas like this.
    Senator Tester. Without that radar, it is just basically 
eyeballs, right?
    Mr. Stana. Pretty much and there are not that many Border 
Patrol agents up there. There are only about 2,000 agents for 
the 4,000 miles between Washington and Maine.
    Senator Tester. There is a lot more now than there used to 
be, I will tell you that.
    Mr. Stana. And there are Forest Service agents and others.
    Senator Tester. I would like to get into that, too, 
actually. Is there opportunity to maybe reduce some of the 
manpower if radar was up there? Could you see that as a 
possible cost savings?
    Mr. Stana. Well, I think you could study that. The activity 
on the Northern Border is not what the activity is on the 
Southern Border. It is just two different solutions.
    Senator Tester. No doubt about it.
    Mr. Stana. I think before I would talk about reducing 
manpower, I would like to see how effectively we can integrate 
this new technology.
    Senator Tester. Right. What I am saying is, if it works as 
advertised, there could be some possibility there.
    Mr. Stana. Well, anytime you increase situational awareness 
and can actually pinpoint incursions, then you can direct your 
resources much more effectively, and thereby, perhaps, reduce 
the need for agents.
    Senator Tester. Very good. Commissioner Meissner, I have 
recently called for an investigation into so-called sham 
universities, that basically manipulate immigration laws to 
offer student visas to allow foreign nationals into the United 
States. They abuse the system, they ignore the laws, they 
threaten our security, and I think they are opening a back door 
to thousands of potential illegals. Are you familiar with these 
schools? Are you aware of any effort to rein them in?
    Ms. Meissner. No, I am not, but it is not something that I 
have looked at. I have been out of government for 10 years, so 
it is not something that I am working with at the present time.
    Senator Tester. Any of the other folks on the panel? Go 
ahead, Mr. Hutchinson.
    Mr. Hutchinson. We implemented the International Student 
and Exchange Visitor Information System program which is for 
the international students, and part of it is the qualification 
of the school or the university. And so, you have to be 
qualified for that program. I think that is something they have 
to look at tightening up, so I am aware of the abuse. But they 
do have a program that actually addresses the international 
students and the programs that qualify for that.
    Senator Tester. There has been some talk about the US-VISIT 
Program and how, in fact, it is good at getting the folks 
coming in, but it is not so good getting the folks going out, 
and I do not know how you solve that problem myself, and 
hopefully there are some minds that can talk about that. But 
how effective is that program if you cannot determine exits?
    Mr. Hutchinson. It is not. And that is the challenge. That 
is why we have the visa overstays.
    Senator Tester. Right.
    Mr. Hutchinson. There is a lot of simple things that can be 
done. I was very impressed with Dr. Stana saying that such a 
small percent of resources are devoted to 45 percent of the 
problem. That is a significant challenge and it needs to be 
addressed.
    Mr. Stana. And I would add to that, Senator, that whatever 
hits they get on US-VISIT, they send them to ICE, but then you 
have a limited number of people to react to it. So this is one 
of those things where you have to right-size your total 
response. If you have the best US-VISIT system in the world but 
you do not have anybody to chase the people that you 
identified, it is not useful.
    Senator Tester. Yes, but we make folks run through a pretty 
rigorous routine to acquire a visa to get into this country, do 
we not?
    Mr. Stana. That is correct. Unless you are in a visa waiver 
country. There are about 28 or 29 countries where you do not 
need a visa.
    Senator Tester. So why is there not that same rigorous work 
done when the visas run out? We know when they run out.
    Mr. Stana. That is absolutely correct, and when they run 
out, they do check whatever information they have from I-94s 
past or through airport manifests, but it is not perfect.
    Senator Tester. I did not hear Senator McCain's statement 
early on, it was before I came here, and I wished I would have. 
But we will read that in the record. You did touch on something 
about people crossing land, and I can tell you that on the 
Northern Border, there is a tremendous resource out there 
called local police, county police, farmers and ranchers, that 
know this land like the back of their hand.
    Is there a concerted effort to get those folks involved or 
are we dealing with so much secrecy here that we cannot get 
them involved?
    Mr. Stana. No, they do get them involved through the task 
forces called Integrated Border Enforcement Teams and Border 
Enforcement Security Task Forces. They do try to get the local, 
State, tribal, and of course, Canadian Mounted Police, in your 
case, involved in these task teams to share information, 
resources, and occasionally do joint operations. It is working 
OK. In fact, if there is a limitation there, there is a 
proliferation of these task forces and the locals say they just 
cannot go to every task force meeting. They do not have enough 
people.
    Senator Tester. And there is no need to have meetings for 
the sake of meetings. The real question is, in this country you 
have the highway patrol, you have the county police, and you 
have the city police.
    Mr. Stana. Right.
    Senator Tester. Outside the task forces, is there an 
outreach to those folks saying, ``We want you to be a part of 
this equation.'' If we work as a team, we get more stuff done. 
And we are going to share information with you and, by the way, 
some of it is pretty sensitive, but you are in law enforcement 
and so am I.
    Mr. Stana. A lot of that is supposed to be happening, but 
it all boils down to that special agent in charge, whether it 
is ICE or whether it is the Border Patrol or whoever, making 
those kinds of agreements work. Sometimes they work great and 
you get kudos for our people; other times it does not.
    Senator Tester. Just one more question and then we will 
make this very quick. In Great Falls, Montana, we have an 
international airport where airplanes fly in and oftentimes, it 
being fairly close to the Northern Border, there is some port 
security that takes place there. There is a rule on the books 
that says you have to take them to an international airport, 
which are in Spokane, Seattle, Minneapolis, Denver, or Salt 
Lake.
    We are working with CBP on this, but recently, planes have 
been turned away. They have been turned out of Montana, we have 
done it before, and they have been shipped somewhere else. I 
have to tell you, it is somewhat disconcerting to me that we 
are going to ship a potential plane that has some issues 
revolving around terrorism to Salt Lake, which is halfway 
across the country, from a north-south standpoint, instead of 
dealing with them more locally.
    Now, I know there are bigger planes, bigger numbers, that 
is the story, but smaller planes, smaller numbers, there is no 
reason why those cannot be done here. Could you give me your 
thoughts on that?
    Mr. Stana. Well, I think it would probably depend on what 
agents and resources are available at the airports.
    Senator Tester. That is the problem. It used to be done. We 
have different agents now and it is not being done.
    Mr. Stana. Right. And so, you would have to get on the list 
of locations that are authorized to have the appropriate agent.
    Senator Tester. I do not want to hang you gentlemen out on 
this, but it seems a bit crazy to me. I mean, if they could do 
it with the previous agent, why can they not do it with the 
next one? Especially if there has not been any incidents and 
they have caught them.
    Anyway, thank you, Mr. Chairman. Appreciate the hearing. 
Thank you, gentlemen, for testifying.
    Chairman Lieberman. Thank you very much, Senator Tester. 
Senator McCaskill, welcome.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you, Senator Lieberman, and I 
thank all of the witnesses for being here. I think as we 
struggle with how we define success or failure along the 
border, it gets back to the old prosecutor's dilemma. How do 
you prove what you have prevented?
    And that is where the apprehension figure is difficult 
because it could be that we are apprehending less because we 
are doing a terrible job, or it could be we are apprehending 
less because we are doing a really good job and fewer people 
are trying to cross the border because we are doing a good job.
    It reminds me of that which is live by the sword, die by 
the sword, when I was a prosecutor, the crime statistics. It 
was the very same problem. When crime went down, nobody was 
anxious to say the prosecutor had done a great job by 
preventing crime. But when crime went up, it was a real 
problem. I am glad we are trying to tackle it because I think 
it is very easy to say over and over again, ``Secure the 
border.'' It is much harder to define in objective terms what 
that really looks like.
    As we say over and over again, ``Secure the border,'' I was 
proud to co-sponsor, along with Senator McCain, a bill fully 
paid for last year that added $600 million to border security, 
including drones for realtime surveillance. I am assuming that 
there is no one on the panel that disagrees that this 
technology, in terms of realtime camera surveillance, unmanned, 
could be extremely effective along the border as it relates to 
criminal activity.
    Mr. Hutchinson. And it gives us the detection capability.
    Senator McCaskill. Right. And so, imagine my surprise when 
we put $600 million in, fully paid for, that is part of what 
was cut in the Continuing Resolution (CR) that was passed by 
the House of Representatives. So I am willing to bet that most 
of the folks that were excited about passing that CR in the 
House of Representatives, I bet they said, ``Secure the 
border,'' a few times during their campaigns. So I was 
surprised when we got a bill that basically took some of the 
money that were paying for this $600 million and used it for 
something else, rather than the $600 million that we need to, 
in fact, secure the border.
    I would like to spend my remaining time on employer 
enforcement. I am a big believer that one of the problems we 
have had is a failure to be aggressive about employer 
enforcement. One of my first hearings in this Committee, I was 
shocked when the woman that was in front of us for confirmation 
to head ICE, when I asked, ``Could you tell me how many 
employer criminal prosecutions there have been in the last 
year?'' She had been running the program for awhile, and she 
said, ``We do not keep that number.''
    Then they tried to tell me at the time that not only do 
they not keep that number, they could not even get it for me. 
So I had my intern sit down with Google and go through and try 
to figure out, over the course of years, how many workplace 
enforcements had been brought against the employer. It was a 
shockingly low number, Mr. Hutchinson.
    Now, the audits and fines are up the last couple of years, 
and I would like all of you to comment on how fundamental 
employer enforcement is because these folks are not coming 
across the border for vacation. They are coming for a job. And 
the reason they know they have come for a job is because up 
until fairly recently, I do not even think we were doing that 
good a job on employer enforcement. I think we are doing 
better.
    But I just think it is a real opportunity for deterrent if 
these employers think something serious is going to happen to 
them. I know you mentioned E-Verify. I am a big supporter of E-
Verify. But I would like you all to speak to that.
    Mr. Hutchinson. I agree 100 percent with you and it is my 
understanding, I think it is fairly evident from the 
statistics, that for various reasons, there has been a shift 
away from employer enforcement in the last couple of years by 
ICE. And they are doing audits, they are doing intelligence-
based investigations, but they have diminished from what they 
were doing 2 and 3 years ago. I think that is a concern. You 
have E-Verify, you have a lot of reputable employers, but you 
always have those that want to skirt the law and take advantage 
of illegal employment.
    So you have to have that capacity because you have to pull 
down the strength of the magnet. So I think that has to be re-
invigorated and I hope that ICE will maintain a vigorous 
approach to employer enforcement.
    Senator McCaskill. Well, now maybe the statistics I have 
been given are wrong. Is it the audits are up and the civil 
fines are way up in the last 2 years?
    Ms. Meissner. Right.
    Mr. Stana. Well, there is a difference between an audit and 
a work-site raid, and work-site raids are down and the audits 
are up.
    Mr. Hutchinson. Yes.
    Senator McCaskill. Well, the work-site raids that used to 
happen, they would happen, but all they did was round up the 
immigrants. They never did anything with the employers. I mean, 
nothing happened to the employers after a work-site raid. So, I 
mean, I am pretty confident that in the last 10 years, there 
was nothing in that record to brag about in terms of employer 
enforcement, in terms of holding people accountable.
    In fact, I raised a fit about a workplace raid in Missouri. 
This was a renowned employer of illegal immigrants. Everybody 
in town knew it, everybody in the community knew it, and they 
did a workplace enforcement, rounded up the illegal immigrants, 
detained them, but did not do anything to the employer until I 
raised a fit, and then finally the U.S. Attorney did something.
    So I am confused as to whether or not you think we used to 
do more workplace enforcement than we are doing now in terms of 
employers being held accountable?
    Mr. Hutchinson. That is my understanding. I hope Mr. Stana 
can comment on this. I will tell you that whenever I was 
Undersecretary of Homeland Security, we were not doing very 
well on employer enforcement. So we are starting at that low 
level, and that was post-September 11, 2001, because our 
resources were going to critical infrastructure like the Sears 
Tower and doing audits of those.
    Senator McCaskill. Right.
    Mr. Hutchinson. So we were focused on that. And we realized 
the tremendous gap because we were not doing sufficient work-
site enforcement and so ICE picked up the ball and invigorated 
that. They got a lot of criticism because it did include what 
you mentioned as some random enforcement and inspections. I do 
believe that it led to employer investigations. You can quibble 
about that, but I think those are the facts.
    But there is a deterrent effect in there as well. There is 
a concentration on audits and they have the civil fines, but I 
believe the comprehensive enforcement policy against employers 
has changed and diminished.
    Mr. Stana. You know, this is not one Administration versus 
another. This goes all the way back to the Immigration Act of 
1986 when we first started getting into this. We gave amnesty, 
we created an I-94 system, which I think you know what that 
means, and then we promised enforcement. Well, two of the three 
legs of that stool were stood up. We never put the enforcement 
in place.
    Senator McCaskill. Right.
    Mr. Stana. I think on average, we spend maybe 300 staff on 
work-site enforcement. When you compared that to the 20-some-
thousand Border Patrol agents and to the 20-some-thousand 
people at the ports and whatever else is going on, having 300 
people dealing with the magnet, just does not add up.
    Senator McCaskill. I am a big believer that if we start 
putting a few of these employers in handcuffs and you actually 
prosecuted them, when they have done this over and over again 
and you can prove they knowingly had seven or eight people 
working at their place with the same Social Security number, 
give me a jury. I can prove they knowingly broke the law, and I 
will bet you could too, Mr. Hutchinson, knowing your 
background. I bet you could, too.
    So I do not condone illegal immigration and I do not think 
it is a good thing, but the notion that we have done high 
profile efforts against illegal immigrants in the workplace, 
while we had the thing in Iowa that got a lot of press, there 
have been very few incidences where I think employers have been 
held accountable for knowingly and repeatedly violating the law 
when it comes to illegal immigration. I would like to continue 
to work on that. Thank you, Mr. Chairman. Thank you for the 
witnesses.
    Ms. Meissner. Can I just interupt?
    Senator McCaskill. Sure.
    Chairman Lieberman. Commissioner, go ahead.
    Ms. Meissner. Because I think it is such a core point. I 
mean, we would all agree, I certainly agree, that employer 
enforcement is essential to the equation here. I also think 
that the element about employer enforcement that keeps getting 
overlooked is that it is, in my view, the best response to the 
overstay problem and the people who overstay their visas that 
we have.
    Senator McCaskill. Right.
    Ms. Meissner. All the talk about Southwest Border 
enforcement we know is not going to get there. I appreciate the 
issue of exit controls where US-VISIT is concerned, but that is 
not the way to deal with overstays. It is important to do that, 
but the idea that once somebody has not left, you would then 
try to send ICE agents around the country to try to find them 
is not an effective use of resources, particularly for people 
who have been visitors, which largely is who they are, who have 
left the name of a hotel in a particular city on their I-94 and 
that is all you have.
    What you have is the job. That is what they are doing. They 
are staying here to work. And so, if you have a viable employer 
verification requirement in the enforcement system, you address 
the overstay part of this and you get a much more balanced, 
integrated, effective, across-the-board deterrent.
    Senator McCaskill. Absolutely. I could not agree with you 
more and I thank all three of you very much for your testimony 
today. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator McCaskill, and I would 
be glad to work with you on this. I think it is very important. 
I have a few more questions. I just want to focus on the visa 
overstay problem because the testimony has been very helpful 
and I think informative about the extent to which visa 
overstays constitute the illegal immigration problem in our 
country.
    Just as a factual basis--I will start with you, Mr. Stana, 
but welcome others to testify--what do we know about the visa 
overstay population? In other words, I presume intuitively that 
they are different from the illegal immigrant population in 
terms of where they come from. Also, perhaps because we at 
least have the information that they came in legally, I presume 
we have a better idea of who they are. Am I right?
    Mr. Stana. Well, we know who they are. We know what address 
they left with the inspector at the port which may or may not 
have lasted more than a day.
    Chairman Lieberman. Right.
    Mr. Stana. But they have been very effective in blending 
into the society.
    Chairman Lieberman. I guess when I say we know who they 
are, I really mean we know where they came from.
    Mr. Stana. Yes.
    Chairman Lieberman. We know which country they came from.
    Mr. Stana. Yes. And that is an issue with the visa waiver 
program. Visa waiver status is only to be given to certain 
countries that do not have a large overstay population.
    Chairman Lieberman. Right.
    Mr. Stana. And sometimes those two statistics are not 
matched very well.
    Chairman Lieberman. My presumption is that most of the 
illegal immigration is coming over the Southwest Border, and 
therefore, it is probably Mexican nationals and Central or 
Latin American nationals. Whereas--and I ask if I am correct--
the visa overstay population coming in legally and then staying 
illegally is from elsewhere in the world.
    Mr. Stana. Could be from Asia, could be from Europe, or 
Africa.
    Mr. Hutchinson. Mostly flying in.
    Chairman Lieberman. Mostly flying in, right.
    Ms. Meissner. Right.
    Chairman Lieberman. And obviously mostly not, therefore, 
coming at a land border.
    Mr. Stana. Coming through airports of entry.
    Chairman Lieberman. Exactly. And can we draw any 
conclusions, anything we know about why they are overstaying? 
Are they overstaying and becoming illegal immigrants for the 
same reasons that those who come in illegally are?
    Mr. Hutchinson. They are doing it because they can. They 
could have a 2-year visa, it could be a 3-month visitor visa, 
or a student visa, and they just stay.
    Chairman Lieberman. Right.
    Mr. Hutchinson. They know that we do not have the capacity, 
they do not have to check out, they can circumvent the system, 
and so, it is hit and miss as to any follow-up, if any at all. 
We cannot track them.
    Ms. Meissner. But fundamentally, it is a jobs issue.
    Chairman Lieberman. That is what I was going to ask. So in 
that sense, they are coming for the same reason that we think 
most of the immigrants come for.
    Ms. Meissner. And they may have come completely 
legitimately to visit for awhile and then they change their 
view.
    Mr. Stana. Or they work on an H1-B.
    Ms. Meissner. Exactly.
    Mr. Stana. High tech and they just stay.
    Chairman Lieberman. Yes. Did you want to add something, Mr. 
Meissner?
    Ms. Meissner. Well, I would just add that this number--Mr. 
Hutchinson used 45 percent--sometimes the number has been that 
high. I think the recent estimates are more in the 35 to 40 
percent neighborhood. I feel a particular kinship to it because 
when I was Commissioner, we put out the first numbers on that 
dimension of the unauthorized immigration problem.
    Chairman Lieberman. Yes.
    Ms. Meissner. It was an incredible eye-opener.
    Chairman Lieberman. Yes.
    Ms. Meissner. And it continues to be overlooked as an 
element of this phenomenon.
    Chairman Lieberman. Absolutely.
    Ms. Meissner. I would add it to the list of analytics that 
I think that the government should be reporting on, on a 
regular basis, and analyzing, because not only is it an 
important part of the issue, but there is some reason to 
believe that perhaps it is going down to some extent because of 
the controls that have been put in place in the 2000s through 
US-VISIT and through the consular and visa-issuing programs 
which, in fact, have been effective. But again, we do not know.
    Chairman Lieberman. That was my next question about whether 
there are any trends and numbers of visa----
    Ms. Meissner. We think that there is a trend and the best 
information on this at this point is available through the Pew 
Hispanic Center. The government is not regularly reporting on 
those kinds of things, and I believe it should be doing so. We 
think that perhaps the trend of overstays is coming down to an 
extent.
    Chairman Lieberman. Down.
    Ms. Meissner. But again, we do not know whether that is----
    Chairman Lieberman. Because of the economy? Because of the 
fact that there are less jobs?
    Ms. Meissner. Right now, it is always going to be a 
commingling of the economy and of enforcement. It is difficult 
to know.
    Chairman Lieberman. Yes.
    Mr. Hutchinson. I agree totally. We need more analytics and 
these are numbers we should be able to achieve. You think about 
the illegal crossings. We do not know who is coming across a 
land border illegally, but we know who is coming in, the 
starting point, with the visas.
    Ms. Meissner. Exactly.
    Mr. Hutchinson. And so, all it takes is an audit sample 
where because we have their home address in the foreign 
country, we have where they are supposed to stay here in the 
United States. You have an audit team that audits a certain 
percent, extrapolate from that. I would think you would be able 
to get a good analysis.
    Mr. Stana. Yes. We have a report coming out next month on 
the visa overstay issue. I cannot really talk too much about it 
now because it is not yet public and we do not have all the 
agency comments, but all of these things are issues that my co-
panelists here have talked about.
    Chairman Lieberman. So you are answering some of the kinds 
of questions we have addressed here?
    Mr. Stana. Some of these kinds of questions. As far as how 
many there are, I have seen estimates as high as 57 percent 
recently, but I think the point still remains, who knows? 
Because you do not know what you do not know.
    And the other thing is, some of these overstays are kids, 
the kind who used to backpack through Europe for 2 weeks and 
now are backpacking through the United States for 2 weeks.
    Chairman Lieberman. Right.
    Mr. Stana. And the duration of overstay might be for 6 
months, a year or something. It is not always a hard core 
population of 45 percent who are working at a multinational 
firm in Denver. Many of them just overstay for brief periods, 
but a lot of them do come to stay and they come with the 
intention of staying. I think it is fair to say that the word 
is known in other countries that, based on relatives or others 
they have seen come here, overstaying a visa is a loophole, it 
is a way to get in. It is much easier than crossing the 
Southwest Border.
    Chairman Lieberman. Right. I presume that once you get a 
visa--now, that may be difficult, but if you get a visa to come 
here in one of these other categories, if you decide to 
overstay, the odds of apprehension are very low.
    Mr. Stana. Well, I would extend that. No matter how you get 
into the United States, once you are in you are in unless you 
misbehave.
    Chairman Lieberman. Well, that is true. I guess I was 
thinking that anybody who comes over illegally is putting 
themselves at some risk, sometimes physically or at a cost, but 
if you are able to get on an airplane legally and come into 
this country and you decide you want to stay, the odds you are 
going to be caught are very low right now.
    Mr. Stana. Well, I think that gets to former Commissioner 
Meissner's point, that an effective way to do this is through 
work authorization permits. It certainly neutralizes that 
magnet.
    Chairman Lieberman. Yes. Let me ask you a final question on 
the nexus between border security and immigration reform. The 
premise we have been operating on--part of why we are doing 
this series of hearings--is to see if we can agree on a common 
ground on what we are striving for in terms of border security. 
What is achievable? What the problem is? How much of the 
problem is illegal entry?
    And if we can do that, then to have that be a premise for 
dealing with the undocumented alien population of the country. 
I know some people say actually that is not all bad, but maybe 
if you look at it the other way around, too, that if we deal 
with the illegal immigrant population, that will contribute to 
effective control over our borders. Anybody want to comment on 
that, either Commissioner Meissner or Secretary Hutchinson?
    Ms. Meissner. I am happy to comment on it. I do think that 
we obviously have been talking about border enforcement. It is 
an essential part of the equation, but there is an equation 
here. And that is that we rationalize our immigration system in 
a way that is suited to today's economy and to, more 
importantly, what we think the economy and needs of the country 
for the future are going to be.
    Those needs, I think, certainly by many measures that I 
know, need to include immigration and they need to include 
better avenues for people to come to the country legally for 
work purposes across the spectrum. And we do not have a system 
in place that does that and we need to put that into place. 
Were we able to do that, it would be easier to enforce the laws 
because there would be laws that are more aligned with reality 
on the ground, economic, social, and labor market driven.
    Chairman Lieberman. Yes.
    Mr. Hutchinson. The fundamental foundation is the 
confidence in the immigration system as a whole. That starts 
with border security. You pointed that out, Senator, and once 
you have that and the people have confidence that the 
immigration system has regained its footing, then I think they 
are willing to look at what else we need to do. But it starts 
with that.
    Because immigrants do provide the energy in our society, 
such a great part of our fabric, we want to make sure they are 
a part of that, and the legal path here is very important to 
meet the needs of our economy and to make sure they do not go 
by some other means.
    Chairman Lieberman. I agree. Thank you very much. I think 
it has been a very informative and helpful hearing, which will 
be a good preface for the subject matter hearings that follow.
    We are going to leave the record of the hearing open for 15 
days for additional questions and statements, but for now, 
again, I thank you very much for your testimony today.
    The hearing is adjourned.
    [Whereupon, at 4:20 p.m., the Committee was adjourned.]


            SECURING THE BORDER: PROGRESS AT THE LOCAL LEVEL

                              ----------                              


                        THURSDAY, APRIL 7, 2011

                                     U.S. Senate,  
                       Committee on Homeland Security and  
                                      Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 1:36 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Pryor, McCain, and Coburn.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. I think we will begin the hearing. I 
will begin my opening statement and hope, with the inherent 
ability I have as a U.S. Senator to continue talking for long 
periods of time, that I will be able to fill the space between 
now and when Senator McCain arrives.
    I thank the witnesses for being here. I appreciate it very 
much.
    Today's hearing is the second in a series that the 
Committee is holding to examine the progress made over the past 
decade as a result of the infusion of substantial Federal 
support to secure our borders--particularly our border with 
Mexico--and how we can build on the current level of border 
control.
    At our first hearing, the panel of experts outlined the 
significant increases in manpower and resources that have been 
sent to the border over the past decade, and they all agreed 
that progress has been made toward securing the border but 
that, of course, much more still needs to be done before we can 
say we have done everything we can do.
    Last week's hearing also raised, I think, some important 
questions about how we define and gauge border control and 
about the inadequacy of our current measurements of what is 
inherently a difficult question, which is to gauge how many 
people are coming over illegally. If we knew that they were all 
coming over and when they were coming over, presumably we would 
apprehend them all. So we understand it is a difficult 
challenge. Our witnesses agreed that the metrics collected and 
disseminated about border security must be improved to provide 
us with the best possible understanding about how well the 
border is being secured.
    Right now, for example, apprehensions of illegal border 
crossers are at their lowest levels since the early 1970s--with 
465,000 people apprehended last year compared to 1.6 million in 
2000. Now, this is interpreted by many as a clear sign of 
progress--and these are people who believe that the 
substantially decreased number of apprehensions means that 
border control operations are deterring people from crossing 
illegally. I guess it also assumes the same basic percentage of 
apprehensions as compared to the total number of people 
attempting to go over. But that is an interesting question.
    Nonetheless, at various times in the last decade, the 
Border Patrol itself has turned this formula upside down and 
pointed to increases in apprehensions of illegal crossers as 
evidence of progress, in that case arguing that the increasing 
apprehensions meant that agents were targeting their efforts 
better. So, in my opinion, apprehensions are obviously one 
indicator of border security, but we have to see if we can find 
a better, more direct way to conclude how many people are 
actually trying to enter the country illegally and how many 
people actually succeed in doing so.
    I realize, again, that this is not an easy undertaking, but 
some Border Patrol sectors--including the Tucson Sector--are 
already using cameras, sensors, and footprint analysis to 
conclude how many illegal entries are occurring. It gives them 
a little more data to make a conclusion that, in the end, is an 
estimate, but we are trying to make it as educated an estimate 
as possible. I think we have to expand this across the entire 
border in order to give us a better idea about whether our 
border security strategies are succeeding and to help the 
Border Patrol marshal its resources more effectively.
    The panel we heard last week also agreed that the 
apprehension rate of illegal border crossers cannot be the only 
way we measure border security. Other factors, they said, must 
be considered as well, including a subjective factor but one 
that presumably is based on objective experience, which is 
public perceptions. That is, can we measure and consider how 
secure people in border communities believe they are as one 
indication of how secure they actually are.
    In confronting the problem of illegal immigration, I think 
we have also got to take into consideration a statistic that 
was testified to last week that would probably surprise most 
people, which is that, depending on who you talk to, between 35 
and 45 percent of the people now in this country illegally 
originally entered the United States on valid visas that 
subsequently expired.
    Welcome, Senator McCain. I saved you from hearing half of 
my opening remarks, understanding that you were on your way.
    So, in other words, what I am talking about is that these 
are people who were legal immigrants who became illegal because 
they overstayed the period of time in which they were legally 
authorized to be here. And most of these people did not enter 
the United States across our border with Mexico. So that is a 
separate category of this problem of illegal immigration and 
one that I think people have to understand as we deal with the 
problem.
    To help us get beyond the statistics and understand the 
situation on the ground--because last week we really heard from 
Washington-based administrators and experts--we have called a 
panel of witnesses that we are privileged to have before us 
today, people with real firsthand experience along our entire 
Southern Border from Texas to California. You are the people 
who confront this problem of illegal immigration and border-
related crime every single day in your positions as sheriffs 
and judges.
    I think the Committee is very interested in your views on 
the status of our control of the border closest to you right 
now, on what we can do to improve that control, and on how much 
the terrible drug-related violence in Mexico has spilled over 
into your jurisdictions.
    I would also like to know, and I will ask about whether the 
Federal Bureau of Investigation (FBI) statistics which reflect 
decreased rates of violence in a lot of the border communities 
reflect your experience within your own communities.
    Last week, we heard testimony that border security cannot 
be achieved in isolation from our immigration system of laws 
and that hundreds of thousands of people will continue to risk 
their lives to illegally cross our borders unless and until we 
reform our immigration laws, and presumably what was meant here 
is to create a system that allows immigrants to enter legally 
for temporary periods of time for work and then to return. So, 
assuming we have time, I am going to ask our witnesses to 
address the relationship between immigration reform and border 
security because the ultimate aim of these hearings is, one, to 
do oversight on what we are getting in return for the 
considerable Federal investment in border security; two, 
obviously what we can do to improve it; and, three, there is a 
political equation here which has to do with the relationship 
between border security and our current immigration system, 
which just about everyone agrees is broken.
    So, with that, I thank the witnesses very much for being 
here, and I call on the Ranking Member, Senator McCain.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Thank you, Mr. Chairman, and I apologize 
for being a few minutes late, and I want to thank our 
witnesses. And, Mr. Chairman, if I could, I would like to 
submit for the record testimony by Larry Dever, who is the 
sheriff of Cochise County, Arizona.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dever appears in the Appendix on 
page 229.
---------------------------------------------------------------------------
    Chairman Lieberman. Without objection.
    Senator McCain. I thank the witnesses for being here and 
taking the time from their important duties.
    The deadly violence in Mexico has fundamentally changed the 
jobs of law enforcement along the border. They are now asked 
not only to serve eviction notices, assist courthouses with the 
transport of prisoners, and execute and service process of 
civil litigation matter, but you are also now our Nation's 
first line of defense in defending our homeland, and for that 
we are very grateful. The job of sheriff or sheriff's deputy is 
more difficult, more challenging, and more dangerous than ever 
before.
    Mr. Chairman, I have a prepared statement that I will 
submit for the record.\2\
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator McCain appears in the 
Appendix on page 155.
---------------------------------------------------------------------------
    I do not think there is any doubt that there have been 
improvements in border security or a dramatic increase in 
violence on the other side of the border.
    I was recently down in Douglas, Arizona. Agua Prieta is the 
town on the other side of the border. Three nights before I was 
there, three sport utility vehicles (SUVs), blue lights 
flashing, blocked off the traffic on the street right on the 
other side of the border, took a left turn, half a block down 
from the border crossing, individuals jumped out and a 
fusillade of automatic weapons fire kills five people and 
wounds 14 others. That is in the block next to our border. And 
I appreciate the fact that our border towns are safe on our 
side of the border, but it is not logical to assume that will 
be the case when the level of violence on the other side of the 
border continues to escalate. It just cannot happen.
    I just saw it on the TV: 59 more bodies were found in the 
same place where 70 bodies have been found recently. Cities 
like Monterrey and others where we never expected this kind of 
violence to take place are happening. And I think that Sheriff 
Paul Babeu will tell you, and I believe the other sheriffs 
will, the level of sophistication of the drug dealers has 
dramatically increased.
    We now have, according to the High Intensity Drug 
Trafficing Areas (HIDTA) in Arizona, between 75 and 100 guides 
sitting on mountaintops in Arizona--not on the other side of 
the border, but on mountaintops. They are armed. They have 
sophisticated communications equipment, food, and they stay for 
a long period of time. They guide the drug smugglers up to 
Phoenix which has become the drug distribution center for 
America with the exception of parts of Texas.
    Then you couple that with the lifestyle of the ranchers and 
the residents of the southern part of my State who are not in a 
secure environment. That is why the Federal Government has put 
up signs that say, ``Warning: You are in an area of drug 
smugglers and human smugglers.'' They would not be putting up 
those warning signs if there was not a reason to warn our 
residents. They are afraid to leave their homes because of home 
violations.
    Now, there are not many citizens in the southern part of my 
State, but they should have the right to live in a secure 
environment. They should have the right to drop their kids off 
at a bus stop without fear of them being endangered.
    So we have a lot of issues, as you pointed out. One of them 
is that we have not had a national conversation about--and we 
have to--the demand issue. What is the situation also with a 
State like mine and California where medical marijuana is 
allowed? We are going to try to stop that farmer in southern 
Mexico from growing marijuana, but we are going to allow 
someone in Phoenix, Arizona, to grow marijuana for ``medical 
purposes?'' I am not sure that has a lot of logic associated 
with it.
    And I asked our U.S. Attorney Dennis Burke, who is a great 
man, and he said he did not know how he was going to handle 
this issue either now that it is going to be quasi-legal in my 
State of Arizona for marijuana usage. But at the same time, 
right now at least, the cash crop is marijuana, more than 
cocaine or any of the others. And last year, in the Southwest 
Border, just in the Southwest Border States, seizure of 
marijuana was 1.7 million pounds, and 1.2 million of these 
pounds were seized in the Tucson Sector.
    So I acknowledge that there has been improvement. I 
acknowledge that our sheriffs on our side of the border are 
doing a great job in keeping our communities safe. I do not 
acknowledge that when you see the level of violence continue to 
escalate on the southern side of the border, we are somehow 
immune from that spilling over to our side of the border. There 
is no logic associated with that. And I think that Sheriff 
Babeu and I believe our other sheriffs may tell you that it 
used to be when you saw a drug smuggler, they dropped their 
product and ran. Now many of them are armed and ready to fight. 
That is a very different situation and a very different 
challenge to our sheriffs and their deputies.
    I could go on for a long time, Mr. Chairman, but the 
purpose of this hearing is to hear from our distinguished 
witnesses, and I want to thank them again for their outstanding 
service on the front lines. Thank you.
    Chairman Lieberman. Thank you, Senator McCain.
    We will go first to the Hon. Veronica Escobar, County Judge 
for El Paso, Texas. Thanks for being here, Judge.

 TESTIMONY OF HON. VERONICA ESCOBAR,\1\ EL PASO COUNTY JUDGE, 
                             TEXAS

    Judge Escobar. It is my honor. Thank you very much for the 
opportunity.
---------------------------------------------------------------------------
    \1\ The prepared statement of Judge Escobar appears in the Appendix 
on page 157.
---------------------------------------------------------------------------
    I have the honor of being the County Judge for El Paso, 
Texas, the greatest city in the United States. In Texas, the 
County Judge is the chief executive of the county. I preside 
over a five-member commissioners court, which has budgetary and 
administrative authority over county government operations.
    The County Judge is elected county-wide. That means, as of 
the 2010 census, I now represent 800,000 people in the world's 
largest bi-national metropolitan community.
    El Paso also happens to be the safest city of our size in 
America, and we have consistently been ranked among the top 
three safest communities in the United States for well over a 
decade. Not only do we have some of the lowest crime rates in 
the Nation, but a recent poll of our citizens shows that we 
know we are safe and we feel safe.
    Residents who live on the U.S.-Mexico Border have seen 
their communities used as a convenient backdrop to heated 
debates and political posturing about immigration and drug 
policies. Incredibly, it has been said by some elected 
officials, two from my own State, that there are bombs going 
off in El Paso, and that is absolutely untrue. As a border 
community, we have challenges, no doubt, but exploding bombs 
are not among them.
    What happens when the rhetoric escalates and the facts get 
lost? It hurts my local economy. It hurts our ability to 
recruit talent. It negatively affects our convention business, 
and it does not address the real problems.
    We are all concerned about and devastated by the tragedies 
occurring every day on the other side of our river. The drug 
war is raging just across from where I live in the streets of 
Ciudad Juarez. I am glad for the assistance being given Mexico, 
and I hope there is more to come, including discussions about 
our own contributions to the drug war that is devastating 
Juarez and El Paso families.
    In the meantime, illegal drugs continue to flow north to 
feed Americans' insatiable appetite for them. U.S. guns used in 
that bloodshed continue to move south, and El Paso, like other 
border cities, is a corridor caught in the middle of that 
north-south activity as well as the rhetoric that emanates from 
our State's and Nation's capitals.
    My local law enforcement agents are dealing with 
transnational gang activity. My jail houses them. Our 
prosecutors are pursuing charges against them in court. And my 
local property tax base is shouldering much of that burden. The 
Federal Government has been aware of the costs associated with 
the challenges we face on the border, and we appreciate your 
support through the State Criminal Alien Assistance Program 
(SCAAP) and through HIDTA funds. But, unfortunately, they have 
not grown as the need has grown, and so my local property tax 
base then shoulders whatever is not shouldered by the Federal 
Government.
    Grants offer an important supplement, but sometimes they 
can be inflexible, not allowing my sheriff's office to purchase 
vehicles, for example, through Operation Stonegarden.
    We need investments that supplement our ability to recruit 
and hire more officers. Office of Community Oriented Policing 
Services (COPS) grants, for example, flowed into Texas, but the 
El Paso County Sheriff's Department and the El Paso Police 
Department, law enforcement agencies on the border, we did not 
receive any of that funding.
    We become more concerned with the talk of slashing budgets 
and cutting support to our communities, and we believe it will 
erode the gains we have made in getting the Federal Government 
to assist us as we assist you.
    When the war between the cartels began to reach a critical 
level in Ciudad Juarez, we saw a pattern emerge that we never 
predicted and that has not stopped. Our county hospital 
district, which houses the only Level I trauma facility in the 
region--the next closest is 275 miles away--began seeing 
victims of violence who were rushed through our ports of entry 
and into our emergency room. Since 2008, we have spent $4.9 
million in trauma care for the victims of Mexican violence. To 
date, we have been compensated for only $1.2 million, leaving 
local property taxpayers to pick up the $3.7 million in 
uncompensated costs.
    We have repeatedly requested funding from the Merida 
Initiative to help offset those costs borne by our local 
property tax base because we just do not see that financial 
burden diminishing unless the United States changes its drug 
policies or the cartels suddenly declare a ceasefire.
    Where has some of the funding gone if not to my trauma 
facility or increasing my law enforcement capacity? It has gone 
to a wall. While Federal law enforcement has gone on the record 
to praise the wall, it is to me and others an example of 
considerable Federal dollars being spent on a rusting monument 
that makes my community look like a junkyard.
    The vast majority of border crossers are not criminals but 
economic migrants, and as you know, a significant amount of 
illegal drugs are funneled through our ports of entry. A true 
fix to undocumented immigration would come from comprehensive 
immigration reform, and, frankly, it would take away the 
platform by so many State leaders who want our local law 
enforcement agents to enforce Federal immigration laws. And for 
the record, all of my local elected officials oppose using 
local law enforcement to enforce Federal immigration laws. 
Community policing is what keeps us safe, and having my local 
law enforcement become de facto immigration agents would erode 
that trust.
    Another facet of an overall fix should be our border ports, 
which lack significant investment in our infrastructure and 
personnel. We have $70 billion of commerce that comes across my 
ports of entry, and we need more modern ports.
    I live in a thriving, safe, and wonderful border community. 
I am fiercely loyal to and very proud of El Paso. While some 
politicians like to use caricatures of the border for purposes 
of political rhetoric, rhetoric that portrays my community as 
dangerous, volatile, and unsafe, the reality for me in El Paso, 
for those of us who live there, could not be more different.
    Do not get me wrong. We have challenges. But those 
challenges can be addressed much more effectively by more 
responsible burden sharing by the Federal Government, whose 
mission it is to secure our borders and, by extension, our 
public safety, our commerce, and our immigrant population. We 
are indeed on the front lines, and a safe border means a safe 
Nation. But vilifying immigrants, building expensive, ugly 
walls, and encouraging hysteria and xenophobia only hurts our 
border communities, my economy, our commerce, and the economy 
of the Nation. Thank you.
    Chairman Lieberman. Thank you, Judge.
    Next we will go to Sheriff Raymond Loera, who is the 
sheriff of Imperial County in California, which has an 84-mile 
border with Mexico. Sheriff, thanks for coming all the way 
across the country.

TESTIMONY OF HON. RAYMOND LOERA,\1\ SHERIFF OF IMPERIAL COUNTY, 
                           CALIFORNIA

    Mr. Loera. Well, thank you very much. It was a pleasant 
trip. I was sitting the whole way.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Loera appears in the Appendix on 
page 166.
---------------------------------------------------------------------------
    Thank you very much for the invitation to speak before this 
Committee. It allows me the opportunity to bring to your 
attention the significant and important work being done in a 
small but very important corner of the United States. This work 
is being done in an area already hit hard by economic pressures 
and diminishing resources. Even with these significant 
handicaps, law enforcement in the Imperial Valley is making 
significant headway in making the entire United States a safer 
place.
    The Imperial County Sheriff's Office is responsible for law 
enforcement and detention in the county of Imperial in 
California. Imperial County extends 4,597 square miles, 
bordering Baja California, Mexico, to the south, Yuma to the 
east, San Diego to the west, and Riverside County to the north. 
The county contains seven incorporated cities and 10 
unincorporated cities. The estimated population is 172,672. 
There are three ports of entry in the county. Two of the ports 
of entry are in Calexico and the third one is in Andrade, close 
to the Yuma, Arizona, border.
    Imperial County is a rural and agricultural community. 
Clean energy, wind, geothermal, and solar are emerging, and 
Imperial Valley could be a significant player in these fields 
in the very near future. However, currently the unemployment 
rate is consistently, and has been for many years, 24 to 25 
percent.
    The Mexicali-Imperial Valley corridor is a significant, 
lucrative drug-smuggling corridor. Customs and Border 
Protection (CBP) reports that during fiscal year 2010, the 
Calexico ports of entry led with the most cocaine seized, as 
compared to seizures at other ports of entry along the 
Southwest Border. For fiscal year 2011 this trend continues, 
and for fiscal year 2011, the Calexico ports of entry also lead 
in crystal methamphetamine seizures along the Southwest Border.
    Mexicali, Baja California, which borders the city of 
Calexico, has a population of 936,826. Mexicali has not 
experienced the degree of violence reported in other areas 
along the border, such as Juarez and Tijuana.
    Intelligence has indicated for some time that Mexicali is a 
neutral zone, a safe haven, due to the plaza having been 
controlled for many years by the Joaquin ``Chapo'' Guzman drug-
trafficking organization. Recently, there are indications that 
this is changing. This is evidenced by the killing of five 
individuals on January 24, 2011, at a bar in Mexicali, Mexico. 
Intelligence reflects that the Beltran-Leyva organization may 
be vying for control of the Mexicali Plaza.
    The Imperial County Sheriff's Office is part of the 
Imperial Valley Drug Coalition, comprised of 20 participating 
law enforcement agencies. This is a High Intensity Drug 
Trafficking Area initiative. This HIDTA is administered by the 
Southern California HIDTA, the California Border Alliance 
Group.
    The Imperial Valley Law Enforcement Coordination Center 
houses the following initiatives: The Imperial County Narcotics 
Task Force, Major Mexican Traffickers, and the California 
Department of Justice's Major Narcotics and Violence Team. 
Although not currently housed at the Imperial Valley Law 
Enforcement Coodination Center (IVLECC), it supports the Border 
Enforcement Security Team and the FBI Safe Street Task Force, 
which are also HIDTA initiatives. These task forces and the 
Intelligence Support Unit are made up of various State, local, 
and Federal agents, officers, and analysts, to include deputies 
from the Imperial County Sheriff's Office.
    The Bureau of Alcohol, Tobacco, Firearms, and Explosives 
(ATF) established an office within Imperial County in 2009. The 
domestic component, Project Gunrunner, is the primary focus of 
ATF El Centro's efforts within Imperial County. ATF El Centro 
partnered with the California Department of Justice Bureau of 
Firearms in 2010, as members of a Firearms Trafficking Task 
Force to implement the domestic component.
    In summary, Imperial County is a significant drug-smuggling 
corridor and poses a potential security threat not only to 
Imperial County, but also the rest of the United States. As 
rival drug trafficking organizations (DTOs) seek to take over 
the Mexicali Plaza, violence is expected to escalate in 
Mexicali. The Mexican DTOs have adjusted their smuggling 
methods to counteract law enforcement efforts, such as the 
utilization of tunnels and ultralights. The sharing of 
intelligence between agencies is critical in order to plan for 
and tackle these challenges. Imperial Valley law enforcement, 
working with all available partners at the IVLECC is an example 
of what can and must be done to counter these public safety 
threats by working together and putting turf issues aside to 
accomplish this mission.
    Also, just between the time that you contacted me and this 
meeting, there was a finding--and I will pass it around for you 
to look at, but there is a picture on April 2--I believe they 
caught the people that may have been responsible for or at 
least partly responsible for that shooting where five people 
were killed, and you would be amazed at the amount of military-
type arms that they located. Thank you.
    Chairman Lieberman. Thanks, Sheriff. Thanks very much.
    Next we have Sheriff Raymond Cobos, who is the Sheriff of 
Luna County, New Mexico, which has a 54-mile border with Mexico 
and is directly across from the State of Chihuahua, Mexico, 
which has unfortunately, sadly, been experiencing a lot of 
violence lately.
    Sheriff, thank you for being here, and we welcome your 
testimony now.

TESTIMONY OF HON. RAYMOND COBOS,\1\ SHERIFF OF LUNA COUNTY, NEW 
                             MEXICO

    Mr. Cobos. Thank you, Senator. It is an honor and a 
privilege to testify before this Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cobos appears in the Appendix on 
page 170.
---------------------------------------------------------------------------
    Let me start by saying that I just want to enumerate some 
changes in the last 10 years, some of these specific to Luna 
County.
    We experienced a doubling of the number of Border Patrol 
agents in the Deming Station, from around 250 to a little over 
500.
    We have increased the technological infrastructure along 
the border to include additional sensors, cameras, fencing, 
border vehicle barriers, and the construction and completion of 
the Forward Operating Base along Border Highway State Road 9. 
This is supplemented by the incorporation of National Guard 
personnel that monitor these systems and free Border Patrol 
agents for the field.
    The Border Patrol has partnered with local law enforcement 
in all-terrain vehicle (ATV) operations. We coordinate 
checkpoint operations with the Border Patrol. They do theirs 
and then we do our traffic enforcement program in close 
proximity.
    We have noted that the citizen complaints about Border 
Patrol activity has changed from ``very few Border Patrol 
agents'' to ``too many'' in many instances. That strongly 
indicates the effectiveness of the Border Patrol strategy. The 
presence of Border Patrol agents is the most visible sign of 
the Federal Government's efforts at practical control of the 
border, at least in my area.
    Luna County crime statistics have plunged along with the 
apparent numbers of apprehensions of undocumented persons in 
the El Paso Sector, which includes Luna County. And you have 
many of those instances along with narcotics seizures.
    There are many factors affecting the decline in numbers of 
persons crossing illegally into the United States, at least in 
the Luna County area. We attribute that to the state of our 
economy, the social stress in Mexican society, particularly the 
increased Federal, State, and local enforcement on the U.S. 
side, and possibly cooperation from law enforcement 
counterparts in Mexico in some instances.
    We have greater unity among the levels of government 
agencies outside of law enforcement. That has increased. We get 
notified by the Department of Housing and Urban Development 
(HUD) and the FBI on local residents in HUD housing with 
outstanding warrants, and we act upon those immediately.
    In Luna County's case, one cannot overlook the quality of 
leadership of the Federal law enforcement agencies. I simply 
would have to credit the close support from El Paso Sector 
chiefs, patrol agents in charge, in particular in my area, 
Daniel Serrato, former patrol agent in charge Rick Moody--who 
is now, I think, the assistant in the Tucson Sector--and Chris 
Mangusing, who moved over next door to the Lordsburg Station. 
And it seems every time we form a particular close relationship 
with one of these supervisors, they move them on to somewhere 
else. But that simply increases our ability to network.
    The one thing I want to emphasize here is that we are the 
recipients of the Operation Stonegarden program. Through that 
program we have been able to put officers out in the field, 
work very closely with the Border Patrol and other agencies. We 
have gone ahead and initiated a five-county memorandum of 
understanding (MOU) where we establish a MOU with four other 
sheriffs, sheriffs of neighboring counties of Hidalgo, Grant, 
Otero, Dona Ana, and my county, Luna. We cross-commission 
deputies, so it is a force multiplier. But we have gone ahead 
and done this on our own in response to the increased violence, 
and so that way we can trade resources.
    We did this well ahead of Operation Stonegarden. But 
Operation Stonegarden allows us to give our residents services 
that we could only dream of about 10 years ago.
    We are blessed in Luna County with relatively flat terrain, 
a few mountains. We cannot say the same thing about our 
neighboring county, which is Hidalgo County. They have a 
thousand square miles more than we do. We have approximately 
3,000; they have about 4,200 square miles. We have 54 miles of 
border; they have about at least twice that. We have a 
population of a little over 27,000 with 33 sworn officers; they 
have a population of about 5,000 with 8 officers. They try to 
address the problems coming in through their area.
    What we have done very successfully is moved the activity 
out of our area in conjunction with the Border Patrol and 
pushed it into the Hidalgo County side, which adjoins Cochise 
County. There is no question about it. We address the issue of 
feeling safe along the border. The statistics indicate that 
there is very little of that activity. However, the one thing 
that we do know--and that is one of my agreements with Sheriff 
Dever in Cochise County--the character of the people that are 
coming across now, particularly in the drugs, is much more 
hostile. They are much more willing to defend their product; 
they are much more willing to carry arms and use them. And, 
yes, in our areas we do have lookouts that are stationed on 
mountaintops--not so many in our county because, like I said, 
we shut down that activity pretty much for practical purposes. 
But I know in neighboring counties we do have evidence of 
people that are stationed on the top of mountains guiding 
people across. That is why the Border Patrol uses our deputies 
to patrol the highways so they can get into the mountains and 
counteract that ability.
    So, anyway, the one thing I do want to do is make sure that 
you understand that, particularly with Operation Stonegarden, 
we want to make sure those things continue because it has been 
pretty much of a success story in our county, and you cannot 
walk away from success, because it is a recurring issue.
    Thank you very much.
    Chairman Lieberman. Thanks, Sheriff. I appreciate the 
reference to Operation Stonegarden, which this Committee has 
supported over the years.
    And the final witness, Sheriff Paul Babeu, Sheriff of Pinal 
County in Arizona, which is in the Tucson Sector for the Border 
Patrol, located between the cities of Tucson and Phoenix and, 
therefore, in a major drug- and human-smuggling corridor.
    Sheriff, thanks for coming here, and we look forward to 
your testimony now.

   TESTIMONY OF HON. PAUL BABEU,\1\ SHERIFF OF PINAL COUNTY, 
                            ARIZONA

    Mr. Babeu. Thank you. Mr. Chairman and Senators, I 
appreciate the opportunity, not just as the Sheriff of Pinal 
County--I happen to be Arizona's youngest sheriff. I like to 
remind my fellow sheriffs of that in Arizona. And I have also 
served as the president of the Arizona Sheriffs Association for 
the past 2 years, and I bring a message from Arizona: Mexico is 
not our enemy. President Calderon and the leaders of Mexico are 
not our enemy. The people, the citizens of Mexico, are not our 
enemy. It is the drug cartels of Mexico that have destabilized 
Mexico, nearly toppling their government, that are the enemy of 
Mexico, are the enemy of America. And that violence is not 
coming here. It is here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Babeu appears in the Appendix on 
page 177.
---------------------------------------------------------------------------
    Pinal County is the fastest growing county after the 
decennial census, growing 109 percent in population this past 
decade. We also have another title. We are the No. 1 pass-
through county for drug and human smuggling in all of America. 
And people would say, ``Well, you have got Santa Cruz County, 
you have got Cochise County, you have got Pima County to your 
south.'' And I will use the words of the Border Patrol, saying, 
``Sheriff, all roads from these three counties go to Pinal 
County.'' And so we are the No. 1 pass-through county on their 
way to metro Phoenix, as our Senator, John McCain, pointed out.
    So what is going on? And is the border more secure than 
ever before? And when I share that with my citizens and the 
families of Pinal County and throughout Arizona, I can tell 
you, they laugh, because we know the reality on the ground. The 
Tucson Sector is overwhelmed. And you can add all the resources 
that you would like, in terms of staffing and manpower, but 
they forget key elements. And I have told Customs and Border 
Protection, Border Patrol, Immigration and Customs Enforcement 
(ICE) Director John Morton and Commissioners Alan Bersin and 
David Aguilar, all the leaders, that they are forgetting key 
elements that will bring the solution to a secure border. 
Because as you mentioned, Mr. Chairman, earlier on, what is the 
end state? Where are we going here? And what do we want to get 
to? And you are looking at numbers over the past decade.
    Well, the end state a lot of folks want to talk about is 
immigration reform. Well, I can tell you, myself and the 
majority of people in Arizona, I think throughout America, are 
saying absolutely not, until this border is secured, like it is 
in the Yuma Sector, that discussion does not have legs. And we 
are not talking about back in 1986 when amnesty was provided to 
approximately 2 million people. We are talking 12 or 13 
million-plus individuals. And are we in the business of having 
that conversation now? Absolutely not, because the border is 
not secured.
    If we had the Border Patrol's estimate, 219,300 illegals in 
the Tucson Sector were apprehended alone last year, and they 
say to me in briefings--these are people who work for Secretary 
Napolitano--that reflects 1 out of every 2.6 that come into the 
Tucson Sector. That is--do the math--385,000, approximately 
400,000. I do not know how you figure out if there are 400,000 
people that got away, we do not know where they are from, where 
they are going, and who they are. That is a problem for us in 
law enforcement because close to 17-plus percent have a 
criminal record already established in the United States. Some 
of these people are wonderful, good people who want a better 
life, albeit it illegally. And then you have other than 
Mexicans (OTMs), and you have people from countries of 
interest.
    I can tell you, when I served as the commanding officer of 
Task Force Yuma--I have completed 20 years in the Army National 
Guard, proudly served our country in Iraq. Down in Yuma, I was 
the task force commander commanding 400, 700, at times up to 
over 1,000 active duty soldiers and airmen in Operation Jump 
Start, and this is the basis for what the solution is. And you 
do not have to look anywhere closer than to your right.
    Senator John McCain and Senator Jon Kyl have the solution 
to secure the border so we can get to this point that we all 
want to get to. We know we need to. We as a republic have 
allowed us to get to this point--Democrats, Republicans, all of 
us. This is our government, and the solution is the 10-point 
border security plan that needs to be brought to bear. Three of 
the key elements are 6,000 armed soldiers deployed to the 
border, 3,000 of those in Arizona, 1,000 each to the other 
three border States--3,000 is not because it is Arizona and I 
want more support. It is where nearly half of the illegals are 
coming in. And you have the OTMs and people from countries of 
interest, and this is where it is a national security threat. 
And then while they are deployed for that up-to-2-year period, 
you build the necessary infrastructure.
    I served as a combat engineer. You point out the path of 
least resistance. Back about 15 years ago, as a young 
lieutenant, I brought combat engineers to north of Tijuana, 
south of San Diego. We built 14-foot, corrugated steel, no-
climb fence with steel 6 feet under the ground, and it works, 
because there are proven historical paths where there is built-
up urban centers north and south of the border. What you want 
to do is deny immediate assimilation. The Secretary often 
quotes that ``Show me a 50-foot fence, I will show you a 51-
foot ladder,'' and she thinks she has won the argument.
    Well, the key here is you have to have enforcement, you 
have to have surveillance, you have to have infrared cameras, 
you have to have lighting, and we even built roads that 
traverse east and west north of those barriers so Border Patrol 
can rapidly deploy to intercept, to make that apprehension.
    And that brings us to the third point. You need to have the 
deployment of soldiers and to build the necessary 
infrastructure, and then you go to this novel concept of 
enforcing the law. And when that happened in the Yuma Sector, 
you have seen, as we sit here today, a 96-percent reduction in 
illegal entries. That is what a secure border looks like. The 
rest of America deserves it and is demanding it. And then we 
can get to this reasonable discussion dispassionately.
    I have other information I would like to present in the 
record.\1\ I am running short on time. But that violence that 
we have had, the cartel hits have actually arrived in America.
---------------------------------------------------------------------------
    \1\ The exhibits referenced by Mr. Babeu appear in the Appendix on 
page 180.
---------------------------------------------------------------------------
    Chairman Lieberman. Thanks, Sheriff.
    We will do 7-minute rounds for the Members of the 
Committee. You have all been very helpful in testifying.
    Let me begin with you, Sheriff Babeu. I know you mentioned 
law enforcement. What is the key factor that has made the 
border in the Yuma Sector so much more secure?
    Mr. Babeu. During Operation Jump Start we have seen one of 
the high watermarks. In 2005, there were 134,000 illegals 
apprehended that year. Now you are looking at 7,100, 
thereabouts. And how did we get there? There is not one soldier 
there. So we have to have these components that I shared 
earlier. We had armed soldiers. We deployed four or five at one 
position north of the border; to the right limit, the same 
number; to the left limit; and virtually along the Colorado 
River we formed a human curtain, and in other areas along the 
border.
    Now, I have soldiers, airmen from the Midwest, from back 
East, and they say to me as I troop the line, ``Sir, we have 
not seen anybody in 4 days. Are we really making a 
difference?'' And I chuckled and said, ``That is exactly what 
we want to see.''
    Eventually it grew to a 74-percent sustained effort. And 
then the Border Patrol and their leaders--and there are heroes 
in the Border Patrol--could focus on other criminal elements 
and to reinforce. Then they started to go zone by zone within 
the sector--what is called streamline. No longer is there a 
diversion program. The slang is ``catch and release.'' 
Everybody is prosecuted, and that immediately was found out 
south of the border and said, hey, you cannot go through here 
because you are not detained for a short period of time, less 
than a week. Now it is 14 to 21 days, up to 60 days, to go 
through that process. So that alone is a deterrent. And then 
you are formally deported. So this needs to be brought 
uniformly across the border.
    Chairman Lieberman. So you would say if we took some of 
those practices to, for instance, the Tucson Sector, there 
would be a significant decrease in illegal crossings?
    Mr. Babeu. Absolutely, Senator.
    Chairman Lieberman. Let me ask the panel just to briefly 
get into the question of how, from the point of view of judging 
the results we are getting from the Federal investment, to 
better judge border security and what border control we are 
getting in return. You heard me talk about the number of 
apprehensions being used. Judge Escobar, any other thoughts 
about how we might do that?
    Judge Escobar. Well, I think the way that we are ranked the 
safest city in the United States is through FBI statistics on 
criminal activity happening in my community.
    And as I mentioned at the beginning of my comments, we are 
the safest city of our size in the Nation, and that is going 
back 11 or 12 years. We have been in the top three----
    Chairman Lieberman. Has there been any alteration in those 
crime statistics in the years since violence has so 
dramatically gone up across the border in Mexico?
    Judge Escobar. We achieved the status of being the safest 
city in the Nation last year, and before then we had been No. 2 
or No. 3 consistently.
    And so last year was when we finally peaked at No. 1. I 
would be vehemently opposed to militarizing my border. What 
keeps us safe is a great relationship and community policing 
between our local law enforcement and our neighborhoods. And 
if, for example, law enforcement, as I mentioned before, 
becomes an immigration officer or if you have military 
patrolling the streets, that changes the dynamic and that 
changes the trust and a neighborhood's ability to report crime. 
And we depend on that relationship and that communication to 
keep us safe.
    Now, what has been extremely helpful, Operation 
Stonegarden, any Federal funding that has come through HIDTA 
and SCAAP, it helps offset the burden carried on the shoulders 
of my local property tax base, and it helps us use our 
resources more effectively. But as we have been growing and we 
have not seen the investment continue, that is where I have 
really a tremendous concern because we either have to scale 
back operations or the burden on the local property tax base 
grows more significantly.
    Chairman Lieberman. Am I correct that El Paso is not a 
major smuggling corridor?
    Judge Escobar. It is.
    Chairman Lieberman. It is. So even though it is, your crime 
statistics are as low as they are.
    Judge Escobar. Right. And we have achieved that 
designation, even though we live across what is called by some 
the most dangerous city in the world, Ciudad Juarez.
    Chairman Lieberman. Right.
    Judge Escobar. And, again, we have not done that by 
militarizing our border. We have not done that by having local 
law enforcement enforce Federal immigration laws. We have done 
that by smart community policing, trying to be strategic about 
how we invest our money, but really the Federal funds that come 
to my community are critical, and they are not enough.
    Chairman Lieberman. You know, it is interesting. You have 
two different models. Sheriff Babeu, you talked about in Yuma 
more of a law enforcement model that has worked. And you have 
one which is quite different. It is law enforcement but it is 
more community policing, community involvement.
    Sheriff Loera, any thoughts about how folks within your 
jurisdiction feel about their safety and how we might better 
measure border security and border control?
    Mr. Loera. It is interesting that you put it that way, that 
you have two different models here. Yuma Sector goes into 
Imperial County. Part of that issue is that we have one of the 
largest or most active recreational areas, the Glamis Sand 
Dunes, which can at times bring up from 150,000 to 160,000 
people in one area.
    Prior to the fence being put up, we had several problems. 
One was that when these large groups of people are there, the 
cartels or the smugglers would just jump on their ATVs and mix 
with the crowd, and we had a real difficult time in controlling 
any traffic coming north.
    Before the fence came up, people would drive straight 
across into Imperial County, get on the highway, I-8, which 
runs east and west, and their favorite tactic was to drive 
against traffic because they knew that the law enforcement were 
not going to get involved in that or would call off a pursuit 
so that they would not harm any other people.
    When the fence came up, that almost came to a standstill. 
There are no more pursuits, at least of that magnitude. The 
fence came up and now the crowds do not mingle as much as they 
did. The problem now is that, as Clint Eastwood said, they 
adapt and overcome. We are now seeing an increase in tunnels. 
Tunnels are going through from Mexicali to the city of 
Calexico. We found probably four or five in the last few 
months, and they are getting more and more sophisticated.
    We have gotten the ultralights which are now flying over 
the fence. My understanding is that the Drug Enforcement 
Administration (DEA) task force has 20 or 25 ultralights in 
stores that they have found. No drugs, but the assumption is 
that they were used for drugs, the drugs were successfully 
flown over and picked up, and the ultralight is a minimal loss 
to them.
    In Imperial County, we have a strong community policing 
ethic that we really push. I will tell you on my behalf as a 
sheriff that I do not want to be involved in enforcing 
immigration laws. But I think the community supports us in 
doing the job that we need to do. And it has been built up over 
many years.
    Chairman Lieberman. Right. Thank you. My time is up. 
Sheriff Cobos, do you want to answer that?
    Mr. Cobos. As far as measuring the statistics, obviously 
one of the things that we use is our local statistics. Back in 
2005, we were catching vehicles on the road just by being out 
there on traffic checkpoints and doing saturation patrols 
simply for traffic enforcement. We were picking up vehicle 
after vehicle. Mind you, there were four or five people on the 
shift at a good time, but they would be picking up three, four, 
five vehicles a day. Now I do not think we would get that many 
in 6 months. An obvious change. So our statistics bear out that 
it has been effective.
    What happens, of course, is that we see our neighboring 
county, especially Hidalgo County to the west bordering 
Arizona, so it appears to me that we have pushed that activity. 
So there is no question about it in our mind. And in terms of 
how the people feel for the most part, we initiated a number of 
activities, including our farm and ranch patrol where a deputy 
goes to each ranch along the border and talks to the ranchers, 
and he does that about three, four times a week. Not so much 
that we expect that will do much more than show the flag. Our 
presence along the border at regular intervals indicates to 
them that we are always ready to respond.
    We also have a community patrol which goes along each 
little unincorporated area that knocks on doors and asks the 
people how they feel about things. But, again, the main, 
consistent feeling that we get is that they realize--because 
they see in the news media the terrible tragedy that is 
occurring in Mexico. And let me point out it does not 
necessarily have to be a violent attack on the United States. 
In my county we had a mayor of a small town, the police chief, 
and a member of the governing board of trustees arrested by ATF 
and about five or six other individuals for illegally 
purchasing firearms and then sending a number of them into 
Mexico.
    Chairman Lieberman. So, in other words, it was not 
violence, but they were corrupted by what is going on.
    Mr. Cobos. Exactly so. That is a subtle way of introducing 
violence. So to me that was a very black stain on law 
enforcement. I hate to get emotional about it, but I was 
outraged, and so were a number of other heads of agencies in 
that area. But that is one of the things that--you do not have 
to introduce a platoon of AK-47-carrying people to come across 
the border and do violence. You can do this through the 
almighty dollar.
    Chairman Lieberman. Thanks, Sheriff. Senator McCain.
    Senator McCain. Well, thank you, Mr. Chairman, and I thank 
the witnesses. Thank you, Sheriff Babeu, for your continued 
service to the country. I noted with some interest that both 
Sheriff Loera and Sheriff Cobos are Vietnam veterans. Thank you 
for serving.
    Mr. Loera. I have to clarify. That is the Vietnam-era for 
me. I did not serve----
    Senator McCain. Vietnam and Vietnam-era veterans, thank you 
for serving. And, Judge, congratulations on your outstanding 
record of service.
    Do you recall, Sheriff Babeu, how many bodies we have found 
in the desert around Tucson? I think it is around 200.
    Mr. Babeu. Yes. There was a large article looking at 
illegals, Senator, who are being brought up, and we often ask 
where is the human rights outrage for the lack of care or 
concern for human life.
    Senator McCain. And I believe that number continues to go 
up, the number of bodies we find in the desert of individuals, 
either because the coyotes have abandoned them or for various 
reasons. And, of course, another human rights issue is the 
unspeakable things that are perpetrated on these illegal 
immigrants by the coyotes, especially young women. They are 
horrifying stories.
    Did I hear you correctly, Sheriff, when you said that the 
building of the fence was a very important step forward in your 
ability to control the border?
    Mr. Babeu. I think it was. I will be truthful with you, 
Senator, that when it was first proposed, I had my doubts as to 
how successful it would be, even with the Border Patrol coming 
in and being a proponent of it. I think that it is a piece----
    Senator McCain. I do not mean to interrupt, but isn't it 
that the key here is not just a fence but also the surveillance 
capabilities plus manpower? Isn't that pretty much the 
conclusion that we could draw? I am not putting words in your 
mouth, but----
    Mr. Babeu. No. I think that is correct.
    Senator McCain. And that is sort of what has happened in 
your area of jurisdiction?
    Mr. Babeu. Well, it is right now. Like I said, our issue is 
that we have not seen this level of violence. The corridor 
issues have been historical. We are concerned about the 
violence like in Tijuana and some other areas spilling over, 
which there are indicators that it may be coming, and coming 
faster than we are prepared for.
    Senator McCain. I noticed this, by the way, this morning: 
Mexican forces seeking kidnapped bus passengers stumbled on a 
mass grave holding 59 bodies. This is beyond belief, some of 
the things that are happening.
    Sheriff Cobos, what is your view of the measures that need 
to be taken to secure the border? Do you pretty much agree with 
Sheriff Loera?
    Mr. Cobos. Yes, I am very much in agreement. One of the 
things that I need to point out, in the Port of Palomas, 
adjoining our port of entry, on our side we erected a 12- or 
14-foot barrier fence that extended out to about 1\1/2\ miles 
on either side. You speak about the bodies we found. I remember 
up until about 2 or 3 years ago, we had found 36 bodies by 
various agencies.
    Senator McCain. Where did you find them?
    Mr. Cobos. They were out in the desert. The remains were 
stumbled upon by people, or sometimes--in one case we received 
a call from a Border Patrol agent in the Yuma Sector saying 
that he had received a call from a person indicating that one 
of his relatives that he had, had died in our area. We went to 
milepost 56 or 57 on I-10, which is west of us. We went there 
and, sure enough, within 10 or 15 minutes we found the body. 
And, again, the same scenario, people get sick, they get 
abandoned, and unless you have a very close relative or a very 
close friend with you, they are going to leave you there to die 
or fend for yourself.
    One of the things about that fence is that it stopped women 
and children. We got pretty tired of having to rescue women and 
children. We were looking for a 16-year-old immigrant that was 
supposedly dying. We went out on four-wheelers, and I found 
probably about nine in an area. They had broken off bushes and 
covered themselves with them in about 110 degree heat. They 
laid there all night long. But one of them was a woman with a 
9-year-old daughter, and, again, it is one of these things. You 
saw the desperation in their faces, but we simply had to take 
them out of the area.
    So we are going to be working closely with Border Patrol 
because, if anything else, we do not want them dying in our 
desert. We do not want them dying anywhere.
    Senator McCain. Thank you.
    Sheriff Babeu, you obviously made the case for the three-
legged stool here: Surveillance, fences, and the personnel 
requirements. One of the misnomers that I think is out in 
America is that we cannot control our border. And the fact is 
you mentioned the Yuma Sector is largely secure. The San Diego 
Sector is now secure where people used to just run up in 
traffic to cross the border. Parts of Texas are secure. So it 
is not that we cannot achieve that. And, yes, they will use 
ultralights and, yes, they will dig tunnels. I think it was in 
Douglas, we found 11 tunnels in the last short period of time. 
So they are very inventive and ingenious, and, again, we need 
to have this conversation about demand.
    I congratulate you, Judge Escobar, on having the country's 
safest city, and it is a testimony to your and others' great 
work and other public servants. But I also was interested in a 
couple of your statements. You said, ``We are indeed on the 
front lines, and a safe border means a safe nation. But 
vilifying immigrants, building expensive, ugly walls, and 
encouraging hysteria and xenophobia only hurts our border 
communities . . . our commerce, and the economy of the 
Nation.'' Then you went on to say, ``. . . Federal dollars 
being spent on a rusting monument that makes my community look 
like a junkyard.''
    Let me just tell you that I respect your opinion and maybe 
that is the case in El Paso. The Federal Government has found 
it necessary--and I will be glad to show you a picture of the 
sign--to put up a sign in the southern part of my State reading 
``Danger: Public warning. Travel not recommended. Active drug 
and human smuggling area.'' It goes on to say, ``If you see 
suspicious activity, do not confront. Move away and call 911.''
    I do not think we should ask our citizens who live in any 
part of this Nation to be subjected to an environment where our 
own Federal Government has to put up signs warning our citizens 
that they cannot travel freely in our sovereign territory. So I 
must say I respect your view about ugly fences and junkyard 
things, all that. But it certainly does not apply to my State, 
nor the citizens of my State. And so I respect their views, and 
I do not criticized anybody, and I certainly do not view the 
ranchers who live in the southern part of my State who are 
subject to repeated home invasions as xenophobic. And I hope 
that you were not including the citizens of my State in your 
comments about people who practice xenophobia.
    I would be glad to hear your response to that.
    Judge Escobar. Thank you, Senator. When you create walls 
along the Southern Border, you are simply shifting the flow of 
the undocumented elsewhere, either through tunnels or to more 
extreme terrain, where they are more than likely to die in 
higher numbers. And so if you want to tackle the issue of the 
undocumented--and there are different types of undocumented 
migrants. Clearly we can admit that there are migrants who are 
here for economic purposes to seek out a better life, and they 
are here frankly because there are Americans willing to give 
the undocumented employment. And so there is a pull. It is the 
fundamental law of supply and demand. If there were not the 
demand in the United States, then you would not have this 
supply chain.
    And, again, all you are doing is moving the issue or the 
challenge either into some other community or through tunnels, 
and in my humble opinion--and I am not a Federal decisionmaker, 
but I think if you want to tackle the issue of the 
undocumented, you can do it through comprehensive immigration 
reform. And if you are able to tackle that and utilize your 
resources much more wisely on trying to attack the problem of 
those who are trying to traffic in drugs or trying to create 
harm in communities, then I would rather have my Federal law 
enforcement agents focused on that population than on chasing 
migrants who are here because there is an American company 
offering them a job.
    And the same thing goes with drug trafficking. It is our 
insatiable appetite for illegal drugs that create these 
corridors. And the longer we go not acknowledging that or 
dealing with that, we are not going to get to the root issue, 
is how I feel about this.
    Senator McCain. Well, thank you, Judge, and I appreciate 
your opinion. So basically your assertion is that we cannot 
secure our borders. That is a fundamental assertion that you 
and I have a strong disagreement on because I think the 
security of our citizens is our first and foremost obligation.
    You said the answer is comprehensive immigration reform. I 
must tell you that a major part of that obviously--and I know 
you are a strong advocate for it--is amnesty. I have seen that 
movie before. I saw it in 1986 when we gave amnesty to 2 
million people who were in this country illegally on the 
promise and commitment that we would secure our borders and 
that we would not have a problem anymore with illegal 
immigrants. Now we have 10 or 12 million people who are here 
illegally.
    So to somehow assert that comprehensive immigration reform 
will stop or stem the flow of people coming into this country 
illegally, I think, has not been authenticated by history. So I 
appreciate and congratulate you on having a very safe city. It 
is hard for me to tell the family of Brian Terry, the Border 
Patrol agent that was just murdered, or the rancher who was 
just killed, or one of Sheriff Babeu's deputies who was just 
wounded, that it is OK, we really do not have to take 
additional measures to get our border secured.
    Those 75 to 100 guides, they are not there guiding people 
who would come across the border looking for a job. They are 
guiding the drug cartels that are bringing the cocaine, 
methamphetamine, and marijuana into Arizona and then to Phoenix 
where, according to the HIDTA people, it is distributed 
throughout the Nation with the exception of some parts of 
Texas. So I strongly appreciate and respect your view, but I 
strongly disagree. And I think the lessons of history are on my 
side.
    And, by the way, I would be glad to have Judge Escobar 
respond to that. I think you have the right to.
    Judge Escobar. Is there something in particular you would 
like me to respond to?
    Senator McCain. Would you like to disagree that we gave 
amnesty to 2 million people and the promise that we would have 
our border secured and we would not have the problem anymore? 
Do you disagree with that?
    Judge Escobar. Here is what I disagree with. I disagree 
with your characterization of my testimony as stating that I do 
not believe we can secure our borders. I absolutely believe we 
can secure our borders in a smarter, more effective way. I 
think when you have modern ports of entry--when you look at 
your cell phone and the things you can do with your cell 
phone--my 14-year-old son can hold up his cell phone, and there 
is an application that will tell him what song is playing. That 
is a pretty modern application.
    The ports of entry in my community have remained 
essentially unchanged. There has been very little investment in 
technology in my ports of entry that will help keep us safer. I 
think there are smarter ways to expend our resources. I think 
it is a combination of funding, technology, and policy. But 
when I hear anyone advocate for militarizing the border or 
trying to create a situation that I do not think utilizes our 
resources in the most effective way, I feel obligated to speak 
up.
    Senator McCain. Well, I thank you for that comment, and 
none of us are advocating militarizing the border. What we are 
seeking is the National Guard to supplement the Border Patrol 
and not through military action on their part, but they have 
played a critical role in surveillance, identification, 
assistance in a variety of ways to the overworked and 
overtasked Border Patrol. The head of HIDTA, the head of Border 
Patrol on the border, I asked them, ``How has the National 
Guard helped you here?'' And all of them said they are 
``indispensable.'' And they are not militarized. They are not 
physically arresting any illegal immigrant. There is a Posse 
Comitatus situation here. But the work that they have done, in 
the words of the people who are down on the border, they are 
``indispensable.''
    I have long overused my time, Mr. Chairman, but this is a 
very important conversation. I take some of your 
recommendations very seriously. We need to address the issue of 
demand, and I agree with you on that very seriously. And I also 
understand the attraction of jobs. I also understand that if we 
are going to have immigration reform, employers must be 
punished who hire people who come to this country illegally.
    I think there is a lot of common ground that we are going 
to have to seek, and I am confident that we can. But I cannot 
say to the citizens of Pinal County who have guides sitting on 
the mountains near where they live that we have the border 
secure and we can move forward with comprehensive reform.
    I thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator McCain. That was an 
important exchange. And thank you, Judge.
    Senator Coburn, you are next.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Thank you. Thank you to each of you for 
being here. I have planned a trip to the border, maybe, 
depending on what happens on the Continuing Resolution, and 
that will be, I think, on April 18 and 19, and a couple of you 
I hope to see.
    Sheriff Babeu, are you aware of any pressure that local law 
enforcement has received, or the Border Patrol, in terms of 
reducing the number of arrests for deportation?
    Mr. Babeu. Senator, ironically enough, I just spoke with 
Sheriff Larry Dever within the hour on the cell phone--there 
has been some public controversy over those statements where 
the head of the Border Patrol here in Washington, DC, has come 
out and said absolutely that is false, that is untrue, 
literally calling Sheriff Dever a liar. So I called my 
lieutenant, Matt Thomas, earlier today as well. He is a career 
deputy, came up through the ranks, was a sergeant in charge of 
our narcotics task force, working undercover, and he said, 
``Sheriff, I have heard that myself directly from Border Patrol 
agents in the Tucson Sector.''
    And then I called T.J. Bonner, who has been the national 
president of the Border Patrol Council, within the last 2 
hours. He was the president from 1989 to 2011. He just retired 
a month ago. And he says, ``Absolutely.'' Not firsthand, but he 
has all of his Border Patrol agents, many of them, giving 
firsthand accounts of that fact. I do not have firsthand 
myself, but I can tell you that we need help out in Arizona. In 
anybody's scorecard, if the majority of people are getting 
through undetected, that is a failing grade, period. The people 
in my county do not feel that the border is more secure than 
ever, and we are 70 miles north.
    Senator Coburn. Are there particular ways that any of you 
all would say things we are doing that make it more difficult 
for you to secure--or at least administer your law enforcement 
on your side of the border? Are there things that we, through 
the Federal Government, are doing that make it more difficult?
    Mr. Babeu. Yes. The Federal Government, President Obama, 
and Eric Holder should stop suing the State of Arizona. At a 
time that we need help, we ask for help, we try to pass laws on 
our own--which is not the solution. S. 1070 is not the answer, 
even though I support it for uniform enforcement. We need the 
help that we have been talking about, is real border security. 
And instead we have teams of lawyers sent to fight our State 
and then malign us. And then those of us who are proud to serve 
in law enforcement and as protectors are made out to be the bad 
guys. We stand up for the rule of law. It is not race, color, 
or national origin. Two hundred of my deputies are Hispanic. So 
what are they saying about them in the application of the law?
    Senator Coburn. Sheriff Cobos.
    Mr. Cobos. Our relationship with Border Patrol in my county 
is very close. We have never had any indication--I was even 
unaware of any controversy going on until shortly before I 
arrived in Washington yesterday.
    But the one thing I will say is that in terms of any 
inhibitions on the part of the Federal Government, I think it 
is better to say there are things that the Federal Government 
can do.
    Senator Coburn. Right.
    Mr. Cobos. And one, in particular, is our biggest problem 
of communications along our Southern Border in my county, and I 
know that the Border Patrol and other agencies build 
infrastructure, communications towers and so forth. What I 
would like to see is a good study of that to see if any of that 
infrastructure can be used to incorporate and include----
    Senator Coburn. That is a great idea. Do you know of 
anybody that is working on that?
    Mr. Cobos. There are plans, I believe, to build towers in--
--
    Senator Coburn. But to incorporate you into the 
communication loop.
    Mr. Cobos. Not that I am aware of, no.
    Senator Coburn. That is key. Thank you. Sheriff Loera.
    Mr. Loera. Senator, I do not know if you were here for the 
part where I spoke about the coalition that we have in Imperial 
County.
    Senator Coburn. Yes, I was.
    Mr. Loera. I think we have a very strong working 
relationship not only with the Border Patrol, but with the DEA, 
the FBI, and all of the Federal agencies. That has not always 
been true. Ten years ago you could not get us in the same room.
    I think that things are going well. The Border Patrol has 
been very accommodating with working with us. So I think that 
the relationship is good.
    Operation Stonegarden has been very good for us and 
everybody in Imperial County because of our financial issues 
that we have. It has not only allowed us to support them but 
also support our communities.
    Senator Coburn. But you do not see anything specifically 
that we are doing now that is a negative factor, anything the 
Federal Government is doing that is a negative factor in terms 
of you being able to carry out your job? That is really the 
question.
    Mr. Loera. I do not think so.
    Senator Coburn. Thank you. Sheriff Babeu, why do you think 
the Department of Interior recently replaced warning signs on 
lands on the border with signs claiming to be the information 
signs? Why do you think that happened?
    Mr. Babeu. The signs that Senator McCain pointed out, are 
probably the highest insult that you could pay the citizens of 
Arizona, and all Americans should have been outraged at that--
not only the Federal Government not helping us, but putting up 
these signs. We screamed about it. Our governor went on TV and 
talked about it. All these 15 billboard signs that were put up 
were put up in my county, not even on the border but 70 miles 
north of the border, warning American citizens that in a 
certain part of America travel is not recommended because 
foreign cartels basically, I guess, control these areas. And 
weeks before the November 2, 2010, election, these signs 
miraculously came down, and more politically correct signs 
about high-level law enforcement at the Federal level is taking 
place here. They say, by the way, call 911. Guess who 911 is? 
Me. And they have these others signs that are up, that have 
been up for some time, ``Travel caution. Smuggling and illegal 
immigration may be encountered in this area.'' Well, thanks for 
the public warning for that.
    Senator Coburn. Have the conditions changed to warrant such 
a switch?
    Mr. Babeu. The conditions changed because the American 
people are becoming aware of the inaction, and then the insult 
of suing Arizona on the Supremacy Clause saying that inherently 
it is their job. We are saying do your job. So at least they 
did us a favor and took down those signs.
    Does it warrant it? We just want them to act. How has it 
become my job as the local sheriff to go out there and fight 
foreign cartels? We have arrested these people. We have had 
hits. Here is one such hit, who was working for the cartels, 
and he was shot half a dozen times in Casa Grande, Arizona, and 
his wife and family said because the cartel suspected he was 
working for local law enforcement and he was giving information 
to us, and that is why he was killed.
    In Chandler, Arizona, we have the local Chandler Police 
Department, which I used to be an officer, and the very beat 
that I served, now it comes out months later as the Freedom of 
Information Act requests for these reports show that this is 
connected to the cartels, a man was stabbed a number of times, 
and had his head cut off in Chandler, Arizona.
    So this violence, it is not just coming here. It is here.
    Senator Coburn. I think you have seen a copy of the letter 
that I recently received from the Department of Interior \1\ 
that no Bureau of Land Management lands are closed to visitors 
because of border-related criminal activity or that only 3 
percent of the Buenos Aires Refuge is closed to visitors or 
that only 68 percent of Organ Pipe National Monument is closed 
to visitors.
---------------------------------------------------------------------------
    \1\ The letter referenced by Senator Coburn appears in the Appendix 
on page 215.
---------------------------------------------------------------------------
    Are you aware of other areas effectively closed to 
visitors?
    Mr. Babeu. In Pinal County, Senator, I can tell you--and I 
personally inspected myself and took pictures and showed 
Senator Kyl, and I believe I showed Senator McCain as well--70 
miles north of the border, they are putting steel rail, 
actually used for railroad tracks. They cut it and put on 
Normandy barriers and put 1.3 miles near the Vekol Valley south 
of I-8 to try to divert all of this traffic. Well, guess what 
they do? They just drive around it. And so why are we putting 
barriers this far north? They should be on the border.
    So there are certain parts there. That is where these signs 
are. So the Federal Government has said travel is not 
recommended here. So, in fact, yes, they are.
    Senator Coburn. I would presume in the Tucson Sector you 
are aware of federally owned lands on the border that are used 
by smugglers and drug cartels to smuggle narcotics and illegal 
aliens? You are aware of that?
    Mr. Babeu. It happens. Ask Nancy Henderson about it--it is 
not on the border where it is sparsely populated. In my county 
families have to plan--they leave a family member home while 
somebody is going shopping for food because they do not want 
somebody breaking into their house and stealing their property. 
And this was one of our cases in Arizona City, right off I-10. 
I know Nancy Henderson, who is a young widow, who says, ``I am 
an American, and I do not feel free in my own country.'' And 
her husband was an avid gun collector. She was at work. And she 
came home, and they had busted open her safe with a pick axe 
and pry bar, stole all nine of her weapons, all of her 
ammunition, went in her cabinet, took food items, packages of 
batteries that she had there, and six pairs of heavy-duty 
socks.
    Well, you do not have to be a detective to figure out what 
happened here. They did not take her computers. They did not 
take her TVs or her jewelry. And then there were footprints 
going from her house to Wildcat Peak in the Sawtooth Mountains, 
where there have been three individuals who have been arrested 
who were scouts, lookouts for the cartels who provide safe 
passage.
    There are eight families, three of them had the courage to 
come forward to stand with me to talk about it to the media. It 
is just outrageous. I asked them, ``Why did you wait 3 days to 
come forward?'' One of these families, Pat and Penny Murphy, 
were personal friends of mine for years, and they said, ``We 
were afraid we would be killed.''
    Thirty-five miles outside of America's sixth largest city, 
Phoenix, Arizona, we have American citizens who are in fear of 
drug cartels in Mexico, that they were going to be killed by 
that scout living in a cave in the mountains, less than a mile 
from their backyard, or by the people that came and resupplied 
him with food and water or by the people they work for.
    Senator Coburn. Are you responsible for recovering bodies 
of those that die on Federal lands?
    Mr. Babeu. Yes.
    Senator Coburn. Why are you responsible for it?
    Mr. Babeu. We are the local law enforcement and have 
jurisdiction. Border Patrol, anything happens, they call us. If 
there is a rape or if there is an assault, I have to take a 
deputy out of a beat that is primarily responsible to answer 
911 calls. So you cannot divorce this from local law 
enforcement and the impact upon public safety. And I have other 
pictures here of kidnappings and people who were dumped in 
canals, people who were shot.
    This was one of two individuals who were illegals, 
kidnapped in Phoenix, Arizona, and brought not to other parts 
of Phoenix but to Pinal County, and these two guys, when the 
vehicle stopped, they could not come up with a $3,000 ransom. 
This is what they told us. And they knew they were going to be 
walked out and be executed. They ran for their lives, and this 
guy was the slower of the two and got shot twice in the back.
    In other cases, here is one gentleman who was kidnapped, 
duct-taped, thrown in the canal after he was killed. And that 
is happening here.
    So we care about these people. My deputies are dispatched 
with the same urgency if you called and were in a head-on 
collision. We respond to families who are abandoned. As the 
sheriff said, we had nine individuals, two adult men, five 
women, two children ages 6 and 11, that were abandoned. They 
finally got into an area where they had cell service, and one 
of the men called, in Spanish, and asked for help. We 
triangulated his location, and we went out, our deputies. They 
had not had water for 2 days, could not even move. They were 
drinking their own urine for 2 days.
    The compassion of law enforcement, the compassion even of 
my soldiers and airmen--we never got in any gun fights. As the 
Senator pointed out, through Posse Comitatus, we did not have 
enforcement authorities, we did not go on patrol. We were a 
physical presence and a deterrent.
    Senator Coburn. I want to make one last statement, and 
anybody who wants to respond to it. I notice in your testimony, 
Mr. Babeu, you used the word ``illegals.'' And I notice that 
Judge Escobar, an officer of the court, she uses the word 
``undocumented.'' And I just find it curious that somebody that 
is a smuggler or a drug runner can be labeled as undocumented 
when, in fact, they are a felon. They may not be convicted yet, 
but they certainly have crossed the border illegally.
    And so, I think it is unfortunate that we are going to try 
to--because I use the word ``illegals.'' I wonder if I am 
considered xenophobic because I do not use the word 
``undocumented.'' And I just find it curious that we are trying 
to move this debate in terms of making things worse rather than 
to making things better.
    The fact is if you cross the border illegally, you have 
committed an illegal act. And if you are a drug runner and have 
done that, I think it is highly unusual that we would call them 
``undocumented.''
    Mr. Babeu. Right.
    Senator Coburn. I think they are illegal. And so I do not 
say that because I do not care for Hispanic people. I say it 
because it is a fact.
    Judge Escobar. Senator, if I could respond?
    Chairman Lieberman. Go ahead.
    Judge Escobar. Clearly, this is a question that refers to 
my testimony.
    Senator Coburn. I said that.
    Judge Escobar. Right, and so that is why I think I should 
be the one to respond. I appreciate that.
    I think what is important here is to understand the 
difference between economic migrants, people who, as the 
sheriff himself pointed out, are here because they want to 
improve their lives, they want to put food on the table for 
their children, and there absolutely is a difference between 
them and drug smugglers and coyotes, people who take advantage 
of the poor and the most vulnerable in the most difficult 
conditions. I never called you or anyone on the dais 
xenophobic----
    Senator Coburn. I did not imply that.
    Judge Escobar. Well, that was the implication.
    Senator Coburn. No. Let me take over here. I said is it 
because I do not use that word, does it imply that I am 
xenophobic. I did not say anybody said that.
    Judge Escobar. So if you meant it rhetorically----
    Senator Coburn. But you have to admit, in the debate out 
there that is going on, the emotional debate that is going on 
in our country today, is if you do not use the proper words, 
then you are automatically categorized. And we are never going 
to solve this problem when we do it that way. The problem is we 
have people breaking the law.
    Chairman Lieberman. Senator, I will let you respond, and 
then we are going to have to move on.
    Judge Escobar. Thank you. I think what is important is 
keeping the debate rational, and I think my perspective is 
completely rational, and it comes from a point--I live on the 
border. I live, as I mentioned, in the largest bi-national 
community in the world. And so I do think I have credibility 
when it comes to telling the story of what happens on the 
border, just as everyone on this panel has credibility before 
you. And simply because I have a difference of opinion in the 
nomenclature of how I choose to refer to migrants--and, again, 
I believe there are criminals that are coming across this 
border, that are intending to harm people, intending to provide 
illegal drugs to Americans who want them and ask for them and 
pay for them. But I see a difference between the two 
populations. And I identify----
    Senator Coburn. But you do not see it as an illegal act to 
come across our border if you are undocumented?
    Judge Escobar. It is an illegal act. But you choose a 
different nomenclature than I do, and I am not critical of your 
nomenclature, and so if you are critical of mine, you have to 
evaluate what motivates that. I do not know.
    All I can tell you is it is important in this country to 
have rational discussion, not based on what you want to believe 
but based on the facts. And so I bring to you a certain set of 
facts. If you do not like those facts, I cannot control that. 
All I can do is bring before you what has made my community 
safe. It is interesting that you ask the question what can the 
Federal Government do better, and you asked it of everyone 
except me. And I am going to tell you what you can do better
    We need stronger investment--we are trying to line up all 
of our radio communications among all law enforcement, Federal, 
State, and local, in El Paso. We would love more Federal 
support in doing that. We think that will make us safer, 
smarter, and more effective in terms of all law enforcement 
levels. We would like more technological advancement in our 
ports of entry. We would love for you to supplement HIDTA and 
SCAAP funds, which are not funding the complete burden of what 
we are trying to do with you because we do want to be a partner 
with you.
    Regardless of ideological beliefs about nomenclature, we 
are one and the same and wanting to ensure we are all safe.
    Chairman Lieberman. Good note to end on.
    Judge Escobar. Thank you.
    Chairman Lieberman. I actually think there were some 
meetings of the mind along the way there.
    Judge Escobar. I hope so.
    Chairman Lieberman. I have to go to a meeting on the budget 
impasse now, and I want to solve it because I want Senator 
Coburn to be able to come and visit you on the border. I am 
prepared to yield the gavel to Senator McCain, if you have any 
more questions.
    Senator McCain. I have no more questions. I want to thank 
the witnesses. It has been very helpful.
    Chairman Lieberman. It really has been. I think you used 
the words ``rational'' and ``respectful.'' It has been a 
rational and mutually respectful discussion, and you did 
exactly what the Committee hoped you would do, which is you 
brought us firsthand experience, real live experience, 
different reactions but right from the border. So you have 
helped our inquiry very much.
    We are going to leave the record of the hearing open for 2 
weeks for any additional questions or statements to be added.
    In the meantime I thank each one of you not only for coming 
here, which took some effort, and contributing to our oversight 
but also for the work you do, the tough work, really critical 
work every day. So stay safe and God bless you.
    And with that, we will adjourn the hearing.
    [Whereupon, at 3:05 p.m, the Committee was adjourned.]


           SECURING THE BORDER: PROGRESS AT THE FEDERAL LEVEL

                              ----------                              


                         WEDNESDAY, MAY 4, 2011

                                     U.S. Senate,  
                       Committee on Homeland Security and  
                                      Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Carper, Pryor, Landrieu, 
Tester, Collins, McCain, and Johnson.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. We 
welcome everyone. The topic for the hearing today is ``Securing 
the Border: Progress at the Federal Level.'' This is the third 
in a series of hearings we have been doing on border security, 
focusing particularly, of necessity, on our Southern Border. 
But just as history changed on September 11, 2001, in another 
way, much more positively, history had a turning point on 
Sunday with the killing of Osama bin Laden. And I would be 
remiss not to say a word of thanks to you, Madam Secretary, 
Janet Napolitano, and to all the people who work with you in 
the Department of Homeland Security (DHS), and by extension to 
all the people in the security sector of our government--
military and intelligence--who performed so brilliantly and 
bravely and worked together to bring about the extraordinary 
result that was achieved on Sunday in Pakistan.
    The teamwork that was so pervasive in the successful 
assault on that compound in Pakistan is precisely what this 
Committee hoped for when we worked so hard first to establish 
the Department of Homeland Security in 2002 after September 11, 
2001, then introducing and bringing forth the legislation that 
created the 9/11 Commission Act, and then considering in two 
phases and advance through the Committee, and ultimately to 
enactment, the Recommendations of the 9/11 Commission Act, 
reforming the intelligence community. I think all of us are 
very grateful and very proud of the work that was done. And 
since this is the first opportunity I have had to see you in 
public, I wanted to thank you and ask you to thank all those 
who have worked with you. And I hope you will say a few words 
about that in your opening statement.
    Also, as good as we feel about what happened on Sunday in 
Pakistan and as much as we know that it makes us safer, and the 
world safer, we also know the war against Islamist terrorism is 
not over. The enemy is still out there and will continue to try 
to attack us here at home, and to the extent that you are able 
in your testimony, I think, either in the opening statement or 
in questions, I would like to ask you a bit about the post-bin 
Laden sense of homeland security.
    Let me come back to the topic of the day. Briefly, the 
security of our borders in all its manifestations is very 
important. The truth is that one of the great achievements 
since September 11, 2001, is the extent to which we have 
secured our borders against those who would come in to do us 
harm. The focus of these hearings, of course, has been on a 
different kind of border security, which is border security 
related to illegal immigration, but also concerns about the 
drug cartel violence in Mexico and the extent to which it may 
come over our border into the United States. And, in this 
regard, too, I want to thank you for all you have done. I think 
you have faced really significant challenges, both in terms of 
all kinds of border security and, of course, natural disasters. 
And you have handled your job with real strength and 
effectiveness and common sense, and I appreciate it.
    Witnesses at the two previous hearings on the topic of 
border security, particularly the Southern Border, largely 
agreed that the situation along that border has improved 
significantly over the past decade. The best statistics 
available bear this out. The one that seems to be most commonly 
used is that apprehensions of illegal aliens along the border 
are down 73 percent since 2000, which is the lowest level in 
three decades.
    This is, of course, good news. We have spent a fair amount 
of time in the previous hearings on the metrics, on the 
statistics, and we know that they are just a piece of the 
picture and can be misleading. At different times, for example, 
the Border Patrol has cited increases in apprehensions as proof 
of progress, and sometimes decreases in apprehensions, on the 
theory that the fewer people trying to get over into the United 
States, the fewer the apprehensions. So we believe we have to 
try our best to figure out how many people actually are 
attempting to come over the border and compare that to the 
number of those who succeed. I understand the Border Patrol has 
been trying to collect this information through footprints, 
video footage, and sensors, but that its methods are not 100 
percent up to the challenge. And it is a difficult challenge 
because we are trying to measure the number of people whom we 
have not apprehended. I hope that you will be able to find ways 
to improve the collection of this information and consider 
making it public so we can more accurately assess the extent of 
the problem and our progress on it.
    The second point that has come out of these hearings that 
has struck me is that the focus on the Southern Border has 
often overshadowed other vulnerabilities that continue 
elsewhere in our immigration enforcement system. One statistic 
which reveals such a vulnerability that I would guess would be 
and is very surprising to most Americans is that about 40 
percent of the illegal immigrants in our country--undocumented 
aliens, people living and working in the United States today 
illegally--came into this country legally and then overstayed 
the terms of their visas. So in terms of the problem of illegal 
immigration, about 40 percent of the problem is not people who 
come over the border and into our country illegally but people 
who have come in legally and over stayed. And this both 
undercuts the kind of legitimacy of the law that we have about 
temporary visas, for instance, but it also threatens our 
security.
    The most pressing, the most sort of illustrative number to 
me still is the 9/11 Commission, which reminded us that five of 
the terrorists who attacked us on September 11, 2001, entered 
the United States legally and then intentionally overstayed 
their visas. Just recently, a couple of years ago, in 2009, 
Hosam Maher Husein Smadi, arrested in Dallas on suspicion of 
planning terrorist attacks, was in the United States originally 
on a student visa, a legal visa, and then overstayed.
    A new GAO report,\1\ which just came out, concludes that of 
the roughly 400 people who have been convicted of any 
terrorism-related crimes since September 11th, 36 had 
overstayed their visas. In other words, almost 10 percent of 
the people who have been convicted of terrorism-related 
activities in the decade since September 11, 2011, were legal 
immigrants who overstayed their visas and became illegal.
---------------------------------------------------------------------------
    \1\ The GAO report referenced by Chairman Lieberman appears in the 
Appendix on page 263.
---------------------------------------------------------------------------
    Despite a lot of congressional effort and DHS effort, we 
still lack an exit system that will effectively identify people 
who have overstayed their visas in real time. The reality, it 
seems to me, is that the U.S. Visistor and Immigrant Status 
Indicator Technology (US-VISIT)--the DHS program that is 
supposed to identify visa overstays based on visitor entry and 
exit information--remains a troubled and ineffective program.
    Officials of your Department have told the Committee that 
US-VISIT processes less than half of all potential overstays 
identified by automated matching of entry and exit records, and 
GAO, in this just-released report, found that the program has 
an overall backlog of 1.6 million potential overstay records 
that have not yet been processed. I am sure part of this is 
that we have not given you the support to do that, but it is a 
real problem.
    Identifying individuals who overstay is a crucial component 
of securing our borders and making our immigration system 
credible and real to the law. And to me it is just unacceptable 
that we are still unable to systematically identify people who 
overstay. So I hope you will be able to talk about that and 
what the Department is doing about it in your testimony.
    As we began this series of hearings on border security, I 
at least had the goal of both dealing with the current state of 
border security, how are we doing at keeping our borders 
secure, particularly with regard to illegal immigration. But 
here was my hope: That if we reached the level of finding out 
what is not working in border security and could fix it, that 
we would not only have achieved that good result, but it would 
be a preface to going back and considering reform of our 
immigration laws, which just about everybody here in Congress 
agrees need to be fixed but have different ideas about how to 
fix them. So the presumption was border security could lead not 
only to better border security, but to building a political 
consensus to deal with the continuing problem of illegal 
immigration.
    It seems to me now, as I listen to the testimony, that the 
inverse is also true, that there are forms of what I would call 
``smart immigration reform'' that also can enhance border 
security, or to put it more explicitly, there are kinds of 
smart immigration reform that can significantly reduce the flow 
of illegal immigrants into America. And to the extent that we 
have time--and I hope we will--I welcome your thoughts on that 
connection. Thanks very much for being here. I look forward to 
your testimony.
    At this time I am pleased to call on our Ranking Member, 
Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. Let me join you 
in welcoming the Secretary of DHS back before our Committee 
today. With the welcome news that Osama bin Laden has been 
killed, I want to join the Chairman in thanking everyone 
involved, particularly those brave Navy SEALs who so flawlessly 
executed the mission, and the many other members of our 
military, intelligence, and homeland security forces whom we 
may never know. This was, as the Chairman has pointed out, 
exactly the kind of collaboration of our intelligence and 
operational capabilities that we envisioned when we reformed 
our intelligence community in the wake of the attacks on our 
country on September 11, 2001.
    This successful operation demonstrates once again the 
importance of sharing intelligence information across the 
agency silos--the very opposite of the disjointed pre-September 
11, 2001, experience.
    I appreciate, Madam Secretary, that the Department 
immediately issued a Situational Awareness Alert to key State 
and local homeland security and law enforcement officials at 
midnight on Sunday sharing intelligence information and 
including a call for heightened vigilance. That system did not 
even exist prior to the attacks on our country.
    Today's hearing, as the Chairman has pointed out, is a 
continuation of this Committee's focus on the challenges facing 
us regarding border security. Border security is critical not 
only to prevent individuals from entering the United States 
illegally for whatever reason, but also to stop--at the border, 
at visa-issuing points, or on inbound flights--those who are 
determined to harm us. And, despite the killing of Osama bin 
Laden, we must never forget that the battle against Islamist 
extremism will continue.
    The first two hearings in this most recent series 
emphasized the challenges along the Southwest Border, while 
earlier the Committee held a hearing on the Northern Border. 
When we consider the Southwest region, we should all pause to 
honor and remember the sacrifice of Border Patrol Agent Brian 
Terry, who was murdered last December, and Immigration and 
Customs Enforcement (ICE) Agent Jaime Zapata, who was killed by 
members of a drug cartel in February.
    These fallen heroes and the horrific news reports 
continuing to stream out of Mexico reveal the brutality of the 
cartels. Recently, nearly 300 bodies were discovered in mass 
graves--some just 90 miles from Brownsville, Texas.
    Just last month, Federal Bureau of Investigation (FBI) 
Director Robert Mueller observed that ``drug cartels transport 
kilos of cocaine and marijuana, gangs kidnap and murder 
innocent civilians; traffickers smuggle human cargo; and 
corrupt public officials line their pockets by looking the 
other way.'' Director Mueller concluded that, taken together, 
these issues ``constitute a threat not only to the safety of 
our border communities, but to the security of the entire 
country.''
    This backdrop explains why many of us were perplexed to 
hear the Secretary state, in late March, that security on the 
Southern U.S. Border is ``better now than it ever has been'' 
and that violence from neighboring Mexico has not edged north.
    The National Border Patrol Council, the union representing 
Border Patrol agents, has countered that crime indeed is 
spilling over from Mexico. They point to the murder of three 
Border Patrol agents by the cartels in the last 3 years, the 
ranchers and other citizens who have been gunned down in border 
communities, and the Phoenix area which has risen to become a 
cartel-related crime hot spot. The council concluded, ``The 
U.S.-Mexico Border is unsafe and to say anything else is not 
true.''
    While the Secretary's data on apprehensions on the border 
are certainly useful, there are contributing factors that 
should not be ignored as we scrutinize the numbers about 
declining interdictions.
    For instance, are some of the declining numbers simply 
reflecting a slow economy so fewer people are trying to cross 
over into this country? Is the persistent cartel violence 
deterring others from crossing? To put it bluntly, individuals 
will not be arrested at the border, or north of it, if they are 
too frightened to run a gauntlet of terror that may end in a 
mass grave.
    These and other factors should be considered as we evaluate 
the effectiveness of the Administration's policies in 
addressing what is a very difficult issue.
    While the Southwest Border is much more likely to make the 
evening news, we must not forget the Northern Border, and the 
Chairman has pointed that out. Senator Tester has also made 
that point on numerous occasions. According to a report 
released by the GAO earlier this year, the Border Patrol was 
aware of all illegal border crossings on only about 25 percent 
of the 4,000-mile Northern Border. The Border Patrol was able 
to make an immediate arrest on less than 2 percent, or 69 
miles, of that 4,000-mile border. This is especially troubling 
because GAO has observed that the terrorist threat on the 
Northern Border is higher than the Southern Border, given the 
large expanse of area with limited law enforcement coverage. 
That is why I believe that the Administration's proposal to 
limit Operation Stonegarden to the Southwest Border is ill-
advised, and I am glad that it has been repeatedly rejected by 
Congress. This program should be used to help secure both the 
northern and the Southern Border. It helps fund joint 
operations between the Border Patrol, State, and local law 
enforcement that act as a force multiplier in areas that 
otherwise would be left unguarded.
    To cite just one example of the program's success from my 
own State, Operation Stonegarden funds were instrumental in the 
arrest and conviction of an individual involved in a bulk cash 
smuggling operation. During an Operation Stonegarden mission, a 
Fort Kent, Maine, police officer caught this criminal 
attempting to smuggle $137,000 across the border. He was 
patrolling well outside his regular community of Fort Kent, and 
this individual simply would not have been caught but for 
Operation Stonegarden funding.
    Finally, the effort to secure our borders is not limited to 
the borders themselves, and the Chairman has mentioned a GAO 
report that is of tremendous concern to me. The report 
indicates that ICE is only allocating about 3 percent of its 
resources to target individuals who are here illegally because 
they have overstayed their visas. They came legally in the 
first place, but now they are here illegally. And it is an 
enormous number. It is more than a third. It is between 33 and 
40 percent of the number of people here illegally fall into 
that category.
    Another report by GAO examined the Visa Security Program 
(VSP), which deploys ICE special agents to foreign visa-issuing 
posts to help identify terrorist and criminal threats. 
According to the GAO, the United States only has VSP offices at 
19 of the 57 high-risk posts. The GAO further found ongoing 
turf battles between ICE and the State Department, which are 
simply unacceptable when it comes to dealing with the terrorist 
threats.
    So I look forward to discussing these issues with the 
Secretary today, and I thank her for appearing.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Secretary Napolitano, thank you once again for being here, 
and we welcome your testimony now.

   TESTIMONY OF HON. JANET A. NAPOLITANO,\1\ SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Napolitano. Well, thank you, Chairman Lieberman, 
Senator Collins, and Members of the Committee, for the 
opportunity to testify today. I have a more complete statement 
that I ask be included in the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Napolitano appears in the 
Appendix on page 246.
---------------------------------------------------------------------------
    Chairman Lieberman. Without objection.
    Secretary Napolitano. I would like to begin, however, with 
discussing a topic that is on everyone's mind before moving on 
the principal topic of the hearing.
    The operation against Osama bin Laden was an extraordinary 
success, not only for the United States but for the entire 
world. And I want to join you in commending the men and women 
of the intelligence community, the armed forces, and our 
counterterrorism professionals who played such an important 
role in bringing Osama bin Laden to justice.
    But this does not end our counterterrorism efforts. We must 
remain vigilant regrading the threat to the United States posed 
by al-Qaeda affiliates or al-Qaeda-like affiliates such as al-
Qaeda in the Arabian Peninsula (AQAP), al-Qaeda in the Islamic 
Mahgreb (AQIM), and al-Shabaab, as well as the threat posed by 
homegrown violent extremists.
    Our security posture, which always includes a number of 
measures both seen and unseen, will continue to protect the 
American people from the evolving threats that we face. We have 
taken a number of actions specifically in response to Sunday's 
events. These include issuing advisories to fusion center 
directors, homeland security advisers, major city chief 
intelligence commanders, private sector critical infrastructure 
owners and operators, and other law enforcement entities. We 
are and have been reviewing all open cases of potential al-
Qaeda core, AQAP, and AQIM operatives possibly in the United 
States in conjunction with the FBI. We are identifying any new 
targeting rules that should be instituted based on incoming 
intelligence. We are continuing to strengthen our recurrent 
vetting for visa asylum and other benefit applicants and 
recipients in cooperation with the intelligence community. We 
are deploying additional officers to non-secured areas at our 
large airports, the so-called Category X airports. And we are 
providing additional information to all air carriers.
    Now, as you know, we have recently substituted for the old 
color code, which was commonly viewed as obsolete, a new 
system, known as the National Terrorism Advisory System, to 
more effectively communicate information about terrorist 
threats. Right now we do not have any specific or credible 
intelligence that would lead us to issue an alert under this 
new system, realizing that under the new system the baseline is 
already elevated. In other words, the baseline assumes a 
continuing and evolving terrorist threat against the United 
States.
    We continue to review on an ongoing basis all material 
seized during the operation as well as new intelligence that 
may be coming in, and I stand ready to issue an alert should 
intelligence or information emerge that warrants it under the 
new advisory system.
    Now, to move on to the main topic of today's hearing, I am 
glad to have the opportunity to speak about the Southwest 
Border, and I gather I will now be speaking also about the 
Northern Border, because unprecedented resources have been 
dedicated over the past 2\1/2\ years, and that has resulted in 
significant progress being made. And I also want to discuss the 
metrics that can be used to gauge that success.
    Now, as I just said, the Administration has dedicated a 
historic level of resources to securing the Southwest Border in 
terms of manpower, in terms of technology, and in terms of 
infrastructure. We have increased the size of the Border Patrol 
to more than 20,700 agents, more than twice the size it was in 
2004. ICE now has a quarter of all of its personnel in the 
Southwest Border region, more than ever.
    We have completed all but three miles of the fencing called 
for by Congress, and we have deployed thousands of technology 
assets along the border. And for the first time, DHS unmanned 
aircraft aerial capabilities cover the Southwest Border from 
California to Texas, providing critical aerial surveillance 
assistance to personnel on the ground.
    Furthermore, the actions being taken at the Southwest 
Border are being supplemented by critical security improvements 
at the Northern Border, including additional Border Patrol 
agents, technology, and infrastructure, as well as strong, 
serious, and strategic enforcement of immigration laws in the 
interior of the United States.
    Now, as someone who has lived most of her life in border 
States and who has worked as a public official dealing with 
border-related issues since 1993, I can say from personal 
experience that the steps that have been taken constitute the 
most comprehensive and dedicated effort to strengthen border 
security that our country has ever deployed. Over the past 2 
years, seizures of contraband have risen in all categories: 
Drugs, illegal weapons, and illegal bulk cash. Illegal 
immigration attempts, as measured by apprehensions of illegal 
aliens, have decreased by 36 percent in the last 2 years and 
are less than one-third of what they were at their peak.
    In addition, FBI crime statistics demonstrate that the 
crime rates in border communities have remained steady or have 
dropped dramatically in recent years, continuing a decade-long 
trend.
    In this sense, I am not the only one, Senator Collins, who 
has stated that the border is safer now than it has ever been. 
The border city mayors themselves have stated that and are 
concerned that the misperception that the border communities on 
this side of the border are unsafe is interfering with their 
ability to attract jobs and economic development to their own 
regions.
    I am also, I must say, perplexed that the union which 
represents some of our Border Patrol agents does not support 
the success that the Border Patrol has achieved over the past 
2\1/2\ years, and I can only say that I am perplexed. I will 
not go into that any further.
    Now, the significant improvements would not have been 
possible without the bipartisan support of this Congress, 
particularly the $600 million supplemental appropriations for 
border security passed last summer, and I thank you for your 
continued support in that regard.
    Nonetheless, we still face challenges. This is not a 
victory lap. We must continue to build upon the progress we 
have made. We remain deeply concerned about the drug cartel 
violence taking place in Mexico. We know that these drug 
organizations are seeking to undermine the rule of law, 
especially in northern Mexico, and we must guard against any 
spillover effects into the United States. And while our efforts 
over the past 2 years have led to progress in every significant 
metric we currently have, we must focus on new ways to 
comprehensively measure results along the border.
    Ultimately, the success of our efforts must be measured in 
terms of overall security and quality of life along the entire 
border region. Accordingly, I have directed the U.S. Customs 
and Border Protection (CBP) to develop a new index supported 
both by CBP, other law enforcement, and third-party data to 
comprehensively measure security along the Southwest Border and 
the quality of life in the region.
    As part of this process, CBP is convening a group of 
independent third-party representatives to evaluate and refine 
any such index. In developing these border metrics, it is 
important to keep in mind our ultimate goal, which is to make 
border cities more secure and to provide a basis there for 
economic prosperity.
    That is why a new border security index will not only take 
into account traditional measures, such as apprehensions and 
contraband seizures, State and local crime statistics, and 
overall crime index reporting, but we will also incorporate 
indicators of the impact of illegal cross-border activity on 
the quality of life in the border region. These can include 
factors such as traffic accidents involving illegal aliens or 
narcotics smugglers, rates of vehicle theft and numbers of 
abandoned vehicles, impacts on property values, and other 
measures of economic activity that can be impacted by illegal 
immigration.
    Because defining success at the border is critical to how 
we move forward, our definition of success must meet several 
guidelines. It must be based on reliable, validated numbers and 
processes, it must tell the complete and transparent 
statistical story, and it must draw upon the priorities of 
border communities themselves.
    The approach currently underway is designed to meet all of 
these criteria, and I look forward to working with this 
Committee on this important issue.
    There are a number of other things I can say, particularly 
in response to some of the GAO numbers that were cited. I think 
I will reserve that time for the question-and-answer portion of 
the hearing. Suffice it to say, however, that many of those GAO 
statistics are neither comprehensive nor totally complete with 
respect to the efforts that have been undertaken. I look 
forward to being able to address that a little bit during the 
question and answer period.
    But with that, Chairman Lieberman, Senator Collins, and 
Members of the Committee, thank you again for the opportunity 
to testify. Thank you again for the opportunity to present the 
case for border security in the United States.
    Chairman Lieberman. Thank you, Madam Secretary. We will do 
7-minute rounds of questioning.
    I appreciate the comments you made about the state of 
readiness of the Department post-bin Laden's death. I want to 
ask a few questions to, I think, hopefully illustrate the 
seamlessness of our counterterrorism effort now.
    We know that the Navy SEALs took out of that bin Laden 
compound in Pakistan an enormous amount of data, computer 
systems, and the rest. I assume that as this material is gone 
over, anything related to homeland security will be shared 
immediately with your Department.
    Secretary Napolitano. It is being shared.
    Chairman Lieberman. Great. Second, I want to sort of 
highlight what I believe I heard you say, which is that 
although you have not raised the National Threat Advisory 
System alert--and you are right, it is very important to point 
out that in one sense the change that you put into effect just 
last week, the new system, has us always at a state of alert.
    Secretary Napolitano. That is correct.
    Chairman Lieberman. We are always at a state of alert. The 
judgment you make in changing that would be to raise it to an 
elevated state of alert and then one that is imminent, where 
there is imminent danger?
    Secretary Napolitano. We have a Counterterrorism Advisory 
Board that is comprised of all of the members of the 
intelligence community that are constantly reviewing the 
intelligence coming in as it relates to the homeland. And then 
they analyze it for whether a threat is either elevated from 
the norm or it is so specific and credible that it actually 
reveals an imminent threat.
    At that point, an advisory would be issued. It has three 
parts, tells people as many facts as we can. It tells them what 
they can do to protect themselves or their families from the 
threat. It tells them what they can do to help us with regard 
to the threat. For example, we may be looking for certain types 
of vehicles, certain types of other things. And it tells them 
where they can go to get consistently and continually updated 
information.
    So, rather than the colors, which did not communicate any 
information, the new system is designed to communicate 
information.
    Chairman Lieberman. And just to clarify, the fact that you 
do not have specific and credible evidence and, therefore, have 
not raised the alert level to elevated does not mean that the 
Department has not taken additional steps in the days since 
Osama bin Laden was killed. And in your testimony today, you 
indicated that there was increased security at ports of entry, 
including airports. And I do not know that you mentioned 
seaports, but I assume that is included. Is that correct?
    Secretary Napolitano. That is correct. We have surged some 
resources there. In airports in particular, we have also taken 
additional efforts at our borders, and as I mentioned, Mr. 
Chairman, we are also going back and reviewing all of the pre-
existing intelligence with respect to open files against the 
United States.
    Chairman Lieberman. Right. I appreciate that. It is very 
reassuring to know that some of the materials that were seized 
at bin Laden's compound are already being shared with the 
Department because it is certainly my impression that bin 
Laden, himself, continued to be focused on attacks on the 
United States of America, on our homeland. And it may be that 
the information that was gathered by the SEALs from his 
compound will help us hopefully prevent such attacks.
    Let me focus in now on the direct question that we 
originally were going to handle, which was border security. We 
are operating in a political context here, and I mean that in 
terms of the body politic, not partisan politics. We are 
dealing with how we can form a consensus to both improve the 
security at our borders, but as we said, there has been an 
equation that many people have articulated that yes, our 
immigration system is broken, but we are never going to have 
enough support for immigration reform until we can say our 
border is secured. So I want to deal with that part of it 
first.
    The Secure Fence Act of 2006 required that the Department 
of Homeland Security achieve operational control of the border, 
which that 2006 law defined as ``the prevention of all unlawful 
entries into the United States, including entries by 
terrorists, other unlawful aliens, instruments of terrorism, 
narcotics, and other contraband.''
    Madam Secretary, at a recent colloquium, former DHS 
Secretaries Michael Chertoff and Thomas Ridge and you all 
agreed that total operational control over our border is 
effectively an unreachable goal, that we are never going to be 
able to fully seal off the border from all illegal activity.
    If that is correct--and I suspect it is correct--I think we 
have to ask ourselves, and I am going to ask you now: What is 
an achievable goal in terms of securing our border? And I ask 
that both because we have a responsibility to secure our 
border, but also be hopeful that it will help us determine what 
the level of border security is we can agree that we need to 
achieve before we can then go on to deal with the problem of 
immigration reform.
    Secretary Napolitano. Well, Mr. Chairman, I think two 
things. One is that is why we have gone back and said, look, 
``operational control'' is an archaic term. I think that was 
testified to by some of the other witnesses you have had in 
this area. It is a limited term of art. It makes for a sound 
bite, but it does not actually reflect the reality of what is 
happening at the border.
    But the fact of the matter is that we need a more 
quantitative and qualitative way to reflect what actually is 
occurring at the border. That is what I have directed CBP to 
prepare. But also, Mr. Chairman, there is a linkage between 
immigration reform and the border. They are interrelated, so 
the notion of this kind of sequencing does not reflect the 
reality that with immigration reform on some of the underlying 
laws involving visas, temporary workers, those sorts of things, 
if you deal with the legal immigration system, that also has an 
impact on what is in the illegal immigration system.
    And so this is a Gordian knot that we must untie, looking 
at all of these things together.
    Chairman Lieberman. So I take it that what you are saying 
as an example is that we may be able to reduce the flow of 
illegal immigrants by altering immigration law, for instance, 
to provide for temporary work visas, or perhaps to raise the 
existing cap on visas allowed for people coming into the 
country.
    Secretary Napolitano. Indeed, and a category example would 
be, for example, agricultural work visas.
    Chairman Lieberman. Right. Exactly.
    Secretary Napolitano. But there are many others as well.
    Chairman Lieberman. Let me just as a final word--my time is 
up--thank you for the announcement you have made this morning, 
I think, significant, which is that you have directed Customs 
and Border Protection to come up with a new index, a new metric 
for measuring border security, and in doing so they are going 
to bring in outside experts to consult with them. I think that 
will really help to inform the debate and allow us to set some 
goals that are achievable, that we can meet, and also hopefully 
create a foundation for moving on to the related question of 
immigration reform.
    Secretary Napolitano. Thank you, Mr. Chairman, and we are 
moving as expeditiously as possible on this. It is a bit of an 
onion to peel when you actually look at it.
    Chairman Lieberman. It is.
    Secretary Napolitano. One of the things we want to know, 
for example, is how many people have been deterred or prevented 
from crossing illegally by the measures we are taking. And it 
is very difficult in all areas, but especially here, to measure 
a deterrence number, to get the denominator in that way. And so 
we have to have other factors we look at from which we can 
reasonably say and reasonably extrapolate that we now have a 
safe and secure border region that also facilitates the flow of 
legal commerce, trade and tourism, and the like.
    Chairman Lieberman. Right. Thank you very much. Senator 
Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Madam Secretary, let me first just start on the border 
security issue because you made a comment that you were 
expecting to talk about the Southwest Border but would talk 
about the Northern Border. Just to clarify, our title of this 
hearing of ``Securing the Border'' and our witness letter made 
very clear we were talking about all the borders.
    Secretary Napolitano. And I am ready to do that.
    Senator Collins. So I just do not want those watching this 
hearing to have a misleading impression.
    Secretary Napolitano. Indeed.
    Senator Collins. Let me just start with a December GAO 
report that looked at a number of border security issues, and I 
know you are familiar with it. It was in this report that GAO 
quotes DHS as reporting that the terrorist threat on the 
Northern Border is higher given the broad, expansive area with 
limited law enforcement presence. The GAO also went on to say 
that DHS reports networks of illicit criminal activity in the 
smuggling of drugs, currency, people, and weapons between the 
two countries.
    Now, the vast majority of trade and travel between the U.S. 
and Canada obviously is legitimate, and we do not want to 
impede that legitimate travel and trade. But that is one reason 
I am such a supporter of Operation Stonegarden. It allows for 
joint operations that truly are a force multiplier for the 
Federal Government as well as helping State, county, and local 
law enforcement.
    So I truly do not understand, in light of DHS's own 
assessment that the terrorist threat is higher from the 
Northern Border and that there is significant criminal activity 
and smuggling of drugs, people, and weapons, why the 
Administration year after year tries to restrict Operation 
Stonegarden to just the Southern Border.
    Secretary Napolitano. Well, if I might discuss some of the 
measures that are ongoing at the Northern Border that I think 
are not captured in the December GAO report, the Northern 
Border is different than the Southwest Border in the sense that 
you have some big areas, urban areas, where a lot of traffic 
goes back and forth, and then you have huge expanses of very 
sparsely populated farmland, to which Senator Tester could 
testify.
    So our design for the Northern Border is different than the 
Southwest Border, and our Northern Border strategy is different 
as well. It is much more technology dependent, for example. So 
we are adding more systems up there that can detect low-flying 
aircraft. Also, our partnership with Canada has really evolved 
over the past months so that you had Prime Minister Stephen 
Harper and President Obama themselves announcing a joint vision 
for a perimeter involving Canada and the United States, and 
greater cooperation with Canadian law enforcement on both sides 
of the border. And that is going extraordinarily well. For 
example, we are looking at being able to integrate their own 
sensor and radar feeds into our system as well.
    With respect to Operation Stonegarden, there are some 
Operation Stonegarden monies that have been allocated to the 
Northern Border, but, Senator, in terms of looking at where the 
need is greatest--because I only get so much and we only get so 
much--measured by what the local law enforcement is asked to 
do, the overtime, the maintenance of vehicles, those sorts of 
things that Operation Stonegarden is designed to help pay for, 
I will acknowledge that the priority has gone to the Southwest 
Border, and it probably will continue to do so.
    Senator Collins. Well, I would just suggest--and I 
understand the problems of the Southwest Border are severe, and 
that is why we have so many more border agents there, and we 
should. But this is a program that is not an expensive program 
that allows you to do more than you otherwise could, and it is 
DHS's own findings that warn about the terrorist threat from 
the north and the smuggling.
    Let me in my remaining time switch to a different issue, 
and that is the Visa Security Program. I have been watching 
this program for many years, since 2002, I think, when it was 
first established, and the fact is we are just not making much 
progress. ICE personnel have only been deployed to 19 of the 57 
highest-risk State Department posts around the world, and this 
program is an example of one where we can stop people from 
getting visas in the first place. And it is an example of the 
kind of coordination that you have advocated and helped advance 
across department lines and that this Committee has always 
promoted. So, to me, it is very disappointing that the 
President's budget request is unchanged from last year for this 
program.
    Are you going to be able to cover more of these high-risk 
posts given a flat budget?
    Secretary Napolitano. I think in the fiscal environment, 
one of the things we were asked to do was to see if there are 
current functions we are performing that we could continue to 
perform or even enlarge if we could figure out another way to 
do them. The Visa Security Program, as you acknowledge, 
requires an agreement with the State Department, and I will 
acknowledge there have been some issues there. I think we are 
working our way through them.
    But the other thing I tasked ICE to do was to figure out a 
way in which we could provide the same sort of double-check 
service on a visa remotely by using now some of the information 
technology systems we have in place. And I believe, Senator, 
that this year we will be able to do that and expand our visa 
eyes and ears in that fashion.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks very much, Senator Collins.
    In order of appearance, the next Senators would be Senators 
Tester, Johnson, Landrieu, and Pryor. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Yes, thank you, Mr. Chairman, and it is 
always good to see you, Madam Secretary. I appreciate the trips 
to Montana to look at the Northern Border and see the 
challenges up there. I also very much appreciate the statement 
you made earlier today when talking about Osama bin Laden, that 
this is not a victory lap; this is about getting a job done and 
moving forward, making sure we are diligent on our security in 
the war on terror, and it is about some very difficult 
decisions that were made. And you were a part of that, and you 
need to be credited for that, and I want to thank you.
    The other thing that I wanted to talk about really quick, 
because the Ranking Member talked about this a lot, was 
Operation Stonegarden, so I am not going to dwell on it a lot, 
but I do want to just simply refresh on what you just said, and 
that is, there would be Operation Stonegarden grants available 
to the Northern Border.
    Secretary Napolitano. Yes, there are Operation Stonegarden 
monies available, Senator, but they are not in the same amount 
as for the Southern Border.
    Senator Tester. And I understand that, and when we are 
talking about Operation Stonegarden and limited amounts of 
money, are you able to take into account, as the head honcho, 
the potential money that the Operation Stonegarden dollars 
could save in manpower and be able to use some of that money 
saved from manpower to further expand that program? Are you 
able to do that within your budget?
    Secretary Napolitano. Yes, and that is an analysis we are 
using for all our grant funding. I will say, Senator, that one 
of the things that we have been doing over the past weeks is 
looking at the fiscal year 2011 budget agreement, which cut a 
lot of the grant funding that we have for anti-terrorism grants 
and looking at, well, how do we prioritize, how do we make sure 
the money is going to where it is best used to reduce risk, 
realizing that we will never totally eliminate risk. And we are 
doing the same with Operation Stonegarden.
    Senator Tester. At least can I get your reassurance that 
when 2012 comes around there will be dollars, whether Operation 
Stonegarden or some other grant, there will be dollars to be 
able to develop partnerships with local law enforcement 
agencies up on the Northern Border?
    Secretary Napolitano. Senator, it is fair to say that 
through Operation Stonegarden or other grants there will be 
dollars available, but the whole universe of grants, when you 
add them up, is less than it was last year.
    Senator Tester. Yes. We may or may not be able to help with 
that.
    Border interoperability: There is a demonstration program. 
I was pleased that DHS announced a round of grants through that 
demonstration program on interoperability. I think that it is 
critically important that people are able to communicate, as 
you well know, with what just transpired, how important that 
is.
    As we move forward, is DHS looking to expand upon this 
program? And if so, how are they going to expand to help 
increase communication abilities between the very same people 
we are talking about through Operation Stonegarden?
    Secretary Napolitano. Well, we have a whole different set 
of funding streams for interoperability, and the answer is yes. 
And I will also say that this is an area where the Northern 
Border is a particular issue because of the large amount of 
rural territory that has to be covered. And from an 
interoperability standpoint, that is really our most difficult 
problem in some respects. Urban areas, we pretty much have ways 
to deal with the urban areas of the country, but the rural 
expanses of the country are more difficult.
    Senator Tester. These overstays--and I am just going to 
touch on it a little bit. The Chairman and Ranking Member also 
touched on it. You had talked about Prime Minister Harper and 
President Obama getting together and having a meeting and a 
joint vision. Is there anything being done to be able to share 
information on visa overstays in that regard?
    Secretary Napolitano. That is something we have discussed. 
There is nothing concrete at this point, but I have met with my 
counterpart several times about this. And let me, if I might, 
though, go to a point that was made about the GAO saying that 
only 3 percent of our resources go to visa overstays. That is 
an example of only looking at one account which is 100 percent 
devoted for visa overstays. But the fact of the matter is that 
a lot of our programs capture visa overstays. Secure 
Communities, for example, which picks up those individuals who 
have been arrested, also picks up visa overstays. And so the 3 
percent is not really an accurate reflection.
    Senator Tester. And I understand that. I mean, it is 
difficult, but I will tell you that folks who come in legally 
and then forget to go home, I think it is a huge problem, and I 
think the Chairman brought it up. And anything we can do, 
whether it is developing relationships with Canada, Mexico, or 
anybody else, to help you in that regard to remind them to head 
back, I think, is critically important.
    Also there are sham universities. Recently I called for an 
investigation into sham universities that manipulate 
immigration laws to bring people in, totally back-door, 
thousands of folks. Are you aware of these schools? And is the 
Department taking any steps to remedy that?
    Secretary Napolitano. Yes, we have had a whole initiative 
out of the U.S. Citizenship and Immigratin Services on the sham 
university issues, and we have actually dealt with several of 
the shams, so absolutely.
    Senator Tester. Good. Thank you for that.
    First of all, I appreciate Commissioner Alan Bersin's work 
with that as far as--well, there are some issues about allowing 
planes to land at the Great Falls Airport with fewer 
passengers. The director of Great Falls Airport is going to be 
coming here and meeting with, I believe, Commissioner Bersin 
and other senior folks over at the CBP, and I would hope that 
would be a productive meeting.
    I do not ask this as a question, but I just appreciate your 
efforts in working together to solve the problem. I think it is 
a big problem, quite frankly, from my perspective, and I think 
it is a problem that can be handled at your end giving guidance 
to folks on the ground. So thank you for that.
    Secretary Napolitano. We will work with the Great Falls 
Airport Authority. If they want to land more international 
passengers, as I understand it, they need to do some different 
things at the facility. They are landing 20 to 29 passengers 
now by flight. They want to go to 56.
    Senator Tester. Yes, well, I think it can be worked out, 
and I think that the bottom line is that--well, I will just put 
it this way--there is no need getting into the specifics.
    Secretary Napolitano. We will try, yes.
    Senator Tester. I appreciate that.
    Secretary Napolitano. Absolutely.
    Senator Tester. You talked about an elevated state of 
alert, which is what we are on now, correct?
    Secretary Napolitano. We are always on that, yes.
    Senator Tester. Was it increased after the events of 
Sunday?
    Secretary Napolitano. No, we did not issue a separate 
advisory, except I think it is important to note that we began 
immediately putting out intelligence products to fusion 
centers, State and local law enforcement, transportation 
authorities, and the like so that if they wanted to take any 
individual actions, they could do so.
    Senator Tester. Well, it was interesting. Just as a 
sidebar, I had to fly into Minneapolis Sunday night and flew 
out Monday morning to get here earlier than I could normally 
out of Montana, and it seemed to me that the Transportation 
Security Administration (TSA) was in a more elevated state. I 
saw people walking around in places I had never noticed them 
before. Lines were much longer. I thought maybe the job being 
done at security was more thorough.
    Did they do that on their own, or did you give them 
instruction, or did somebody give them instruction?
    Secretary Napolitano. No. That is correct, Senator. TSA 
surged some resources for a few days until we could see what 
the intelligence outcome was from what was seized at the 
compound.
    Senator Tester. Very good. Well, once again, I just want to 
thank you for your leadership. I very much appreciate it, and 
it is good to have you in front of the Committee. Thank you.
    Secretary Napolitano. Thank you, Senator.
    Chairman Lieberman. Thanks, Senator Tester. Senator 
Johnson.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Mr. Chairman. Madam Secretary, 
welcome back.
    Secretary Napolitano. Thank you.
    Senator Johnson. I would like to pick up a little bit on 
what Senator Tester was just talking about, the increased 
threat level. I just want to understand why we are not 
increasing the threat level. It sounds like we will only 
increase it under the new system if there is a specific threat 
as opposed to just a generalized threat level.
    Secretary Napolitano. If there is specific credible 
intelligence of a threat, yes, an advisory would go out. It can 
be elevated or it can be imminent. The idea or the thought 
behind this--and this was the product of a bipartisan 
commission co-chaired by former FBI Director William Webster 
and Fran Townsend, who was President Bush's Homeland Security 
Advisor, and then there were a number of experts on the 
commission. The idea is, instead of just putting out a color, 
to actually give people information. An advisory itself, if we 
elevate, might be restricted to, say, a particular 
transportation sector or it might be restricted to a particular 
area of the country. And they are designed to expire on their 
own in 2 weeks so that we do not continually add advisory on 
advisory on advisory with the effect that nobody really pays 
attention anymore.
    Senator Johnson. But if you increase the threat level, that 
does imply that certain actions are being taken, correct?
    Secretary Napolitano. There would be certain actions taken 
associated with increased threat levels, yes.
    Senator Johnson. And if there was ever just a generalized 
increase in the threat level, it would be in relation to an 
action, the successful capturing and killing of Osama bin 
Laden, correct? I just do not quite understand why we would not 
be increasing the threat level here over a short period of 
time.
    Secretary Napolitano. First of all, this is an ongoing 
evaluation, but at the time of the capture of Osama bin Laden, 
and as of yesterday, there was no specific credible threat of 
specific retaliation other than generalized there may be 
something that happens. Under that generalized sense, we 
already lean forward; we already ask people to help, if they 
see something to say something. We already have police 
departments doing suspicious activity reporting. We already 
have resources deployed at areas that have been of particular 
interest historically, like aviation. So that already happens.
    The idea behind the advisory system is that if we need to 
elevate a particular area or a particular sector of the 
country, that goes out, and we provide them as many facts as we 
can, and we provide then what we want people to do, how they 
can help the government, and how they can stay consistently 
informed. And if you go to disasteralerts.gov, there is a 
template for the advisory system and a briefing on how it 
works. It is new, and that is why I think people are still 
making that adjustment.
    Senator Johnson. Well, let us go on to border security. The 
last time you appeared before the Committee, I was trying to 
determine what we needed to do to secure the border, and one of 
the questions I asked you is: If it is a problem with 
resources, what would it cost to actually secure the border? 
And your answer was: We have enough resources.
    So taking off from that point, do you have in your mind a 
multiple-step process--I mean, what are your priorities in 
terms of, you say you have the resources, now what steps are 
you going to take to actually get the border secured?
    Secretary Napolitano. Well, they will be different between 
the Southern and Northern Borders. As I mentioned to Senator 
Collins, these are very different areas to secure. But it is a 
combination of manpower, technology, and infrastructure. And we 
are constantly looking at a number of measures to adjudicate 
whether we are getting results for the investments we are 
making.
    And when you ask me whether we have enough resources, I 
realize and I think we all realize that we are in an era of 
depleted resources, and I have to figure this out, recognizing 
that in all likelihood there is not another $600 million 
supplemental that is going to come my way for the border.
    So how do we make the best use of what we have? Well, we 
insist on accountability. We insist on producing results. And 
now I am insisting that the CBP develop a better way to measure 
those results.
    Senator Johnson. I am a little confused. Do you have enough 
resources or don't you?
    Secretary Napolitano. I believe, Senator, that with the 
resources we have and the resources that the President has 
requested, which will sustain the record level of resources at 
the border--we have never had these kinds of resources at the 
border. So the key is not more. The key is sustainment. So with 
those, with the supplemental we already have and annualizing 
the supplemental, which is what the President has asked be done 
in fiscal year 2012, we will be able to continue our efforts at 
securing the border.
    The question is and the challenge for the Committee and 
Senate will be making sure we have a fiscal year 2012 budget 
from which to work because if we have to go back to a 
continuing resolution, we will have some problems.
    Senator Johnson. I am a numbers guy, so I am liking the 
idea of some overall metric because in preparing for this 
hearing, there is just an awful lot of numbers, there is a lot 
of data. Turning that into real information, I mean, is the 
concept here that we are going to have an overall single number 
index? And is that going to be by region? Is that going to be 
for the entire country? What is your concept in terms of a 
threat assessment or securing the border type of index?
    Secretary Napolitano. I am waiting for CBP--they are 
already in this process--to come back to me, but I believe it 
conceivable that we would have two different indices, one for 
the Northern Border and one for the Southern Border, because 
they are different. But I do not think we have concluded that. 
And the index may be a range, which would reflect overall 
efforts at the border.
    What I know for sure is looking at apprehensions alone does 
not cut it. Using the anachronistic term ``operational 
control'' also does not cut it. We need to have something more 
qualitative and quantitative that you can use in allocating 
resources and we can use as well.
    Senator Johnson. Even at the Southern Border, there is a 
vast difference in terms of our level of success, correct? 
Wouldn't you want to have that index region by region along the 
different borders?
    Secretary Napolitano. Well, we would anticipate using it 
sector by sector. I mean, there is a big difference between, 
say, the Yuma Sector, which is very isolated and in which there 
is a lot of military land, and the Tucson Sector, which is the 
busiest and is the one where we are putting the most resources 
right now. So even within one State--albeit the Yuma Sector 
crosses a little bit into California--we see a difference. So 
that is why I think any kind of index will probably have to 
reflect some sort of range.
    Senator Johnson. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Johnson.
    Just to come back to the threat level, we are all getting 
accustomed to the new system, though I think it is an 
improvement. Well, let me put it this way: We are always on 
alert, and so the question is do we raise it to elevated. Right 
now, after Osama bin Laden was killed, you have not raised it 
to elevated for the reason you state. There is not specific and 
credible evidence of a threat against the U.S. homeland. 
However, you have taken additional steps.
    So just for clarification--I do not want to belabor this--
when you go to elevated, if you did, does it mean that the 
government is taking additional steps or that you are calling 
on the citizenry to be more alert, or both?
    Secretary Napolitano. Both.
    Chairman Lieberman. Both.
    Secretary Napolitano. And it also corresponds to additional 
efforts by State and local responders as well.
    Chairman Lieberman. Right.
    Secretary Napolitano. And so in instituting the new system, 
one of the things we did was to work a lot with police 
departments and so forth around the country as to what elevated 
would mean.
    We are always at a state of alert. We are always calling on 
the citizens to, as we say--and it is a very easy to remember 
slogan--if you see something, say something. And our actions 
are predicated on the fact that we are always on alert.
    I will also say that the decision to raise or not to raise 
is based on recommendations from the Counterterrorism Advisory 
Board, which is comprised of representatives from all of the 
intelligence community and is constantly reviewing what is 
coming in. And right now, given the material obtained from the 
compound, they are meeting at least once daily to go through 
everything to advise me as to whether, yes, we should raise it.
    Chairman Lieberman. That is really important, both the 
clarification--but, again, I come back to the fact that our 
system is really working seamlessly now so that you are getting 
real-time information from the material seized at bin Laden's 
compound in Pakistan, and you are evaluating it every day to 
determine whether you see anything in that information that 
would lead you to raise the threat level.
    Secretary Napolitano. More precisely, Mr. Chairman, the 
Counterterrorism Advisory Board is receiving that, and other 
information as well.
    Chairman Lieberman. Right.
    Secretary Napolitano. I mean, it constantly comes in, and 
they are constantly analyzing it. Instead of meeting 
sporadically, they are meeting regularly and really in an 
ongoing fashion now in relation to what happened on Sunday. And 
if they provide me with or advise me that, Secretary, this is 
what we have and we think this means that you should elevate 
the alert system that already exists, then I will act.
    Chairman Lieberman. That is very good to hear. I think the 
system is working as we would want it to.
    Let me go to the visa overstay question and the report that 
was issued yesterday by GAO. I know you have taken issue with 
at least one segment of it in terms of, you might say, the 
accuracy or clarity of the information. The report did say--and 
this is the part that was most troubling to me--that the US-
VISIT program has a backlog of 1.6 million potential overstays 
that were identified but which have yet to be processed. So let 
me ask you to talk about that a little bit.
    To the best of your knowledge, is that accurate? How are 
the potential overstays identified under the current system?
    Secretary Napolitano. Well, let me, if I might, explain 
what is happening and what we are doing to improve the system. 
Visa overstays are another form of illegal immigration. I mean, 
once you have overstayed your visa, you are in the country 
illegally just as if you had come across the border. I mean, 
you have broken the law.
    Just as we do with people who have crossed the border and 
with visa overstays, we are appropriated enough money to remove 
about 400,000 people a year from the country, and that is 
probably a small percentage of those who are in the country 
illegally total.
    Chairman Lieberman. And that 400,000 is specifically on the 
overstays?
    Secretary Napolitano. No. Total.
    Chairman Lieberman. Total of overstays and illegal entry?
    Secretary Napolitano. Yes. If you really cost out what it 
costs to remove somebody who is in the country illegally, we 
get enough money between ourselves and the Justice Department 
to remove about 400,000 people. And so we have set priorities. 
Who are the ones we really want to make sure we get?
    First, we want to make sure we get those who fall within 
our guidelines for being possible national security threats.
    Second, we want to remove those who are violating criminal 
laws in addition to the immigration laws.
    And then we want to, third, deal with those who are 
fugitives--and this is not really so much a removal process as 
dealing more effectively with those who we pick up right at the 
border who are gaming the system and going back and forth.
    Now, when we get a visa overstay--and there are systems set 
up now that tell us or reveal to us that somebody is a possible 
overstay--the first thing we look at is who of those fall 
within our guidelines for being a possible national security 
threat. I do not want to say in an unclassified setting what 
those guidelines are, but they exist. All of those individuals 
are sent to another unit within ICE to be vetted and found. So 
we have 100 percent in that category.
    Chairman Lieberman. Let me stop you there just to ask, what 
is typically the way under the current system--just for the 
record--the Department finds out that somebody has overstayed 
their visa?
    Secretary Napolitano. It can be a number of ways. One is if 
we have no record of exit.
    Chairman Lieberman. Most logical, right?
    Secretary Napolitano. So right now, in the air environment, 
which this all started not because of land crossers but air.
    Chairman Lieberman. Right.
    Secretary Napolitano. We now can match or no-match about 89 
percent of all travels to an entry and an exit. So 89, 90 
percent. The question is the remaining 10, and we do not have a 
match for them. And then if they fall within our national 
security guidelines, 100 percent of that category would go to 
an ICE unit to be vetted and found and investigated. So we 
start there.
    The second category are those who have violated criminal 
laws, who are dangerous to the public safety, and we do a 
similar process there. Now, there the institution of Secure 
Communities is really helping us because it is identifying for 
us those who are in the country illegally who are also in jail.
    Chairman Lieberman. What can you do and what can we do to 
help reduce both the backlog of those who are identified as 
potential overstays but not processed and also, of course, to 
more effectively identify people either prior to coming in who 
seem to be coming in with the intention of overstaying, or to 
do better at finding the people? This is a larger question, a 
wrap-up question in a way on this subject. But if you take the 
40-percent number and you take the lower number that we hear 
for estimates of illegal immigrants in the United States, 10 
million, that means 4 million people are here because they came 
in legally and overstayed their visa. And as you just said--you 
are absolutely right--once you overstay your visa, you are as 
illegal as somebody who illegally crossed the border. For 
instance, if somebody hires you, that is illegal.
    Secretary Napolitano. Right.
    Chairman Lieberman. So how can we better deal with this 
part of the illegal immigration problem?
    Secretary Napolitano. Well, I think, Mr. Chairman, it is 
important to recognize that we have to have priorities because, 
as I said before, we get enough money to remove 400,000, so now 
we have to go from 4 million, and that is just on the visa 
overstays, plus the illegals who cross the border to the 
400,000. That is why setting basically prosecution priorities 
is key.
    The plain fact of the matter is most of the visa overstays, 
they are here illegally, but they are being drawn because they 
can work here. So that is why border security and immigration 
reform are so connected, because the plain fact of the matter 
is that a number of these individuals, if they could get a 
different kind of visa or a longer visa tied to employment, you 
would not put them in that 4 million category. So we want to 
take off the top national security, criminals, and fugitives.
    Chairman Lieberman. That is fair, and I think that is the 
right thing to do. I am over my time, but I just want to ask 
one more question while we are on this. I want to ask who are 
the people, do we know, who are more likely to overstay their 
visas and then become illegal immigrants? Are they coming from 
different parts of the world even though their motivations may 
be similar, which is to work here, rejoin family, or the like?
    Secretary Napolitano. That is a question to which I do not 
know the answer. In other words, you are asking are the 
demographics different for the overstays versus the illegal 
border crossers?
    Chairman Lieberman. Right. We assume that most of the 
illegal immigrants are coming in illegally. They are illegal 
immigrants because they came in illegally. They have come 
across the Southwest Border.
    Secretary Napolitano. That is right.
    Chairman Lieberman. And probably there are a lot of reasons 
for that. The interest in coming over is greater by far than 
the number of legal visas that bring them in.
    Secretary Napolitano. Well, and the other thing is 
recognize that the vast majority of people who are coming into 
our country illegally or coming legally and overstaying are 
coming for purposes of employment or they are related to 
somebody who has come over to work. And so all of the systems 
that are designed to really deal with the interior enforcement 
issue would help. E-Verify helps. Increasing--and this will 
take legislation, and that is why I say all these things get 
knit together. Increasing the penalties on employers who 
consistently hire illegal labor and adjusting the elements in 
the burden of proof which makes those cases so unnecessarily 
difficult, that also would be very helpful because then you are 
dealing with the demand driving illegal immigration as well as 
the supply.
    Chairman Lieberman. Thanks very much. I thank my colleagues 
for their patience. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Madam Secretary, I want to return to the issue of the 
threat level because as I listened to my two colleagues 
question you about that--and I thought about the comments of 
the Director of the National Counterterrorism Center (NCTC) 
that we can expect attempts to retaliate--I am wondering why we 
are not increasing the threat level. It seems to me that until 
a further assessment is conducted of the intelligence, 
including a full exploitation of the materials and data seized 
at the compound at which Osama bin Laden was living, it would 
be prudent to increase the threat level, not to the highest 
level but you have revamped it in a way that I believe makes 
sense, but to acknowledge that we are in a situation where we 
are at risk. And so I am curious why given Michael Leiter's 
public comments, given the fact that we have yet to do a full 
exploitation of the materials from the compound, and given the 
fact that we are still doing an assessment of the reaction to 
Osama bin Laden's death, we are not taking what to me would be 
a prudent step of increasing the threat level.
    Secretary Napolitano. Well, Senator, I think we are always 
asking people to be alert. We are providing additional 
intelligence products into the law enforcement community and to 
the private sector so they could take whatever actions they 
deem prudent. We are constantly evaluating whether we should 
issue a special advisory, and NCTC is part of that group that 
makes that recommendation.
    So on an ongoing basis now, it may come to the point where 
we say in this area for this we are going to issue an elevated 
alert, but I think we want to be careful here. We do not want 
to say because we suspect, and reasonably so, that at some 
point there may be retaliation that we go ahead and put the 
Nation into an alert status without more information than we 
currently have. That could change. It could change tonight. It 
could change tomorrow. But the whole idea behind the new system 
is to say, look, we are always on alert, we are always facing 
risk. The threat of terrorism is always with us, and we are 
never going to be without it, even with the death of Osama bin 
Laden. We have other members of al-Qaeda, we have AQAP, we have 
AQIM, we have al-Shabaab, and that does not even count the 
homegrown terrorists who we are quite concerned about just from 
a lone wolf standpoint in particular. But that does not mean 
that under the new criteria we issue an elevated threat.
    Now, as intelligence comes in, as things are digested--and 
that is happening on a real-time, seamless basis--that may very 
well be adjusted. But I think for the Nation to keep paying 
attention to these alerts, we want to really make sure they are 
tied to something that is specific.
    Senator Collins. I appreciate your explanation of the 
process. From my perspective, it just still seems prudent to 
temporarily, at least, elevate the threat level until the 
assessment is completed. But I understand your point.
    You have mentioned just now and earlier the threat of a 
lone wolf attack, and as you know, this is an issue that this 
Committee has devoted countless hearings over the past few 
years, and as part of our Fort Hood investigation and report, 
we called upon the Administration to create a strategy to 
ensure a unity of effort among Federal departments and agencies 
and the development of a specific strategy to counter 
radicalization within our country. If you look at the plots 
over the last 2 years, they have largely been domestic plots by 
people who have been inspired by al-Qaeda, but not in most 
cases directly linked to al-Qaeda.
    I would appreciate this morning an update on the 
development of those Federal strategies to counter domestic 
radicalization and to ensure a coordinated effort.
    Secretary Napolitano. Yes, we have looked at this from what 
do we do to prevent somebody who has been radicalized from 
successfully carrying out an act of violence, and we have 
concluded that the best way for us to intervene is to support 
through grants and other programs local police in kind of 
neighborhood policing strategies that reach out to the 
community in the same way that we dealt with gang violence 
during the crack epidemic, where we really focused on police on 
the street who were intimately known by the neighborhood. You 
develop that flow of information because there was an 
underlying foundation of trust. And the Department of Justice 
and the Community Oriented Policing Services (COPS) program has 
also worked on that.
    So out of that conclusion, we said, well, we should have a 
curriculum that really focuses on what are the behaviors that 
indicate that somebody has become radicalized, and radicalized 
to the point of violence. So working with police across the 
country, we developed a training curriculum. We have beta-
tested it already at the Federal Law Enforcement Training 
Center (FLETC). We are putting people through it now. There is 
a curriculum at FLETC, and then there is a training module that 
can be used at home so that you do not have to travel to FLETC. 
So that is ongoing as well.
    We continue to look for other ways, but we are really going 
to focus on is how can we empower local law enforcement in 
particular to prevent a lone wolf from being successful.
    Senator Collins. Thank you. Let me just say that I was very 
pleased to hear you mention the ``See something, say 
something'' campaign. The Chairman and I had to work so hard to 
get that through when it came to the transportation sector, and 
without the Chairman's willingness to stand up against many on 
his own side of the aisle, we never would have suffered. So I 
hope your comments mean that you will endorse the broader bill 
that the Chairman and I have introduced, which would provide 
immunity from civil lawsuits to individuals who in good faith 
report suspicious activity to the authorities. They would not 
be protected if it were not in good faith because right now the 
law that we wrote only applies to the transportation sector.
    Secretary Napolitano. I would be happy to look at that, 
Senator.
    Senator Collins. Thank you.
    Secretary Napolitano. And if I see something, I will say 
something. [Laughter.]
    Chairman Lieberman. I only supported Senator Collins' 
proposal because it happens to be right. [Laughter.]
    Chairman Lieberman. Senator Johnson.
    Senator Johnson. Well, thank you again, Mr. Chairman.
    I do not want to beat a dead horse here, but let me take 
just one more stab at this threat advisory. The purpose of an 
advisory is to signal to the American public that something has 
changed. I mean, if we are always on the same constant level of 
alert, that just degrades over time. So, again, I am just kind 
of scratching my head.
    Secretary Napolitano. Well, if I might, Senator, that was 
the problem with the color code because we were always at 
orange and nobody paid any attention. The purpose of the 
advisory, in my view, is to communicate facts and information 
so people know what to do. So if we elevate the advisory, it 
will be accompanied by information. What are the facts that we 
can disclose? What can people do to protect themselves and 
their families? Where do people go to get updated information? 
How can people help us help them?
    So it is not just to be alert. We are always on alert. That 
is the elevated base. But now we would be providing additional 
facts based on the intelligence we receive that tells people 
what to do.
    Senator Johnson. I get that. Let us move on.
    Let us talk a little bit about where the threat of 
terrorism sort of intersects with border security. I have read 
some relatively alarming statistics about percentage of non-
Hispanic apprehensions at the border. Can you speak to what are 
the real facts and what are the stats by region?
    Secretary Napolitano. Yes, we are looking at that right now 
because one of the things we have seen is an uptick in a 
category called OTMs--it means ``other than Mexicans''--illegal 
immigrant apprehensions in one of the Texas sectors. It has 
gone as high as one in three recently. Many are from east 
India, the country of India, and we are trying to get to the 
bottom of what is the trafficking route, what is the demand, 
what is happening there. And in this setting, I would just 
prefer to say we have seen that trend over the last few months. 
We have devoted some additional resources to that trend, and we 
are trying to get to the bottom of it.
    Senator Johnson. Have we increased our alert level in terms 
of those apprehensions now in light of recent events?
    Secretary Napolitano. No.
    Senator Johnson. Do you think we should?
    Secretary Napolitano. Senator, if I am advised by the 
Advisory Board on the intelligence side that we should, I will 
do that.
    Senator Johnson. I did make a trip down to the Tucson 
corridor there, and went down to the border by Nogales. You 
talked about manpower and infrastructure, and I am a little 
concerned. You know, obviously, we want to protect the border, 
and so we have put a lot of resources into Border Patrol. But I 
am a little concerned about the Customs and Border Protection 
agents. We are building a lot of infrastructure down at 
Nogales. I think even with the current infrastructure I am 
concerned about the staffing levels there. Can you just speak 
to the relative staffing between Customs and Border Protection 
versus Border Patrol?
    Secretary Napolitano. Well, the supplemental that was 
passed provided for several hundred more port officers to use 
on those additional lanes and so forth. And so they are in the 
process of being deployed right now. It is another reason why I 
am concerned about our fiscal year 2012 budget request. The 
President has asked that those additional port officers be 
annualized, that they become part of our base. And that is 
necessary because we need that legal trade to move; we need 
those lines, those wait times to be shortened. We have been 
investing in some major improvements and enlargements on some 
of these ports, and that means more lanes to cover. We want to 
keep some of them open more hours, and that also means more 
coverage.
    And so right now we are watching that very carefully. We 
have been hiring up on the port officer side, and we want to 
annualize that hiring.
    Senator Johnson. I do want to say I was very impressed with 
the professionalism and dedication of the agents down there. I 
really was. I mean, that was comforting.
    Secretary Napolitano. That is great. It is a hard job.
    Senator Johnson. It is.
    Secretary Napolitano. It is a very tough setting.
    Senator Johnson. It is very hard. You have to remain 
vigilant. I was impressed.
    Secretary Napolitano. Great.
    Senator Johnson. I was intrigued by Senator Lieberman's 
comments about smart immigration policy. Can you just speak to 
what your concept of that would be and how that would really 
affect our illegal immigration problem here?
    Secretary Napolitano. Well, as I mentioned, one of the big 
draws for illegal immigration is the demand for illegal labor, 
and the current laws on employer sanctions are very minimal. 
They do not give us a great deterrent on the investigation and 
prosecution side, and so I think those need to be looked at as 
well as the elements of proof that we are forced to demonstrate 
or that the Justice Department is forced to demonstrate.
    I think we should be looking at the different types of 
visas that are offered and look at streamlining and enlarging 
the visa categories that we have, particularly on the temporary 
visa side. And then we have to have some way to parse the 
population that is already in the country illegally given that 
we are only given the resources to remove about 400,000 people 
a year, and we want to focus on those who are security threats, 
who are criminals, who are fugitives--in other words, those who 
fit in those kinds of priorities.
    Well, once we fill those priorities there are still 
millions of people left. What are we supposed to do? So that is 
where really the tough part comes in, but I believe the 
President would support a program to get those people out of 
the shadows, regularized, identified, and for those who are 
there, if they can earn their way to citizenship by paying a 
fine, getting in the back door behind people who are attempting 
to use the system legally, or figure out some way to do that. 
That has been the hardest part of the immigration issue because 
that has been viewed as amnesty.
    Senator Johnson. Let me go back to the step process of 
securing the border. I am assuming from what you have said 
already that the first step is really measuring, getting the 
metric. Correct?
    Secretary Napolitano. I think that is an initial step, yes.
    Senator Johnson. Once we have that metric, what is the next 
step?
    Secretary Napolitano. I think then we need to be 
concurrently looking at what is the intersection between 
interior immigration enforcement, what is going on in 
immigration generally, and what is happening at the border. The 
border is only one part of this entire problem, so we need to 
be looking at the intersection between that and the border 
metric at the same time.
    Senator Johnson. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Johnson.
    Senator McCain has just arrived. I do want to state for the 
record, I know he was very interested in this hearing, and I 
know he was not able to be here until now because Senate 
Intelligence and Armed Services Committees both met with 
Admiral William McRaven today.
    Incidentally, Senator Collins and I are going to ask 
Admiral McRaven if we can have another briefing for those of us 
who had to be here. Admiral McRaven is head of the Special 
Operations Command which oversaw the SEALs that carried out the 
assault on Sunday.
    So, with that, I thank Senator McCain for coming by and 
call on him now.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Well, thank you, Mr. Chairman, and I 
apologize, Madam Secretary. I was at this briefing by Director 
Leon Panetta and Admiral McRaven, and I apologize for being 
late.
    Madam Secretary, I am interested in your comments about the 
hardest part with the things that we need to do. Again, Senator 
Kyl and I have introduced legislation which we believe would be 
sufficient measures to secure our borders. We have never had on 
your part or the part of the Administration serious sit-down 
negotiations on this issue.
    Now, I understand the President's zeal for immigration 
reform, and yours, but as I have said on numerous occasions, I 
have seen this movie before. I saw it in 1986 when we gave 
amnesty to 2 million people and said we would secure the 
borders, and we have not. When there are still 171,000 people 
apprehended in one year crossing our Tucson border, in the view 
of most observers that is not a secure border.
    We have a plan that can do that, and sometimes my friends 
from other parts of the country and other people think that 
maybe Senator Kyl and I and a lot of our constituents, 
particularly those who live in the southern part of Arizona, 
are a bit intransigent.
    I received a briefing from the High Intensity Drug 
Trafficing Area (HIDTA) program staff--two of them--that there 
is between 100 to 200 spotters sitting on mountains in southern 
Arizona, inside the borders of the United States of America, 
spotting for drug cartels, who then get the drugs up to Phoenix 
and--in the words of HIDTA, not mine--distribute them. Phoenix 
is the drug distribution center for the Nation with the 
exception of some parts of the State of Texas.
    Now, I do not think that that is an acceptable situation. 
Perhaps you do. It was not my assessment of the situation. It 
was the assessment that was given to me--100 to 200 spotters 
sitting on mountains inside the State of Arizona guiding the 
drug cartels as they bring the drugs to Phoenix and then 
distribute them throughout the country. That, at least to the 
constituents that I talk to of mine, is not an acceptable 
situation.
    Then in an act that I still do not understand, the National 
Guard is withdrawn from the border. I go down to the border, 
and I ask the Border Patrol, the HIDTA people, and I ask the 
U.S. Attorney: How important is the role of the National Guard? 
``Indispensable.'' That is the word they use.
    And then we are supposed to believe that the Administration 
is serious about securing our borders. Well, I do not think so.
    So I would hope that we could understand that when any 
State has 100 to 200 spotters, members of drug cartels, inside 
their borders guiding drug cartels as they bring drugs to 
Phoenix, Arizona, and then distribute them throughout the 
Nation, with the exception of some parts of Texas, that that is 
not a situation that I should expect my constituents to 
tolerate.
    So I guess it is more of a statement that I would seek your 
response. The border is not secure. The Yuma Sector is secure. 
There are many other areas. There have been improvements. I do 
not doubt that. But I was in Douglas, Arizona, a few weeks ago, 
and we saw a film of what had happened about 3 nights before--
SUVs with flashing lights on the road right next to the fence, 
take a left turn, stop, and let loose a fusillade of bullets 
killing 5 people and wounding 13. That is a serious situation, 
and some of those bullets fly across the border. And these mass 
graves are obviously something that has shocked the Nation. And 
all of it has to do with drugs that are moving into the United 
States of America.
    So, again, I would hope that we could have some serious 
conversations rather than meetings with various interested 
groups and see if we cannot sit down and take the necessary 
measures that are clearly there in our view that could assure 
our citizens of the country that our border has a reasonable 
level of security and maybe move forward in order to achieve 
that.
    I would be interested in your response.
    Secretary Napolitano. Well, thank you, Senator, and your 
constituents used to be mine, and I spent a lot of my life on 
these border-related issues, and so I think we share the same 
values and the same goal. Let me take on four of the points 
that you have made and help provide you with some information.
    First, with respect to the National Guard, they have not 
been withdrawn. They are at the current force level they have 
always been this year, and the Administration has not made a 
final decision about whether to continue to deploy them.
    One of the issues is who pays for the Guard, and we have 
asked our appropriators twice to allow us to reprogram funds to 
pay for the Guard and to continue to pay for the Guard at the 
border. And that reprogramming has been denied. This Committee 
may want to look at that issue. It would be very helpful for 
sustaining the presence of the Guard. But, again, like I said, 
I asked our appropriators, and it was denied last year. We 
would renew that request.
    On the 10-point plan, Senator, many of those things we are 
doing or are close to doing, there is a fiscal cost to it. I 
think your own numbers show it to be over $4 billion, and the 
issue, I think, is whether some of the items there are the most 
cost effective way to reach the common goal that we share. I 
want to have that discussion with you and work with you on 
that.
    On the spotters, now I speak as the former Chair of the 
Arizona HIDTA, and I speak as the former U.S. Attorney and 
Attorney General. I know the Vekol Valley very well. I have 
asked the Border Patrol because I have been down there myself 
several times in the last few months. ``Where are the spotters 
that I keep hearing about?'' And the answer I receive is that 
there are a couple hundred tops from which a spotter could act, 
but they are not sitting there, 200 drug spotters. And we are 
now deploying technology into that area to enable us to pick up 
more individuals involved in the drug trade than we already 
are. So I would really be interested in seeing if we can 
clarify that particular point.
    And then, last, on the number of illegals coming across the 
Tucson Sector, I agree with you, I do not like that number 
either. It is dramatically down from what it used to be. It is 
down 35 percent from what it was when I started as the 
Secretary. But we are going to continue to put resources into 
that sector until we get that and drive that number down even 
further.
    The part of this hearing that you missed--and I will be 
happy to set up a private meeting with you about--is developing 
a real border metric that takes into account apprehensions, 
typical crime statistics, but also other measures that give us 
a better overall sense of what is happening at the border 
because I think there is a general consensus that the 
apprehension number in and of itself is not a complete 
measurement.
    Senator McCain. Well, thank you. I am fascinated by your 
comment that they could not tell you where these spotters are. 
They probably cannot tell you exactly where they are because 
otherwise they would get them. But the fact is they are 
absolutely, totally, factually correct. They are there, and 
everybody knows they are there. And for you or your staff to 
deny that they are there is sort of symptomatic to me of the 
lack of really recognition or appreciation of the problems that 
exist along our border.
    Secretary Napolitano. Senator, with respect, there is no 
one who has spent more time working on this Arizona issue than 
I have over the past 2 years, and we will continue to drive the 
numbers down----
    Senator McCain. There is no one that has spent more time on 
the issue than I have, Madam Secretary, long before you were 
governor and long before you were Secretary, and I am told by 
the law enforcement people from the sheriffs up to the U.S. 
Attorney that there are between 100 and 200 spotters sitting on 
mountains in Arizona. And for you to dispute that is a big 
problem you have between yourself and them. And it should be 
clarified.
    Secretary Napolitano. Well--yes, let us clarify it.
    Senator McCain. So if you want to say that it is not true, 
that is fine with me. But it happens to be true, and it happens 
to be a huge problem, and it also happens to be that Phoenix, 
Arizona, in their view, and other experts' view, is the 
distribution center for drugs around this country. So maybe you 
want to deny that, but the fact is that it is. And so, again, 
if you want to change the matrix, fine, change the matrix. But 
on the ground, in Arizona, on the border, we see people still 
living in an environment that they are not living secure lives. 
And we had witnesses before this Committee who testified to 
exactly that, ranchers and sheriffs of the counties along the 
border--Larry Dever and others.
    Secretary Napolitano. Well, if we are going to get into the 
sheriff discussion again----
    Senator McCain. See, you may not trust the word of Larry 
Dever and these other sheriffs. That is fine. You may dispute 
them. We, in Arizona, trust them because they are the elected 
law enforcement officials that are there dealing with these 
issues every single day. And I know the facts on the ground, 
and I agree that there have been improvements, and I am 
grateful for those improvements. But I would argue they have 
not kept up with the escalation of violence on the other side 
of the border.
    And I go back to my original point that I made at the 
beginning of my comments. I think that it would be great if at 
least once for the Administration to come and sit down with us 
who are in border States, not just Arizona but New Mexico, 
Texas, and California, and see if there is some kind of way we 
could work out a way to get our borders secured. And maybe then 
it would be of some benefit to all of our constituents. Please 
respond.
    Secretary Napolitano. Well, Senator, look, the issue is a 
lot more complicated, and what we need to do at the border is 
exactly what we are doing, and more so and sustain it. It is 
more manpower, it is more technology, it is more 
infrastructure. It is adding air cover, which we now have 
across Arizona, which we did not have before. It is also, 
though, related to interior enforcement. It is having the 
ability to identify who is in our jails that are also in our 
country illegally and being able to remove those.
    The ability to have consequences for all who cross 
illegally, that is important. I grant you that. Doing the same 
thing in every sector that you do in a small sector like the 
Yuma Sector may not be the best way to achieve that. That is a 
discussion we ought to be having.
    So I look forward to sitting down with you, and we will go 
point by point through the plan. We have some options I would 
like you to consider. As I mentioned before, your challenge to 
me at our last hearing was: What is a border metric? What is 
something that we can measure that would say we have a secure 
border? And you asked me that question. So I have directed CBP, 
I said, ``Look, we need to create a metric that makes sense, 
that measures all of these things.'' And we can include, and 
probably will, all of the drug activity and so forth.
    I must say, however, that let us not get into a debate 
because some sheriffs say the situation is better, and some 
sheriffs say it is not. Most mayors say it is better, but there 
are a few who say it is not. We have to look at the entire 
border and create a safe and secure border region that 
legitimate trade and travel can use because Mexico is the 
second or third largest trading partner for 22 States of the 
country. And we do not dispute that is the goal. We just have 
some differences on how we measure and how we get there.
    Senator McCain. Well, I do look forward to sitting down 
with you on this issue before the election season gets too 
polarizing, but I think it is important because I think we are 
on the right track, and I have clearly stated that there have 
been improvements. But I think we have some more to go.
    Would you indulge me one other comment?
    Chairman Lieberman. Sure.
    Senator McCain. Madam Secretary, this is an entirely 
different subject--I continue to get complaints from people who 
are subject to this physical pat-down. We really ought to try 
to work on some kind of technology that would not be necessary 
for our inspectors to go through. It is just very invasive, and 
I have heard all the reasons for it, but it seems to me in a 
country like ours we could develop some kind of technology that 
would make something like that unnecessary. Some people feel it 
is really embarrassing and humiliating, and I certainly 
understand their complaints.
    Secretary Napolitano. Senator, I understand them as well, 
and I receive them as well. Three things:
    One, we are investing in research and technology. The 
research cycle is not an immediate cycle, but we are investing 
and working with national labs and others on better technology.
    Two, I have asked and TSA is moving to a more risk-based 
approach to how we screen. Part of that will lead to what my 
third point, which is we want to enlarge trusted traveler type 
programs where people have a biometric card, then they can go 
through similar to what we use for pilots now, anyway, and we 
are looking for ways to scale that up.
    Senator McCain. Well, thank you, Madam Secretary, and I 
look forward to continuing our spirited dialogue.
    Secretary Napolitano. I enjoy them, too.
    Chairman Lieberman. And may I say, those of us who are not 
from Arizona enjoy them, too. [Laughter.]
    I actually want to thank both of you for the exchange, and 
you both agree that things are better along the border, and you 
both agree that they are not good enough. And I think your 
announcement today that you have directed the CBP to develop a 
new metric, a new index for judging, for reaching a conclusion 
of whether the border is secure and how to make it more secure 
is very important.
    Beyond your official announcement to an earlier question, 
in typical Napolitano style you said, and I paraphrase: The 
existing system of judging border security by the number of 
apprehensions ``does not cut it,'' and the existing definition 
in law of ``operational control'' of the border does not cut it 
either. I agree with you, and I think you have the opportunity 
here now to develop a new standard of border security that is 
much more accurate and effective and can be a basis for a 
meeting of minds between people on different perspectives, both 
on the question of border security and on the related question 
of immigration reform. And I really urge you forward. I hope 
you will engage Senator McCain and the other Members of 
Congress from the Border States, and the governors, whom I know 
you know well. And if you have room in any of those meetings 
for a guy from Connecticut, I would be honored to be invited.
    Secretary Napolitano. We will make you an honorary Border 
State Senator.
    Chairman Lieberman. Thank you.
    You both know this better than I do. This is a really 
important question, and it ties directly to the other important 
question of immigration reform. And Senator McCain is right. I 
may be quixotic in saying this, but we still, in my opinion, 
have a chance in this session to try to achieve some 
significant improvement in border security and in a related way 
some what I called earlier ``smart immigration reform.'' And I 
hope we try every opportunity to do that. And the two of you 
are critical in whether that is possible or not, so I thank you 
both.
    Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. As Joe Biden would say, ``From your lips to 
God's ears.'' That would be great.
    Madam Secretary, nice to see you. Thanks for your 
leadership and your commitment and hard work and that of the 
team you lead.
    Secretary Napolitano. Thank you.
    Senator Carper. One of the things I have been focused on is 
deficit reduction. They look at cutting spending and they look 
at raising taxes. And I focus more on a third and a fourth 
idea; and the third idea is how do we promote economic growth 
to help us in our efforts and what kind of smart investments 
can we make in the workforce, infrastructure, and research and 
development (R&D) that could be commercialized on the R&D side 
to create the products and innovations that we can sell around 
the world. So that is a focus of mine.
    My other focus is really on creating what I call a culture 
of thrift in the Federal Government to replace what some might 
describe as a culture of spendthrift. We talked about it a 
little bit in our caucus luncheon just yesterday. And I like to 
say that everything I do, I know I can do better. I think the 
same is true of most of us. We were just talking about in this 
exchange you had with Senator McCain trying to find ways to do 
better. I like to say if it is not perfect, make it better.
    I think we need to look in every nook and cranny of the 
Federal Government and ask a question of almost all Federal 
programs, whether domestic, discretionary, or entitlements, is 
there a way to get a better result for less money or maybe a 
better result for not much more money?
    And with that, and in the spirit of that thought, I just 
wanted to ask you about the Department of Homeland Security's 
Secure Border Initiative. It was created, as I recall, to 
bolster our Southern Border with a variety of high-tech 
technologies, with physical infrastructure, and with border 
enforcement officers, and we have all supported that stuff. The 
program was, I think, designed to secure some 700 miles of the 
Southern Border by, I think, the year 2005 at a cost, I think, 
close to $900 million. I think this includes both the new metal 
fencing and some of the various surveillance technologies.
    What has troubled me the most with respect to this program 
is the technology component, and I am told that of some 700 
promised miles of various surveillance equipment, we have 
deployed maybe 50 or so miles of the anticipated 700, and this 
at a price of about $750 million. At least this is what I have 
been told.
    I understand you have frozen that program, the Secure 
Border Initiative, to try to identify a smarter and more cost 
effective way forward, and I just want to ask you to take a 
couple of minutes here today to discuss with us, if you would, 
how we can get a better bang out of the taxpayer's buck in this 
regard and what you see we ought to be doing going forward in 
this regard.
    Secretary Napolitano. Thank you, Senator. The so-called 
SBInet program I did freeze. It was not proving to be cost 
effective. One of the reasons why was because it presumed that 
you could have one fixed sort of technology to use across the 
border at tremendous cost. And so we ended it at one small 
sector, and what we have done is say let us buy off-the-shelf 
mobile technologies that are available now that we can equip 
our men and women with now. And that will differ depending on 
what sector you are in because you will have different types of 
geography, different populations, and so forth.
    So every sector along the border has to develop their 
technology plan for how they will use the funds freed up by not 
investing in the SBInet system.
    I asked for the technology plan first from Arizona because 
it had the greatest need. That is in. We are making those 
procurements now. And then we are moving border wide over the 
course of the year.
    Senator Carper. And how will you measure success as we go 
down this new path?
    Secretary Napolitano. Well, it is the question that has 
dominated the hearing today, but a number of ways, one of which 
obviously is apprehensions both of individuals but drugs, drug 
traffickers, so forth. One is the ability to be a force 
multiplier so that we are able, once we spot somebody, to 
immediately go out and pick them up. Those are the kinds of 
things that would be added to the mix.
    Senator Carper. Just about every day we see more violence 
along our border with Mexico. I think we are partly to blame 
for that, and part of this is the exchange of drugs for guns. 
We are somewhat complicit in that exchange, unfortunately. I 
was down there about a little over a year ago, and I had a 
chance to go along the border, not in Arizona but over on the 
California side and talk to a number of the folks that are 
working down there, in some cases at real jeopardy to their own 
safety. My understanding is we are having patrol agents that 
are being shot at more frequently, patrolling some of the 
harshest terrains on our continent. And then we have a new 
trend, and it is a disturbing trend. We have had agents 
actually being killed by drug traffickers and by cartel 
members. It is also beginning to become less safe for Americans 
traveling to some of these cities across the border.
    Could you just describe for us your assessment of the 
escalating violence along the border? And is it safe to say 
that this violence has--I am tempted to use the word 
``officially''--officially spilled over into the United States?
    Secretary Napolitano. The states of northern Mexico have 
been experiencing a serious increase in violent crime, 
especially homicides, over the last several years related to 
the determination by President Calderon to take on the cartels, 
a determination with which we agree and are supporting in any 
way that we can, and also cartel-on-cartel violence as they 
fight over ever more limited territory.
    In Juarez, for example, I think Juarez must be one of the 
one or two highest homicide rates in the world right now. But 
it has also spread to other states, Tamaulipas, Sonora, and so 
forth. When I say a safe and secure border region that border--
on our side we have about 7 million people who live along the 
entire border. There is a much higher number who live in Mexico 
along the border. So we are really working with Mexico--in 
fact, we met with their leadership last Friday on a number of 
cross-border strategies to increase safety.
    Our men and women in the Border Patrol have very dangerous 
work, and any way we are supporting them, making sure they are 
well equipped, well trained, and have support, you have given 
us the resources to help do that. That is very important.
    I would say, however, that while we have had isolated 
instances of violence that have come into the United States 
from northern Mexico, if you take a step back and look at 
everything, the police reports, the arrest reports, the 
numbers, etc., they do not indicate that officially we have a 
plague of spillover violence.
    Senator Carper. All right. Thanks.
    Mr. Chairman, my time has expired. Could I just ask for one 
more minute?
    I have been at another hearing, as some of my other 
colleagues have, so I missed your testimony. Would you just 
take a minute, give me some good take-aways from what you had 
to say in your testimony, just maybe one or two points that I 
ought to just walk out of the room----
    Chairman Lieberman. You are back as U.S. Attorney or 
Attorney General, and the Judge is giving you----
    Secretary Napolitano. I am giving a summation.
    Chairman Lieberman. A summation of your argument, right.
    Senator Carper. You have both been Attorneys General, 
haven't you?
    Secretary Napolitano. Yes. They were both great jobs.
    Senator Carper. Would you say it is the greatest job you 
have had so far?
    Secretary Napolitano. I would say I have always had great 
jobs. [Laughter.]
    Senator Carper. I would say you have, too. And so have the 
rest of us.
    Secretary Napolitano. I would say that we talked about 
Osama bin Laden and that we have current and seamless exchange 
of intelligence right now, and if I am so advised, I will raise 
the advisory level. But I have not been so advised.
    On immigration, that we have more resources at the border 
than ever before, at both borders, and different strategies at 
both borders, but they continue to be works in progress. We 
cannot deal with border security without dealing also with 
interior enforcement and immigration reform. They are related.
    Senator Carper. All right. Thanks so much. Good to see you.
    Secretary Napolitano. You bet.
    Chairman Lieberman. Thanks, Senator Carper.
    Madam Secretary, thanks for your testimony. You have been 
responsive to our questions. You have been informative and very 
helpful. My confidence in you continues to rise.
    Secretary Napolitano. Thank you. I appreciate it.
    Chairman Lieberman. We will keep the record of the hearing 
open for 15 days for additional statements and questions.
    And with that, the hearing is adjourned.
    [Whereupon, at 12:07 p.m., the Committee was adjourned.]




























                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
